<html>
<title> - CLIMATE CHANGE AND WATER SUPPLY</title>
<body><pre>[Senate Hearing 110-130]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-130
 
                    CLIMATE CHANGE AND WATER SUPPLY

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE IMPACTS OF CLIMATE CHANGE ON WATER SUPPLY AND 
AVAILABILITY IN THE UNITED STATES, AND RELATED ISSUES FROM A WATER USE 
                              PERSPECTIVE

                               __________

                              JUNE 6, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

37-460 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming *
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           CRAIG THOMAS, Wyoming *
KEN SALAZAR, Colorado                JIM DeMINT, South Carolina
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

----------
 Senator Thomas passed away on June 4, 2007.

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Brick, Tim F., Chairman, Metropolitan Water District of Southern 
  California, Los Angeles, CA....................................    28
Cantwell, Hon. Maria, U.S. Senator from Washington...............     1
Corker, Hon. Bob, U.S. Senator from Tennessee....................     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................     3
Culbertson, Tim, Representative for National Hydropower 
  Association, Ephrata, WA.......................................    38
Fulp, Terry Ph.D., Area Manager, Boulder Canyon Operations 
  Office, Bureau of Reclamation, Department of the Interior......    45
Milly, Christopher, Ph.D., Research Hydrologist, Geological 
  Survey, Department of the Interior.............................    13
Mote, Philip W., Ph.D., Research Scientist, JISAO-CSES Climate 
  Impacts Group, University of Washington, Seattle, WA...........     4
O'Toole, Patrick, President, Family Farm Alliance, Savery, WY....    21
Salazar, Hon. Ken, U.S. Senator from Colorado....................     2
Udall, Bradley H., Director, National Oceanic and Atmospheric 
  Administration-University of Colorado Western Water Assessment, 
  Boulder, CO....................................................     8
Williams, Jack, Senior Scientist, Trout Unlimited, Arlington, VA.    33

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    55

                              Appendix II

Additional material submitted for the record.....................    73


                    CLIMATE CHANGE AND WATER SUPPLY

                              ----------                              


                        WEDNESDAY, JUNE 6, 2007

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee On Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:48 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Maria 
Cantwell presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL,
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Committee on Energy and Natural 
Resources Subcommittee on Water and Power will come to order. 
We are glad to have a hearing today to talk about the impacts 
of climate change on water supply and availability in the 
United States and related issues to water, water use, and 
various perspectives.
    I would like to thank the two panels here and we apologize 
for the vote interrupting our start time. I am, in the interest 
of that, going to put my opening statement into the record so 
that we can go with the panels. But I'll ask either of my 
colleagues if they would like to make an opening statement.
    [The prepared statements of Senators Cantwell and Salazar 
follow:]
              Prepared Statement of Hon. Maria Cantwell, 
                      U.S. Senator From Washington
    I call to order this hearing before the Water and Power 
Subcommittee. It's my pleasure to welcome everyone to this afternoon's 
hearing. We have a distinguished set of witnesses today, most of whom 
have traveled across the country to be with us today. To each of them, 
we appreciate your willingness to be here today, and share your views 
with the Subcommittee.
    I'd like to specifically thank Dr. Phillip Mote and Tim Culbertson 
who have both traveled from Washington state to be with us today. Dr. 
Mote's work at the Climate Impacts Group at the University of 
Washington and as the Washington state Climatologist in documenting an 
asserted decline in Cascade Mountain glaciers has become well-known and 
respected within the scientific community.
    Tim Culbertson, General Manager of the Grant County Public Utility 
District in Eastern Washington. Grant County PUD is demonstrating 
leadership in optimizing the management of water on the Columbia River 
for hydropower generation, irrigation in the agricultural rich Columbia 
River Basin, and for fish management.
    The purpose of the hearing is to receive testimony on the impacts 
of climate change on water supply and availability in the United 
States, and related issues from a water use perspective. These issues 
are garnering more attention these days as the debate about whether 
climate change is occurring, and its root cause, recedes to the 
background.
    We know that temperatures are rising and we know that human 
activities account for most of the cause. We now need to fully 
understand the implications. In the arid West, the impact of climate 
change on water resources is an issue that deserves in-depth and 
ongoing scrutiny.
    As recently documented by the Intergovernmental Panel on Climate 
Change, we know that increasing temperatures are resulting in increased 
and earlier run-off from glacier-and snow-fed rivers; changes in 
precipitation to less snowpack and more rainfall; and significant 
warming in lakes and rivers, affecting habitat and water quality. These 
changes, and a host of others that are being studied, add to the 
significant challenges already facing water managers across the United 
States.
    Drought, population increases, environmental demands, and overuse 
of limited water supplies, have already created numerous situations in 
which federal, state, and local water managers have had to react 
quickly to address potential water shortages and conflicts.
    With emerging information on the impacts of climate change on 
water, planning will now likely expand to address this new area of 
concern. I am particularly interested in this aspect of global warming 
since the Pacific Northwest faces unique challenges in trying to deal 
with impacts on water supply.
    Snowpack is the largest component of the water storage system in 
our region--much more than man-made reservoirs. As snowpack decreases, 
and runoff occurs earlier in the season, less water will be available 
during the dry summer months for hydropower generation, irrigation, and 
recreational purposes.
    Salmon fisheries, a symbol of the Pacific Northwest, are already 
being stressed beyond sustainable limits, and now face reduced flows of 
higher temperatures at certain times of the year. Exacerbating the 
problem, is the fact that most of the 950 glaciers in Washington state 
are receding rapidly, compounding complications from reduced flows of 
higher temperature.
    In short, the impact of climate change on water supplies poses a 
major threat to the economic vitality of the Pacific Northwest, as well 
as other regions of the country. The issue therefore deserves the 
attention of Congress.
    We need to fully evaluate the problem and the adaptation strategies 
needing implementation. This will help determine the extent to which 
the Federal government needs to mobilize its resources to help states 
and local communities address the challenges ahead. Today's hearing is 
a good start in that process, and I look forward to gaining additional 
insight from the witnesses.
                                 ______
                                 
         Prepared Statement of Hon. Ken Salazar, U.S. Senator 
                             From Colorado
    Thank you Chairman Cantwell and Ranking Member Corker. I want to 
thank you for holding today's hearing on the impacts of climate change 
on water supplies and availability, particularly in the Western United 
States. I also want to thank the witnesses who have traveled to be with 
us today.
    Climate change is a very real and very present problem. Human 
activities have changed the climate of the Earth. This Congress is 
working hard to promote clean energy technologies that significantly 
reduce the amount of greenhouse gas emissions released to the 
atmosphere. We anticipate next week the Senate will be begin debate on 
an energy bill that will ramp up domestic renewable energy production, 
promote efficiency throughout the U.S. economy and invest in 
groundbreaking research designed to reduce carbon emissions.
    However, we are learning that some adaptation measures are 
inevitable to reduce the harm from climate change that proves to be 
unavoidable. In February 2007, the United Nations Foundation/Sigma XI 
released a scientific expert group report titled ``Confronting Climate 
Change: Avoiding the Unmanageable and Managing the Unavoidable.'' That 
report gave significant attention to adaptation measures that will 
likely have to be implemented to reduce the harm from climate change 
that proves to be unavoidable.
    Today's hearing is particularly important for the Western states of 
the U.S. because many scientists are now saying the American West will 
experience the effects of climate change sooner and more intensely than 
most other regions. Our scarce snow and water of the West is already 
being impacted, much of it in ways that we do not clearly understand.
    Colorado, my State, has a lot at stake when it comes to global 
warming. We have a world-class tourist industry that has flourished 
because of our State's natural beauty. Colorado has some of the best 
ski areas in the world, and some of the best big game fishing anywhere 
in the continental U.S. But, these tourist industries depend on 
sufficient winter snowfalls, slow spring melts, and river and lake 
temperatures capable of supporting native fish species.
    This hearing today is exceedingly important to help us learn what 
is known and not known about the impacts global warming will bring to 
the Western U.S., and especially the impacts being mitigated through 
water. It is also important to help us understand what adaptation 
measures must be planned for to ensure adequate water supplies for 
agricultural, industrial, business and residential uses.
    Madam Chairman, I thank you again for holding this important 
hearing so that we can learn from the experts testifying today.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Madam Chair, I think because of the time 
factor I'll let mine be entered, though I think it might be 
appropriate for Senator Craig to make some comments about our 
deceased colleague.
    [The prepared statement of Senator Corker follows:]
   Prepared Statement of Hon. Bob Corker, U.S. Senator From Tennessee
    Chairwoman Cantwell, it's a pleasure to be here today to discuss 
the impacts of climate change and variability on water supply.
    I am pleased with the work the United States Geological Survey and 
its partners are doing to better understand how climate variability is 
impacting our water management decisions. The more we understand about 
climate variability and climate change in regards to our water 
resources, the better we can cope with both near and long-term water 
resource challenges. I applaud the work Reclamation is undertaking to 
improve their knowledge of general circulation climate models at the 
level of individual Reclamation drainage basins, and how to incorporate 
the data into their water management decisions within these basins.
    We have come a long way in our understanding of how the weather 
impacts our water management decisions. In the Western United States, 
water managers have taken steps to improve their project operations and 
efficiencies, which have led to water savings. In addition, 
technologies have been developed to reuse and reclaim water that was 
once thought of as only a waste product. These actions are important 
because regardless of how climate change impacts water supply and 
availability, significant challenges such as population growth already 
exist that require attention and adaptation. I am a firm believer that 
the more we can do with less water, the better off we will be in times 
of need. I would urge each witness today to continue to utilize the 
best available data and incorporate the data into how they manage our 
water resources, while acknowledging that we still have a lot to learn 
about the future of climate change and its potential impacts.
    Again, I thank the witnesses for your presence, and thank you, 
Chairwoman Cantwell, for conducting this hearing. I look forward to 
hearing the testimony today.

    Senator Cantwell. That would be very appropriate. Senator 
Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Madam Chairman, thank you very much. 
Senator Corker, thank you.
    We have all lost a very real friend in our colleague 
Senator Craig Thomas. I had the privilege of not only being his 
neighbor out West with a bordering State, but I also served 
with the Senator in both the House and the U.S. Senate, and as 
a result of that we grew very close in not only friendship, but 
of course the commonality of issues.
    Today we are talking about water and its importance, and 
out in the arid West Craig Thomas understood that better than 
anyone else. As a westerner, I think Craig would have said very 
early on ``Whiskey's for drinking and water's for fighting.'' 
That was kind of the rule of thumb from the day his parents got 
to Wyoming and my grandparents got to Idaho, and I suspect 
under climate change or any other scenario, Madam Chairman, it 
would still be the fact. That would have been the character and 
the belief of our deceased colleague Craig Thomas.
    So certainly our best thoughts to his wife Susan and their 
family. Wyoming lost a great champion, as did the United 
States, and we will miss him in very real ways.
    Thank you.
    Senator Cantwell. Thank you, Senator Craig, for those 
comments. I, too, will miss Senator Thomas and his gentle style 
which he seemed to bring everywhere with him, to committee 
hearings, to the floor of the Senate, to the halls of these 
buildings, and having a ready smile for individuals.
    But when he showed up at these committees he had a certain 
fierceness in advocating for his position and I won't forget 
that fierceness. I also had the pleasure 1 day of following him 
down to the White House as he was driving his favorite 
automobile, his prize possession, only to see the system at the 
White House rip his bumper off. I assumed that would be a 
pretty frustrating experience, but he took it all in great 
stride, as he did so many things, and continued to have humor 
about it.
    We will miss him in the U.S. Senate and his advocacy. He 
stood up for the people of Wyoming on a constant basis. 
Oftentimes I feel like the Energy committee is the western 
committee, no offense to my colleague here. But I feel 
oftentimes that the Energy Committee has a lot of westerners on 
it and a western perspective. But his perspective will be 
sorely missed.
    So thank you for reminding all of us about his presence on 
this subcommittee and his contribution, and our thoughts and 
prayers are with his family.
    Senator Bingaman, did you wish to make any opening 
comments?

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. I'll forego opening comments. Thank you very 
much for having the hearing and I appreciate your very good 
comments about Senator Thomas.
    Senator Cantwell. Thank you.
    Let's start then with the first panel. Dr. Philip Mote, who 
is joining us from Climate Impacts Group from Seattle; 
Christopher Milly, Dr. Milly, who is a research hydrologist 
from the USGS; and Bradley Udall, Cooperative Institute for 
Research in Environmental Sciences at Boulder, Colorado. We 
welcome all of you. Thank you for being here. We have plenty of 
room for full written testimony, as long as you want, but we 
ask if your opening statements could be limited to 5 minutes. 
We'll start with you, Dr. Mote.

 STATEMENT OF PHILIP W. MOTE, PH.D., RESEARCH SCIENTIST, JISAO-
CSES CLIMATE IMPACTS GROUP, UNIVERSITY OF WASHINGTON, SEATTLE, 
                               WA

    Mr. Mote. Thank you, Madam Chair and members of the 
Committee, for holding this hearing. I'm Philip Mote and I'm a 
research scientist at the University of Washington with the 
Climate Impacts Group, which is one of eight regionally focused 
teams sponsored by NOAA's Climate Program Office.
    In a warming world, a reduction in ice and snow is a 
general consequence as warmer air provides energy to melt 
government in its solid form in preference for the liquid form. 
Indeed, melting ice contributes roughly half of the observed 3 
millimeters per year of sea level rise, and also provides 
visual indicators of climate change.
    This general fact that there's less snow and ice in a 
warming world has special consequence for those of us out in 
the western third of the country, where about 70 percent of 
annual stream flow is snow melt. Snow stores far more water 
than all the manmade reservoirs and this is important because 
out West most precipitation falls in the winter and the peak 
stream flow is in spring or early summer. Snow delays runoff by 
several months. Human enterprises, including agriculture, 
municipal water supply, hydropower, flood control, recreation, 
and several others, which are the subject of the second panel, 
are all built around the assumption that the future stream flow 
will have the same annual shape as past stream flow. But that 
assumption is breaking down.
    You should have a two-sided, one-page handout with color 
figures on each side and a bit of a journal article by Ira 
Stewart and colleagues, that illustrates some of what is 
happening. They looked at about 300 stream gauge records in the 
western United States on snow melt-dominated rivers and showed 
that spring snow melt has shifted earlier by roughly 2 weeks 
during the past half century. The pink and red dots in the 
single figure at the bottom of the first page show where those 
changes were largest, roughly 1 to 4 weeks. These include 
changes in Washington, Oregon, Idaho, and California, where the 
changes were largest.
    On the reverse side you find two panels showing that runoff 
has shifted from June to March. The summer peak flow is 
decreasing and the late winter flow is increasing.
    These observations are consistent with other observations 
that during the past half century winter and spring 
temperatures have warmed substantially, plants are blooming 
earlier, winter snow fall has diminished at most weather 
stations in the West. Especially relevant to water supply, 
spring snow pack has declined at about 73 percent of monitoring 
sites, with largest declines near the snow line.
    Many of these changes are largest, again, in Washington, 
Oregon, Idaho, and California, where much of the winter 
precipitation falls at temperatures close to freezing.
    The warming in the West can now be attributed to rising 
greenhouse gases and is not explained by any combination of 
natural factors.
    Computer models of global climate, of regional climate, and 
of hydrology can be used to estimate a range of possible future 
changes. Global model simulations performed by 21 modeling 
centers around the world were summarized in the 2007 report of 
the Intergovernmental Panel on Climate Change, which I was 
privileged to serve with.
    For most of the continental United States, warming is 
projected to be roughly 6 degrees Fahrenheit during the 21st 
century for a high CO<INF>2</INF> scenario. That will 
significantly erode the West's main water storage reservoir, 
its snow pack. Models are divided over whether precipitation 
will increase or decrease for the middle swath of the country, 
but they agree on increases in the northern tier of States, 
which our calculations estimate will not be enough to overcome 
the warming as far as snow pack is concerned; and they also 
agree on a decrease in precipitation in the Southwest.
    Physically based models of hydrology can be used to 
translate these climate model scenarios into changes in snow 
pack, stream flow, soil moisture, and so on, and such studies 
suggest that future changes are very much in line with what 
we've seen in the past, reductions in summer flow and a shift 
toward earlier spring snow melt.
    To begin to manage this huge risk posed to the West's main 
water storage reservoir, the Federal Government could do these 
three things: First, Federal agencies involved in water 
management could use existing academic tools to estimate ranges 
of future stream flow and consider management options. Second, 
the Government should ensure that existing observation networks 
do not suffer further neglect and decline, but instead are 
upgraded to effectively monitor changes. These networks include 
the USGS stream gauge network and the National Weather Service 
Cooperative Network. Third, the Government could catalyze river 
basin-scale policy planning using reservoir optimization models 
that optimally balance management objectives.
    Thank you for turning your attention to this important 
subject.
    [The prepared statement of Mr. Mote follows:]
  Prepared Statement of Philip W. Mote, Ph.D., Climate Impacts Group, 
                 University of Washington, Seattle, WA
                              introduction
    In most river basins of the West, especially in California, Oregon, 
and western Washington, snow (rather than man-made reservoirs) is the 
largest component of water storage. Most precipitation falls in the 
winter but about 70% of annual flow is snowmelt; snow provides a 
roughly half-year delay in runoff. Furthermore, a significant portion 
of the mountainous West receives much of its annual precipitation as 
warm snow, with temperatures above -3C (Bales et al. 2006). Hence, the 
West is (to varying degrees) vulnerable to climatic variations and 
changes that influence snowpack. This document updates the testimony I 
gave to the U.S. Senate Committee on Commerce, Science, and 
Transportation (Mote 2004).
                            observed changes
    What changes have been observed in the West since the mid-20th 
century?

          1) The West has warmed by roughly 0.8C in the November-March 
        season (Mote et al. 2005).
          2) Snowfall has diminished at most weather stations; these 
        changes are large and statistically significant in California, 
        Oregon, and Washington (Knowles et al. 2005).
          3) Spring snowpack has declined at roughly 75% of sites and 
        the magnitude of declines is largest at low elevations (Mote et 
        al. 2005).
          4) Spring snowmelt is generally occurring earlier, roughly 2 
        weeks (Stewart et al. 2005) and these shifts are larger at 
        lower elevations than at higher elevations (Regonda et al. 
        2005).
          5) In most snowmelt-dominated basins, winter flows have 
        increased and late spring-early summer flows have decreased as 
        flows shift (Stewart et al. 2005).
          6) The timing of biological events like flowering of lilacs 
        have also shifted in response to springtime warming (Cayan et 
        al. 2001).
          7) Flood risk appears to have changed in many river basins, 
        decreasing in snow-dominant basins and increasing in those with 
        some snow storage.

    In several of these studies, a clear quantitative link was 
established between the observed change and temperature in winter or 
spring. The warming in the West can now confidently be attributed to 
rising greenhouse gases and are not explained by any combination of 
natural factors (Stott 2003).
    These hydrologic shifts in response to warming--elevation-dependent 
losses in snow storage, with concomitant increases in winter flow and 
decreases in summer flow--are a harbinger of changes to come.
                        predicted future changes
    The starting point for future changes are the physically consistent 
global simulations of climate from climate models (e.g., IPCC 2007 
Chapters 8, io, and ii). Such projections typically are reported as 
seasonally averaged changes in temperature and precipitation (see 
Figure below*, for the A1B socioeconomic scenario). Modeling centers 
around the world have contributed hundreds of climate simulations to a 
database maintained by the Program for Climate Model Diagnostics and 
Intercomparison at the Lawrence Livermore National Laboratory. From 
such simulations one can construct average changes or produce also a 
range of changes. The projected warming in North America is greatest in 
high latitudes in winter, but is greatest in midlatitudes in summer 
owing partly to a soil moisture feedback. For much of the Lower 48 
states, warming is projected to be roughly 0.3C/decade for winter and 
0.4C/decade in summer for the A1B scenario. Precipitation changes 
globally tend to be positive in the tropical rainy belt and also in 
high latitudes, and negative in low latitudes. For North America, 
models are divided over whether precipitation will increase or decrease 
for a swath (white area in the bottom row of the Figure) of the Lower 
48, but tend to agree on increases in the northern tier of states and 
tend to agree also that precipitation in the Southwest will decrease.
---------------------------------------------------------------------------
    * Graphics in this document have been retained in subcommittee 
files.
---------------------------------------------------------------------------
    Physically-based models of hydrology can be used to translate such 
changes in climate into future changes in snowpack, soil moisture, 
streamflow, and so forth. Studies with such models are still relatively 
new, but it is clear that projected future hydrologic changes (e.g., 
Payne et al. 2004 for the Columbia River Basin, Christensen et al. 2004 
for the Colorado, Maurer and Duffy for California) produce the same 
types of changes in snowmelt-driven basins as have been observed. For 
low-end scenarios of future temperature change, the reductions in 
summer flow, shifts in timing of spring snowmelt, and increases in 
winter flow over coming decades would be as large as those observed in 
recent decades, whereas for high-end scenarios of future temperature 
change the projected hydrologic changes are extremely large.
                   management and policy implications
    Few water management agencies have begun to explore what these 
changes would mean for their ability to meet management objectives, let 
alone proactively address the changes. Some academic studies (e.g., 
Payne et al. 2004) have attempted to estimate changes in reliability of 
various water supply systems, and to explore adaptation options.

    Federal policy responses could include:
          a) directing federal agencies involved in water management to 
        study future streamflow.
          b) ensuring that existing observation networks (e.g., the 
        USGS stream gauge network and the National Weather Service 
        cooperative network) do not suffer further neglect and decline 
        but instead are upgraded to effectively monitor changes.
          c) catalyze river basin-scale policy planning, using 
        reservoir optimization models that optimally balance management 
        objectives.

References
    Bales, R. C., N. P. Molotch, T. H. Painter, M. D. Dettinger, R. 
Rice, and J. Dozier, 2006: Mountain hydrology of the western United 
States, Water Resour. Res., 42, doi:10.1029/2005WR004387.
    Cayan, D.R., S. A. Kammerdiener, M. D. Dettinger, J. M. Caprio, and 
D. H. Peterson, 2001: Changes in the onset of spring in the western 
United States. Bull. Amer. Meteor. Soc., 82, 399-415.
    Christensen, N.S., Wood, A.W., Voisin, N., Lettenmaier, D.P. and 
R.N. Palmer, 2004: Effects of climate change on the hydrology and water 
resources of the Colorado River Basin, Climatic Change 62, 337-363.
    IPCC, 2007: Climate Change 2007: The Physical Science Basis. 
Contribution of Working Group I to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change [S. Solomon et al., eds.]. 
Cambridge University Press, Cambridge, UK.
    Maurer, E.P. and P.B. Duffy, 2005, Uncertainty in projections of 
streamflow changes due to climate change in California, Geophys. Res. 
Letts. 32, doi:10.1029/ 2004GL021462.
    Mote, 2004: U.S. Senate testimony, http://commerce.senate.gov/pdf/
mote050604.pdf.
    Mote, P.W., A.F. Hamlet, M.P. Clark, and D.R Lettenmaier, 2005: 
Declining mountain snowpack in western North America, Bull. of the 
Amer. Meteorol. Soc., 86, 39-49.
    Payne, J.T., A.W. Wood, A.F. Hamlet, R.N. Palmer and D.P. 
Lettenmaier, 2004, Mitigating the effects of climate change on the 
water resources of the Columbia River basin, Climatic Change 62, 233-
256.
    Regonda S., Rajagopalan B., Clark M., and Pitlick J., 2005: 
Seasonal cycle shifts in hydroclimatology over the Western US, Climate, 
18, 372-384.
    Stewart, I.T., D.R. Cayan, and M.D. Dettinger, 2005: Changes 
towards earlier streamflow timing across western North America. J. 
Climate, 18, 1136-1155.
    Stott, RA., Attribution of regional-scale temperature changes to 
anthropogenic and natural causes. Geophys. Res. Letts., 30, 
doi:10.1029/2003GL017324, 2003.

    Senator Cantwell. Thank you.
    Mr. Udall, thank you for being here.

 STATEMENT OF BRADLEY H. UDALL, DIRECTOR, NATIONAL OCEANIC AND 
ATMOSPHERIC ADMINISTRATION-UNIVERSITY OF COLORADO WESTERN WATER 
                    ASSESSMENT, BOULDER, CO

    Mr. Udall. Thank you, Chairman Cantwell. It's my pleasure 
to be here. My name is Brad Udall. I'm the Director of the 
Western Water Assessment at the University of Colorado. The 
Western Water Assessment is the sister program to Dr. Mote's 
program at the University of Washington. There are eight of 
these regionally based programs around the country and we are 
on the front lines of providing decisionmakers with climate 
information.
    I am not a scientist. I have spent the last 4 years of my 
life embedded with scientists at the single largest laboratory 
that NOAA operates in Boulder, Colorado. During these 4 years 
I've learned a tremendous amount about climate and also managed 
to impart some knowledge to those scientists about how water 
management works, because my background is in engineering. This 
has been a fabulous and life-changing experience for me.
    As Phil said, all water planning is based on the idea of a 
static climate. We now know this is no longer true. My favorite 
quote is from the novelist T. Morris Longstreth, who wrote: 
``Of course we weren't lost; we were merely where we shouldn't 
have been without knowing where that was.'' That's the perfect 
analog for water management these days.
    I want to talk about three issues: The Colorado River, 
Federal management of climate change science, and regional 
decision support efforts. Even without climate change, the 
Colorado River has a serious problem. We've had 8 years of 
drought. We've lost half, half, of the storage on that river. 
This is the fastest growing area in the Nation. At the current 
rate of use, Lake Mead has 10 years of water left in it. 
Reclamation modeling under average hydrology shows that Lake 
Mead never refills at its current rate of use.
    If you add climate change on top of this, you then 
potentially have a very serious problem. Every model, every 
study that I've ever looked at, shows that if precipitation 
stays the same or declines you end up with less water in the 
Colorado River. Dr. Milly I think will address that.
    Let me switch now to Federal climate change science 
management. I truly believe this is not effective. The CCSP, 
the Climate Change Science Program, is a small office. It's 
directed by a committee from 13 different Federal agencies. 
It's underfunded and I truly believe it's not effective. For 
one, it has no decisionmakers on its management staff. You 
know, water managers in the West, they're not aware of this 
program and it's truly a shame. We can do better about this.
    There's also a lack of resources inside the Federal Climate 
Change Science Program being spent on decision support.
    One idea potentially--and Congress actually has passed 
this--is for a national climate service. In 1978 Congress 
passed an act. It's a great act. It has languished for lack of 
funding, and I would urge you all to look at funding it 
adequately.
    We need a coherent data policy. No data, simply put, means 
no science. Bad data gives us bad science. Management, of 
course, requires good data.
    We need to devote more resources to regional climate 
science. The Intergovernmental Panel on Climate Change studies 
are great, but they're not directed at regional decisionmakers. 
Decisionmakers are now very eager for information at a regional 
level.
    The first way to do this is to get regional climate 
modeling up to speed. It's not perfect, but it's the only tool 
we have. Water resource managers, like Metropolitan, San 
Francisco, everyone wants this. We also need additional 
computing power. The RISAAs, the programs, these Regional 
Integrated Sciences and Assessments, provide one model for 
allowing this Nation to adapt to climate change. We could scale 
up the eight programs that exist in the Nation to a national 
effort. This will take time. It can't be done overnight.
    But in my experience, when you combine academics, the 
Federal Government and its power, and decisionmakers, you 
generate quite wonderful products that are of real use to 
regional decisionmakers.
    One of my favorite quotes is that ``The proper response to 
uncertainty is insurance, not denial.'' Many forms of 
insurance. One is knowledge and we need to do a much better job 
of getting the knowledge of climate change out there to the 
decisionmakers that matter.
    Thank you for this opportunity.
    [The prepared statement of Mr. Udall follows:]
 Prepared Statement of Bradley H. Udall, Director, NOAA-University of 
             Colorado Western Water Assessment, Boulder, CO
     Chairwoman Cantwell, Ranking Member Corker, my cousin Senator 
Smith, and other Members of the Committee, thank you for the 
opportunity to speak with you today on the impacts of climate change on 
water supply and availability in the United States.
    My name is Brad Udall. I am the Director of the Western Water 
Assessment, an interdisciplinary Regional Integrated Science and 
Assessment (RISA) project funded by the NOAA Climate Program Office and 
a joint effort of the NOAA Earth System Research Laboratory and the 
University of Colorado. The eight RISAs around the country are 
innovative programs designed to connect climate science with decision 
makers. There are no other programs anywhere like these, and we are on 
the front line of dealing with requests for regional information on all 
aspects of climate variability and change.
    Although I was invited to sit on a panel with scientists, I am not 
a scientist. I am an engineer by training and I have an MBA. During the 
last four years of my life I have been embedded with scientists at the 
largest NOAA laboratory in the country where I have had the opportunity 
to learn about climate from scientists while providing them with a real 
world view of water management. It has been a fabulous and life 
changing experience. Formerly, I was a principal at a consulting 
engineer firm. In preparing this testimony I talked to scientists, 
water managers, and consulting engineers. Many were eager to share 
their thoughts on this important topic.
    All water planning is based on the idea of a static climate. Normal 
engineering practice for designing water supply and flood control 
projects is to plan as if the future will look like the past. However, 
we now know that our future climate will not look like the past, and 
that in addition to warmer temperatures the normal patterns of water 
movement around the globe will change. This is because the water cycle 
redistributes heat from the equator to the poles--and it is this 
movement of heat and water that determines our weather and climate. As 
the planet warms, these relationships will change, and the water cycle 
will adjust with potentially large impacts on humans.
    This fundamental fact has profound implications for water 
management. The novelist T. Morris Longstreth once wrote, ``Of course 
we weren't lost. We were merely where we shouldn't have been without 
knowing where that was.'' This is the position water managers find 
themselves in today. As we move forward, all water management actions 
based on ``normal'' as defined by the twentieth century will 
increasingly turn out to be bad bets.
    I would like to discuss three issues concerning adaptation to 
climate variability and change today. The first is the serious 
situation due to drought and increasing demands that has developed on 
the Colorado River which climate change threatens to make far worse. 
The second is my concern about how our national climate change 
scientific enterprise is being managed, and the third is the need to 
devote more scientific resources to meeting the needs of decision 
makers, almost all of whom have a regional or local focus.
                  the situation on the colorado river
    Please indulge me in a small bit of family history. My great-great 
grandfather John D. Lee was asked by Brigham Young to found what is now 
called Lee's Ferry, the all-important dividing line on the Colorado 
River between the Upper Basin and the Lower Basin in the 1922 Colorado 
River Compact. My great-grandfather and my grandfather farmed on the 
banks of the Little Colorado River in northeastern Arizona. My father, 
Morris Udall, was part of the Arizona delegation that passed the 
Central Arizona Project Act in 1968 which now moves large quantities of 
Colorado River water over 300 miles and 3000 vertical feet to Phoenix 
and Tucson. And during the course of my life I have been both a Grand 
Canyon River Guide and a water engineer.
    I care deeply about this river which affects 30 million people in 
seven states and faces an uncertain future even without climate change. 
The population of the American Southwest is the fastest growing of 
anywhere in the nation. The recent drought, which has featured extended 
low flows not seen in the 100-year gauged record, has resulted in the 
loss 30 million acre-feet of water, the equivalent of two years of 
annual flow and half of the maximum total storage. The two largest 
reservoirs, Lakes Mead and Powell, are now approximately half full. 
Lake Mead is currently losing 1.4 million acre-feet per year, and 
contains only 10 years of water at this rate of loss\1\ because the 
Lower Basin states have grown accustomed to using excess water from the 
Upper Basin, water that may not be there in the future under either 
climate variability or under climate change. According to Reclamation 
modeling, even under average historical hydrology Lake Mead never 
refills and Lake Powell takes decades to refill.
---------------------------------------------------------------------------
    \1\ With Lake Powell at about 50% of capacity, current operating 
practice is to release 8.23 million acre-feet (mat) to Lake Mead which 
combines with approximately 750,000 acre-feet of tributary inflow to 
make total annual inflow to Mead of 9.0 maf. Annual releases from Lake 
Mead total 10.4 maf: 7.5 maf total to Arizona, California and Nevada, 
1.5 maf to Mexico to meet our treaty requirements and an additional 1.4 
maf in evaporation and other losses.
---------------------------------------------------------------------------
    With climate change the picture is even more troubling. The West in 
general is experiencing warmer springs, reduced snowpack, and earlier 
runoff\2\. The Colorado River basin has warmed approximately 2F since 
1976\3\. Recent studies on the Colorado River indicate that the basin 
is likely to have less streamflow in the future\4\. In fact, all 
climate change studies on the river, some dating back to 1979, have 
found that less runoff will occur in the future under warmer conditions 
with either the same or less precipitation, the most likely future 
according to climate models. A variety of new studies\5\ based on the 
most recent Intergovernmental Panel of Climate Change (IPCC) modeling 
also paint a future with less water in the. basin. Two other second 
order effects of rising temperatures associated with climate change 
potentially influence water supply. Insect pests such as the pine 
beetle are projected to increase, which will affect forest health and 
the potential for fire\6\. Large forest fires have increased in recent 
years\7\ which may lead to increased reservoir sedimentation and water 
quality degradation. While these studies and projections may be wrong, 
the collective picture is troubling and it would be foolish to ignore 
them.
---------------------------------------------------------------------------
    \2\ For an overview of climate related impacts see: ``Climatic and 
Hydrologic Trends in the Western U.S.: A Review of Recent Peer-Reviewed 
Research'' available at: http://wwa.colorado.edulproducts/forecasts and 
outlooks/intermountain west climate summary/articles/ww a jan--
2007feature.pdf
    \3\ National Research Council (NRC) 2007. Colorado River basin 
Water Management--Evaluating and Adjusting to Hydroclimatic 
Variability. The National Academies Press, Page 61.
    \4\  For an overview, see http://wwa.colorado.edu/products/
forecasts and outlooks/intermountain west climate summary/wwa may 
2007.pdf
    \5\  See for example: N. Christensen, D. P. Lettenmaier. 2006. A 
multimodel ensemble approach to assessment of climate change impacts on 
the hydrology and water resources of the Colorado River basin. 
Hydrology and Earth System Sciences Discussions, 3, 3727-3770. 
Hoerling, M. and J. Eischeid. 2006. Past Peak Water in the Southwest. 
Southwest Hydrology, 6(1). Milly, P. C. D., K. A. Dunne, et al. (2005). 
``Global pattern of trends in streamflow and water availability in a 
changing climate.'' Nature 438(7066): 347-350. Seager, R., M. Ting, et 
al. (2007). ``Model Projections of an Imminent Transition to a More 
Arid Climate in Southwestern North America.'' Science: 1139601.
    \6\ Colorado's Grand and Summit counties now have over 1000 square 
miles of diseased and dying trees.
    \7\ Westerling, A. L., H. G. Hidalgo, et al. (2006). ``Warming and 
earlier spring increase western US forest wildfire activity.'' Science 
313(5789): 940-943.
---------------------------------------------------------------------------
    While the Lower Basin states of California, Arizona, and Nevada 
have over-consumption and growth problems, the Upper Basin states have 
another set of problems relating to the uncertainty of their compact 
entitlements. In the state of Colorado, for example, there is no 
unappropriated water in any basin other than the Colorado River, but 
use of Colorado River water is constrained by a 1922 Colorado River 
Compact downstream delivery requirement at Lee's Ferry. Developing 
additional water to meet Colorado's needs is now highly uncertain--
there could be anywhere from 0 to 800,000 acre-feet, enough to supply 
anticipated new growth for the next twenty years. Ever more problematic 
is the concern that climate change induced drought might lead to 
drastic curtailment of all `Post-Compact' water rights. Such 
curtailment could include shutting off half of the water which is now 
used by the major municipalities of the Front Range of Colorado where 
75% of the state lives.
    There is at least one bright spot on the river. For the last two 
years Reclamation has been working on an Environmental Impact Statement 
on how to share shortages and operate Powell and Mead during drought. 
This effort has lead to a noteworthy and imaginative agreement among 
the seven Colorado River states and Reclamation should issue a Record 
of Decision later this year. However, given climate change projections, 
I fear that this agreement will not be enough and the states will soon 
have to deal again with the delicate issue of not enough water for too 
many people.
          better federal management of climate change science
    We need a better way to manage the nation's overall climate change 
science enterprise. This is a critically important national problem yet 
the existing management structure seems ill-suited to the task. Does 
anyone really think an effective way to manage $2b of climate change 
science occurring in thirteen different federal agencies is by a small 
office overseen by a national interagency committee without budgetary 
authority? Despite good intentions, the Climate Change Science Program 
(CCSP) is a feel-good veneer on a problem that requires a far bigger 
response with an effective management structure. In addition, it is now 
time to include resource managers and decision makers along with 
scientists in the management of this very important program.
    One sign of the current management problems is that despite being 
eager for climate change information, almost no water manager in the 
country is aware of the Climate Change Science Program. And they are 
certainly not aware of the twenty one Synthesis and Assessment Products 
being rolled out over the next two years, several designed specifically 
for decision makers\8\. Another example is the lack of resources for 
``decision support'', the term used to describe information readily 
usable by policymakers. This is clear from both the small budget 
devoted to these activities and from actions of the program. I attended 
a CCSP workshop in 2005 on Decision Support attended by several hundred 
scientists yet there were just a handful of resource managers and 
decision makers in the audience. Please note that none of my comments 
are meant to malign the hardworking staff or management of the CCSP; 
they simply do not have the resources to pursue their mission 
effectively.
---------------------------------------------------------------------------
    \8\ Namely 3.1: Climate Models: An Assessment of Strengths and 
Limitations for User Applications; 4.3: The effects of climate change 
on agriculture, land resources, water resources, and biodiversity; and 
5.1: Uses and limitations of observations, data, forecasts, and other 
projections in decision support for selected sectors and regions.
---------------------------------------------------------------------------
    A National Climate Service, an idea under discussion by some in 
NOAA and in the academic community, might provide an umbrella to solve 
some of the climate variability and change needs of decision makers if 
it were crafted with care. This enterprise would ``connect climate 
science to decision-relevant questions and support building capacity to 
anticipate, plan for, and adapt to climate fluctuations.'' \9\ NOAA's 
new National Integrated Drought Information System (NIDIS) is one 
contribution to climate services. A national service would need to work 
closely with the many federal agencies that already deal in climate. 
Done effectively, this service would allow research scientists and 
resource managers to overcome the differences between the academic and 
management worlds. This concept already passed Congress in 1978 as 
Public Law 95-367 but has languished for lack of funding.
---------------------------------------------------------------------------
    \9\ Miles, E. L., A. K. Snover, et al. (2006). ``An approach to 
designing a national climate service.'' PNAS 103(52): 19616-19623.
---------------------------------------------------------------------------
    National scientific leadership should also entail a coherent policy 
for dealing with data. Simply put, no data means no science, and bad 
data leads to bad science. Good management also requires good data. In 
my experience with scientists, the first thing they love to argue about 
is data, the best example being the current dispute over hurricane 
trends. We will never end these arguments, but we should do our best to 
minimize these problems when possible. All data--National Weather 
Service data, USGS streamflow data, and National Resource Conservation 
Service snow and soil moisture data among many others--should be 
covered by a consistent national plan and be provided adequate funding. 
Data collection is unfortunately the first thing that gets cut in time 
of shortfall. Meta-data, that is data about data, is especially 
critical ancillary data because it lets scientists cull bad data from 
good.
         devote more scientific resources to regional problems
    In the last two years, the confluence of the severe on-going 
drought, eye-opening information on far more serious droughts in past 
centuries supplied by tree-rings, and the growing scientific certainty 
over the causes of climate change, have provided a focus such that 
water utilities and managers are now ready to be full participants in 
the scientific enterprise on climate. This means, however, that we need 
to be able to provide regionally specific information on risks, such as 
changes in snowpack, timing of spring runoff, increases in water demand 
from temperature increases, amount of sea level rise, and changes in 
the length of the growing season. Unfortunately, to date, scientific 
assessments like the IPCC have focused on the global and continental 
scale effects of climate change and hence are of limited use to 
regionally focused decision-making.
    One example of the burgeoning demand for climate change information 
came out of a water utility climate change summit early this year 
hosted by the San Francisco Public Utilities Commission (SFPUC) which I 
attended. This watershed event brought together some 250 water and 
wastewater utility leaders from around the nation, agency officials, 
top climate researchers, representatives from NGO's and the business 
community. Organized by and for water utility leaders, the Summit 
focused primarily on adaptation responses utilities are--and should 
be--thinking about in light of climate change. As a result of that 
Summit, a steering committee chaired by SFPUC General Manager Susan 
Leal and made up of managers of some of the largest utilities in the 
nation--Metropolitan in Southern California, New York, Seattle, Las 
Vegas, Denver, Portland and San Diego--has begun meeting to learn from 
one another and speak with a collective voice about what they need from 
federal, state, and regional agencies.
    Much of the regional response needs to revolve around regionally 
specific climate modeling; this is an explicit concern of the utility 
group. Regional modeling is urgently needed to inform water supply and 
capital improvement planning in the water and wastewater utility 
community. We know the climate models have problems dealing with 
precipitation in mountains, and they do not represent important aspects 
of climate variability like decadal fluctuations. They most certainly 
are not a substitute for judgment. But they are the only tool we have 
for investigating likely future conditions and as such are critical. 
Used with care these models can provide an estimate of the range of 
possible future conditions. Despite their limitations, we must move 
forward with all forms of regional modeling as quickly as possible and 
this includes educating decision makers on their strengths and 
limitations.
    Regional water management organizations need to work with 
regionally-based entities to solve their climate needs. During their 
10-year existence, the existing RISA programs have provided valuable 
climate-related services and information for portions of the country. 
Seattle Mayor Nickels' leadership on climate change with the US 
Conference of Mayors is in part due to his connection to the Climate 
Impacts Group at the University of Washington. The California 
Applications Project at the Scripps Institution of Oceanography has 
been heavily involved with Governor Schwarzenegger's climate change 
initiative. My program has recently convened a panel of experts to 
draft a road map to help the Lower Colorado office of Reclamation 
prepare for climate change. Time over and again, RISAs have shown the 
capability of providing regionally relevant information on a whole host 
of issues ranging from information about past climates, to seasonal 
forecasts, and recently to climate change.
    The RISAs provide one model of meeting regional climate needs that 
with additional resources could be scaled up to cover the nation. But 
this can not be done overnight. The effort takes time, dedication and 
commitment; overcoming the differences between the academic and 
professional management world can be challenging but innovative 
solutions come when academics, federal employees, and professionals 
share and combine their knowledge.
                               conclusion
    Drought and increased demand have combined to create a serious 
water supply problem on the Colorado River which climate change 
threatens to make far worse. To help the nation adapt to water supply 
problems caused by climate variability and change, we need more 
effective federal climate change science management and much more 
regionally-directed science. Both of these will require the involvement 
of resource managers and stakeholders in addition to scientists. 
Solutions will involve challenges to everyone. Scientists will need to 
understand needs and constraints of decision makers and adjust research 
to fit. Water Managers will need to understand the science better, and 
learn how to fit the uncertainty of climate change into their already 
significant capability to deal with variability. And even Congress will 
need to provide the necessary structure and oversight to allow the best 
climate change adaptation response possible.
    Someone once said that the ``proper response to uncertainty is 
insurance, not denial.'' It is time that we start acquiring `insurance' 
against the effects of climate change by making sure that we have the 
necessary management, resources, tools and people to pursue critically 
needed water sector climate change adaptation measures. Thank you for 
the opportunity to address you today.

    Senator Cantwell. Thank you, Mr. Udall.
    Dr. Milly.

 STATEMENT OF CHRISTOPHER MILLY, PH.D., RESEARCH HYDROLOGIST, 
               GEOLOGICAL SURVEY, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Milly. Senator Cantwell and members of the 
subcommittee. Thank you for this opportunity to present 
testimony on the impacts of climate change on water supply and 
water availability in the United States. Water is the lifeblood 
of the Nation. Water keeps our bodies hydrated and clean and 
sanitizes our living spaces. Water in the soil grows the food 
we eat. We use water in the processing of food and fuel and the 
manufacture of products. Water flowing through our rivers 
generates electricity and transports cargo. Water is habitat 
and highway for fish and fowl. Water, liquid or frozen, is the 
Nation's playground in summer and winter.
    The distribution of water across the Nation depends largely 
on climate. Changing climate is now affecting the availability 
of water in the United States. Water availability can be 
measured in many ways. Precipitation is the gross income of our 
Nation's water budget. Stream flow is the net income. It's what 
remains after the evapotranspiration tax has been extracted.
    Snow pack, reservoir levels, soil moisture, and water 
tables represent the contents of our water bank accounts. The 
bank accounts are important for getting us through hot, dry 
summers or the inevitable years of drought. But ultimately 
stream flow is the single best measure of disposable income in 
our national water budget.
    So what stream flow changes have been observed? The very 
normal ups and downs of annual stream flow are superimposed 
upon subtle longer-term changes. For example, during the last 
30 years the U.S. Midwest and Alaska received more water income 
than during earlier years of record and the U.S. Southwest 
received less.
    Long-term changes in seasonal timing of stream flow, as 
you've already heard, have also been observed. In the western 
United States and the northern tier of the eastern United 
States, seasonal stream flows typically rose and fell about a 
week earlier on average during recent decades than during the 
prior period of record.
    Are all these changes just normal variations or do they 
reflect climate change? The observed pattern of stream flow 
trends roughly matches the pattern that emerges from climate 
models when they try to simulate national stream flow during 
the 20th century. When we look at a global comparison of 
observed and climate model changes, this rough agreement for 
the United States is repeated over and over on the other 
continents. Such a level of agreement across the globe would be 
very unlikely to arise from natural variability alone.
    We conclude that the same factors causing global warming 
have been changing the global water cycle. The change in the 
global water cycle in turn has contributed to the observed 
changes in stream flow and water availability in the United 
States. Additionally, the earlier stream flow timing observed 
in western and northeastern United States has been correlated 
with rising temperatures and a declining snow pack and is 
consistent with expectations from models of forced climate 
change.
    So what about the future? The demonstrated skill of climate 
models when looking back at the past means that they are 
credible, though admittedly far from perfect, tools for looking 
forward into the future. These models project sustained drying 
of the Southwest and moistening of the Midwest and Alaska. 
These projections are only caricatures of the real future and 
they leave a lot of room for improvement. Climate models 
represent areas larger than the State of Maryland all the way 
from the Eastern Shore to the Allegheny Plateau by a single 
point. Much higher resolution climate models are needed in 
order to support optimal water management.
    The Nation has no comprehensive network of stream flow 
measurement stations dedicated to monitoring long-term changes 
across the landscape. However, keeping higher resolution models 
honest and tracking ongoing changes in water availability will 
require higher resolution measurements.
    Climate information needs to be delivered in a form that is 
more relevant to its consumers, water management. Water 
management needs flexible design and planning tools, 
recognizing that climate will change during the lifetime of a 
project and that those changes are uncertain.
    Thank you for this opportunity to present testimony and 
I'll do my best to answer any questions that you or the 
subcommittee may have. Thank you.
    [The prepared statement of Mr. Milly follows:]
 Prepared Statement of Christopher Milly, Ph.D., Research Hydrologist, 
             Geological Survey, Department of the Interior
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for this 
opportunity to present testimony on the impacts of climate change on 
water supply and water availability in the United States.
    Water is the life-blood of the Nation. Water keeps our bodies 
hydrated and clean and sanitizes our living spaces. Water in the soil 
grows the food we eat. We use water in the processing of food and fuel 
and the manufacture of products. Water flowing through our rivers 
produces electricity and transports cargo. Water is habitat and highway 
for fish and fowl. Water, liquid or frozen, is the Nation's playground 
in summer and winter.
    The distribution of water across the Nation depends largely on 
climate. As discussed below, we believe the same factors causing global 
warming are changing the global water cycle.
    Water availability can be measured in many ways: precipitation, 
streamflow, reservoir levels, snow pack, soil moisture, glaciers, and 
water tables. Precipitation is the gross income of our Nation's water 
budget; streamflow is the net income--what remains after the 
evapotranspiration tax has been extracted. Snow pack, reservoir levels, 
soil moisture and water tables represent the contents of our water bank 
accounts. The bank accounts are important for getting us through hot 
dry summers or the inevitable years of drought, but ultimately 
streamflow is the single best measure of disposable income in our 
national water budget.
    How might water availability be expected to respond to a general 
climatic warming? The behavior of the water substance is very sensitive 
to temperature variations. Warm ice melts. Warm water expands. Warm air 
can hold more water vapor. Together with some more advanced atmospheric 
physics, which predicts subtle shifts in atmospheric circulation, these 
facts suggest the changes in water availability that can result from 
warming:

  <bullet> Systematic regional increases and decreases of total annual 
        streamflow.
  <bullet> Rising sea level, resulting in increased risk of saltwater 
        contamination of coastal freshwater supplies.
  <bullet> Loss of snow pack, resulting in increased winter streamflow 
        and winter flood risk and decreased summer streamflow.
                      observed streamflow changes
    During the last several decades, annual streamflow in the United 
States fluctuated widely over time. In 1988, the Ohio River gave 115 
million acre feet of water to the Mississippi; the next year it gave 
270 million acre feet. Such wide variation is a normal state of 
affairs.
    The normal ups and downs of annual streamflow are superimposed upon 
more subtle, longer-term changes. In recent decades, the U.S. Midwest 
and Alaska became wetter, while the U.S. Southwest became drier. For 
example, the flow of the Ohio River at Metropolis, Ohio, during the 
last 30 years was 12 percent higher than during the preceding 48 years 
of observations. The flow of the Colorado River at Lees Ferry, Arizona, 
was 3 percent lower than during the preceding 71 years (after making 
adjustments for flow decreases associated with water withdrawals). The 
flow of the Yukon River at Eagle, Alaska, was 3 percent higher than 
during the preceding 26 years.
    Long-term changes in seasonal timing of streamflow, possibly 
related to warming-induced changes in snowfall and snowmelt, have also 
been observed. As the western United States has warmed during recent 
decades, a tendency toward earlier timing of streamflow has been noted. 
Similar trends toward earlier streamflow have been seen in the northern 
tier of the eastern United States. In both regions, seasonal 
streamflows are typically rising and falling about a week earlier in 
the year during recent decades than in the prior period of record.
 causes of observed streamflow changes: normal variability vs. forced 
                             climate change
    On the basis of statistical analyses of streamflow measurements, 
tree-ring records, and models, it appears that the recent long-term 
changes in annual streamflow observed over large areas of the United 
States were not unprecedented. Consequently, taken alone, these 
streamflow changes are not unequivocal evidence of forced climate 
change, but might be explained as mere manifestations of natural, 
internal variability in the climate system.
    However, these data need not be taken alone. We have other sources 
of information, including streamflow measurements from around the world 
and computer simulations of changing climate in the United States and 
the rest of the world. The observed pattern of a wetter Midwest, a 
drier Southwest, and a wetter Alaska is also the pattern that emerges 
from climate models when they try to simulate streamflow during the 
20th century. And, when we look at a global comparison of observed and 
climate-modeled changes in annual streamflow during the 20th century, 
this rough agreement for the United States is repeated over and over on 
the other continents. Analysis suggests that such a level of agreement 
across the globe would be very unlikely to arise simply by chance. On 
the basis of this global perspective, we conclude that the same factors 
causing global warming are changing the global water cycle. The change 
in the global water cycle, in turn, contributes to the observed changes 
in streamflow and water availability in the United States.
    The earlier streamflow timing observed in the western and 
northeastern United States has been correlated with rising 
temperatures, but changes in precipitation amounts and timing have also 
played a role. Changes in streamflow timing have not been clearly 
attributed to forced climate change. However, we can say that the 
observed changes in streamflow timing are qualitatively consistent with 
expected impacts of forced climate change.
                  predicting future water availability
    It is not valid simply to extrapolate the observed past changes in 
water availability forward into the future. However, the demonstrated 
skill of climate models in simulating the global pattern of 20th-
century change in annual streamflow means that those models are 
credible, though far from perfect, tools for looking into the future. 
Given best assumptions about future atmospheric carbon dioxide 
concentrations and other drivers of climate change, these models 
project a long-term drying trend in the Southwest and moistening trends 
in the Midwest and Alaska. The drying trend in the Southwest can be 
expected to imply also an increasing probability of occurrence of 
Southwestern drought.
    These projections, at best, are only crude caricatures of the real 
future. Are they the best that we can realistically hope for? Not at 
all. There is much room for improvement:

  <bullet> Climate models typically represent conditions over areas 
        larger than the State of Maryland by a single point. Such an 
        approach has been adequate to assess global warming. However, 
        climate varies geographically on a much finer scale, especially 
        in mountainous regions. Therefore, to assess practical impacts 
        on water and to design, plan, and implement needed adaptations, 
        water managers need information on a much finer spatial scale, 
        more like that of a county. To deliver this, much-higher-
        resolution climate models are needed.
  <bullet> The Nation has no comprehensive network of streamflow 
        measurement stations dedicated to monitoring long-term changes 
        in streamflow in natural, developed, and developing 
        environments across the national landscape. The available 
        measurements, assembled from stations established for other 
        purposes, have proven critical for the progress that has been 
        made in detecting global changes in water availability. 
        However, keeping higher-resolution models honest and tracking 
        ongoing changes in water availability will require higher-
        resolution measurements.
  <bullet> Climate models have only begun to include the effects of 
        water-resource development, land use, and land-cover change on 
        climate. This has not been identified as a crucial impediment 
        for global analyses, but it probably matters at the finer 
        spatial scale of water management.
  <bullet> Water shortages come about when supply falls short of 
        demand. Increased demand can create shortage, even when supply 
        is stable. A change in climate causes a change in water demand, 
        e.g., for irrigation and for natural ecosystems. Our 
        understanding of this relation between climate and water demand 
        needs improvement.
  <bullet> Production of better climate information is necessary but 
        not sufficient to assess future impacts. Climate information 
        needs to come in a form that is relevant to water management. 
        In order to ensure the relevance of climate-model information 
        to water managers, accelerated and continuing dialogue will be 
        needed between climate science and water managers.
  <bullet> To make best use of available information in a changing 
        climate, water management will need to adopt more flexible 
        tools than those that have sufficed in the past. These new 
        tools, unlike those that currently do the lion's share of 
        water-system planning and design, must recognize that climate 
        will change during the lifetime of a project and that estimates 
        of the changing climate are uncertain. This will require a sea 
        change in the field of water management. Such a change will not 
        be accomplished without a concerted effort by government, 
        academia, and professional societies.

    Mr. Chairman, thank you for this opportunity to present testimony. 
I will do my best to answer any questions that you or other members of 
the subcommittee may have on this topic.

    Senator Cantwell. Thank you, gentlemen. Thank you for your 
testimony.
    I guess I'll go ahead and start. I was going to defer to 
Senator Bingaman, but I'm happy to start.
    You talked particularly, Dr. Milly, about water management 
and all of you talked about the need for more information. Are 
there some things that are known now that we should be doing? 
I'm going to pose a question, too, whether storage capacity is 
something that we should be looking at. Obviously, our views on 
storage capacity have changed over the last several decades. Do 
we need to rethink that and what else do we need to do in this 
area of water management?
    Mr. Milly. I could only say generally that storage capacity 
is one of the tools that I understand water managers use to 
help us match supplies and demands. I'm more at the end of 
being able to report to you on the changes in the supply and 
I'd prefer to defer to my colleagues here on the management 
questions.
    Senator Cantwell. Dr. Mote or Mr. Udall, for us in the 
Northwest, as I'm sure you understand, Dr. Mote, the change in 
climate even at 1 percent for an economy that is built on cheap 
hydropower is quite a significant impact. So what should we be 
doing?
    Mr. Mote. First of all, climate change should clearly be 
factored into any long-range plan involving water, whether it 
be evaluation of new storage supplies--
    Senator Cantwell. Do you have your microphone on?
    Mr. Mote. I'm sorry.
    Senator Cantwell. Thank you.
    Mr. Mote. It's one of those things we forget if we don't do 
this every day.
    The relicensing of dams under FERC, for example, involves 
calculations of flows and reliability of different objectives. 
Clearly, climate change should be factored into things like 
that. But in addition, just with today's reservoir management 
approaches, one thing that could be done is to design reservoir 
optimization models. This is a sort of a 21st century 
technological approach replacing the sort of pen and paper 
version of earlier decades, where you construct a cost function 
or a benefit function for each use of water and then you let 
the model decide, is it best to hold this water in May or 
release it, because you're balancing hydropower with the needs 
for fish and agriculture and so on.
    This is an approach that has been tried in an academic 
setting. It could be done on a wider scale and involve 
stakeholders in designing the cost functions.
    Senator Cantwell. Mr. Udall.
    Mr. Udall. Senator, there are 8,000 reservoirs in the 
United States over 6 feet tall according to the USGS. Eight 
thousand of those are considered large, 4,000 in the West, 
4,000 in the East. Certainly reservoirs play a role here. But 
should anyone think that this is going to solve all of our 
problems, I think they're going to be quite saddened that it 
will not.
    Groundwater storage may be a potential opportunity here, 
that the State of Arizona is doing and others are doing. But 
any reservoir--the good reservoir sites are gone now for the 
most part.
    Senator Cantwell. So that's a no on any new reservoirs. I 
think--
    Mr. Udall. It's not a no, but it's a very considered, there 
may be some reservoirs that help us, but it will not be the 
universal solution.
    Senator Cantwell. Yes, I'm more getting at that I think 
that the Bureau of Reclamation and our policies here have 
basically turned in a different direction, away from 
reservoirs, and maybe rightly so. But the question is what 
should we be considering.
    So you're not objecting to it being a tool, as Dr. Milly 
mentioned, as far as management, but you're just saying just 
don't overfocus on that that's a great solution?
    Mr. Udall. Any reservoir that needs to be built nowadays 
has to be off-channel for the most part because of the 
environmental consequences, I think.
    Senator Cantwell. Dr. Milly, did you want to add something?
    Mr. Milly. Yes. I should comment that there are regions in 
which, as I said, the net income basically of water is 
declining, that no amount of storage capacity can create that 
water, of course.
    Senator Cantwell. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Chairwoman, and thank you for 
your testimony. Dr. Milly, I've seen some of the modeling and I 
couldn't agree more that we need higher resolution and need to 
be able to look at this data in much closer detail. I 
appreciate your comments in that regard.
    I was listening to Mr. Udall's comments about Lake Mead and 
the need for climate modeling, but based on the scenario you 
were describing it seems to me that far more urgent activity 
needs to occur. By the time you've developed climate modeling, 
based on what you said, Lake Mead would have no water. I'm 
wondering if there's other efforts under way while modeling is 
being proposed?
    Mr. Milly. Absolutely, and I think Dr. Fulp here will 
address this on the second panel. Reclamation now has an EIS 
under way that's going to solve, at least for the short term, 
the water management problems on the Colorado River. The larger 
question is is this enough. Basically, this environmental 
impact statement allows shortages to Arizona of 600,000 acre-
feet a year, and yet we're digging a 1.4 million acre-foot hole 
in the reservoir every year. Those numbers still diverge in a 
way that's scary, and if some of the scenarios that play out 
here with climate change and reduction of water in the 
Southwest come about we're going to be talking about this again 
in the not too distant future.
    Senator Corker. Dr. Mote, as far as the 0.8 Centigrade 
change that's taken place in warming recently, if you look back 
through historical times, how does that relate?
    Mr. Mote. For the globe as a whole, a 0.8 degrees--we 
experienced 0.7 degrees in the last 100 years, according to the 
IPCC, and it was very likely that that rate of change over any 
50-year period had not been experienced in at least the last 
1300 years.
    For the West as a whole, I'm not sure whether such a rate 
of change has been experienced within the last thousand years. 
But it is faster than the warming that occurred in the early 
part of the instrumental record by quite a lot.
    Senator Corker. Thank you, Chairwoman.
    Senator Cantwell. Senator Craig, do you have any questions 
for our panelists?
    Senator Craig. Thank you, Madam Chairman. Thank you.
    I guess one question, Dr. Milly. You've described a number 
of studies that are under way by the administration to study 
the effect of climate change in relation to water supply. Can 
you give us any idea of what those studies will bear, meaning 
what anticipated information will change the way we operate our 
current water systems? What are you anticipating?
    Mr. Milly. The question of how one operates water supply 
infrastructure is not one that I claim to have expertise in.
    Senator Craig. So what are we looking for, baselines from 
which to make decisions?
    Mr. Milly. We believe that's true, yes. So the one who has 
to manage that supply, if we can tell him, for example, on 
average over the next 30 years you're going to see 20 percent 
less water coming down the Colorado, although it'll be 
fluctuating up and down, of course, as it always has in the 
past, then we understand that that's useful information to 
them, and that's the sort of information that we try to 
provide.
    Also, the information on the fact that with the loss of 
snow pack you may expect to see stream flow declining earlier 
in the year, so that as late summer draws on there's just not 
nearly as much water coming down the river as you've been 
accustomed to in the past, that kind of information. Then it's 
up to the water manager to decide how to meet the demands, 
given that information.
    Senator Craig. Mr. Udall and the chairman just got involved 
in a discussion about potential additional storage. I don't 
disagree that if it comes it's probably off main stem. Would 
your information attempt to help us understand as those flow 
patterns change times when there may be a greater opportunity 
to store than was historically the case? Is that the intent?
    Mr. Udall. The intent of regional climate modeling is to 
provide hydrology, future hydrology, that the engineers who 
operate these systems can figure out how best to optimize our 
reservoirs. Those operations involve things like how much do we 
worry about floods, how low do we draw our reservoirs down in 
the spring so that they can capture water and be safe so that 
you don't have a flood, but also capture the maximum amount of 
water possible?
    Senator Craig. Yes, I experienced the reality of an 
interesting thought here. About a year ago, the Boise River was 
at near flood stage, hadn't been in quite a while. Of course, 
in that quite a while period of time people had busily built in 
the flood plain. I was trying to suggest to many of my 
constituents that a flood was a good thing because we hadn't 
had one in a while, which meant we were having an optimum water 
year. I had never thought of it in that way and oftentimes we 
think of flood as being a negative event. Out West in the last 
few years, it really is a positive event, if you're in the 
right place anyway or haven't chosen to be in the wrong place.
    But anyway, gentlemen, thank you.
    Senator Cantwell. Thank you, Senator Craig.
    One last question I had, Dr. Udall. You talked about 
modeling and information. Do we have the ability to do region-
specific climate change models? Or Dr. Mote, either one of you.
    Mr. Udall. We certainly have the capability of doing it in 
the future, and people are taking large general circulation 
models, the big climate models, and downscaling them nowadays 
and getting reasonable results. But I think the idea here is, 
for example in the West, where topography is so important in 
determining what happens in the hydrological cycle, the smaller 
you can focus these models on, the better the results you get 
out. We need to expend more resources on that aspect of climate 
modeling.
    Mr. Mote. There is--
    Senator Cantwell. Go ahead, Dr. Mote.
    Mr. Mote. Excuse me. There is an effort under way among 
several modeling groups to do regional modeling for the whole 
United States, called NARCCAP, which I think is North American 
Regional Climate Change Applications Program, something like 
that. So within a few months we'll have national scale regional 
modeling. It's only at a 50- kilometer, 30-mile resolution, so 
it's better than the global models, but still not good enough 
for some resolutions.
    We in the Pacific Northwest have a much finer scale model 
that we've run a couple of times.
    Senator Cantwell. What does that tell us in the sense of 
helping us to do water management? What data have we acquired 
from that?
    Mr. Mote. We're still at the early stages of evaluating the 
results of those modeling experiments. But they suggest, for 
example, that some of the changes in cloudiness or 
precipitation in the Yakama Basin versus west side of the 
Cascades, that these can be differentiated.
    Senator Cantwell. But you think that, given the ecosystem 
of the State of Washington, that we can defer--I mean, that we 
can differentiate ecosystems from east and west. But you think 
this is an investment we should be making for the entire United 
States?
    Mr. Mote. NARCCAP is an excellent first step. A few years 
from now we'll need to revisit it on a much higher spatial 
resolution to support water management and other needs.
    Senator Cantwell. We might pose further questions on this 
because I think part of the challenge here is if you say that 
key to the strategy in dealing with this change is the 
modeling, I think we need to understand what the modeling will 
actually deliver for us. So we might pose some further 
questions to you.
    Well, gentlemen, thank you. I think we'll go to panel No. 2 
unless my colleagues have any other further questions. Let's 
hear from some of the actual water users. Gentlemen, thank you 
for your testimony and your expertise in this area. We look 
forward to continuing to dialog with you on this important 
issue.
    I'd like to call panel two now. Mr. Patrick O'Toole from 
the Family Farm Alliance from Wyoming, and I want to mention 
that Mr. O'Toole served in the Wyoming State Legislature with 
Senator Thomas, so we're glad that he is here with us today. 
Jack Williams from Trout Unlimited; Mr. Terry Fulp, who is the 
Area Manager of Boulder Canyon Operations for the United States 
Bureau of Reclamation; Mr. Tim Brick, the Metropolitan Water 
District of Southern California; and Mr. Tim Culbertson, 
representing National Hydropower Association, from Ephrata, 
Washington.
    Gentlemen, thank you very much. We do have participation 
across the country, but again a little bit more focused in the 
West, where water issues are often fought over. So thank you 
for being here, and, Mr. O'Toole, thank you very much for being 
here and we'll start with you.

STATEMENT OF PATRICK O'TOOLE, PRESIDENT, FAMILY FARM ALLIANCE, 
                           SAVERY, WY

    Mr. O'Toole: Thank you, Madam Chairman. When I was asked to 
be on this panel, Senator Thomas's office contacted me, and I 
was so looking forward to him introducing me. We worked 
together in the legislature. He was a colleague. He was a 
friend and we will miss him.
    The last meeting actually that I had with Senator Thomas 
was at Saratoga, Wyoming, last year when we talked about what 
is a very graphic manifestation of at least the perception of 
climate change in the Rocky Mountain States. If you've flown 
over southern Wyoming and Colorado, you would be stunned to see 
the effects of the die-off of trees that has happened over the 
last 3 or 4 years. I was stunned to see what had happened over 
the last, from last fall to this spring. There were forests 
with 90 percent of the trees gone, and they will be gone for my 
lifetime and into my grandchildren's lifetime as we regenerate.
    Our conservation was what could we do to enhance water 
supply in those areas that are so affected. I believe that 
Family Farm Alliance, which I am currently president of, what I 
think we bring to the table is the ability to reach out to all 
of the 16 western States in which we have irrigator members and 
talk about the specific instances that are happening State by 
State.
    To us it is very graphic, and the reality of the loss of 
water is affecting virtually every irrigation district in the 
West. Currently people talk about looking down from 50,000 
feet. Well, I live at 7,000 and am surrounded by mountains at 
10,000 feet, and I maybe will give you a little bit of what it 
looks like from the ground.
    Last year we had 130 percent snow pack in March. Last 
summer was the driest summer. It burned up our country just 
because of the change in climate. This year our basin is at 29 
percent, 29 percent of normal, and Wyoming is discussed over 
the long-term average, possibly as low as 60 percent deliveries 
to the Colorado River. Those are significant numbers that are 
going to have effects on our members and, more importantly, on 
what we perceive as America's food supply and its national 
security as it relates to that.
    We have listed in our testimony a lot of different examples 
of various things that are happening in various States and 
various things various States are doing. But we started putting 
together 3 years ago and I testified and presented in front of 
the Senate--the House Energy Committee a study that the Family 
Farm Alliance did on storage. We believe that is one of a 
toolbox of things that we should be doing in the future, not 
limited. Certainly we've all talked about big dams already 
having been built, but in the valley that I live in we have 
built a project that began delivering water a couple of years 
ago, 23,000 acre-feet. It saved us in the last 2 years of 
drought. It also created 25 miles of fishery and the mitigation 
for it created the largest manmade wetland in Wyoming. Birds 
went from 30 to 130 in that wetland area.
    So what we have learned as farmers and people on the ground 
is that the uses of water cross such a broad range. In talks I 
very often say water is life, but I read a book on Africa 
recently and they talked about water as hope. I've become much 
more convinced that the ability to know that there'll be water 
in the system is much more of a hopeful experience and it's one 
that in this particular case it is very clear that if we do not 
make decisions, indecision will be decisions in the West.
    One thing that Pat Mulvary from southern Nevada and I agree 
on is that the drought has pushed debate 20 years ahead. So 
it's our responsibility to come up with solutions that are much 
further ahead than we thought we were going to have to make as 
policymakers.
    The Family Farm Alliance has, at our yearly convention 
every State reports what's happening in the particular State. 
It is a graphic experience the last 3 or 4 years about the 
transitions of not thousands, but tens of thousands and 
hundreds of thousands of irrigated acres that are going to fall 
out of production. It's a food security issue I think that we 
need to address. We could go on about the impacts of foreign 
food into the matrix of what we should be looking at. But when 
you look at the combination of both, the combination of 
drought, and now the new discussion about ethanol and using 
water to produce large quantities of ethanol--I know it's an 
issue that Senator Thomas was aware of. The one example we've 
used this week while we were here is the billion gallons of 
ethanol that California has projected out would cost 2.5 
trillion gallons of water to produce. That's the water that 
central California delivers to southern California.
    I very much appreciate being able to visit with you today 
and anything I can do to help and our organization, we'd 
appreciate.
    [The prepared statement of Mr. O'Toole follows:]
   Prepared Statement of Pat O'Toole, President, Family Farm Alliance
    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to appear before you to discuss 
climate change and water supply impacts on Western irrigated 
agriculture. My name is Patrick O'Toole, and I serve as the president 
of the Family Farm Alliance (Alliance).
    The Alliance is a grassroots organization of family farmers, 
ranchers, irrigation districts and allied industries in 16 Western 
states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers. We are also committed to the fundamental 
proposition that Western irrigated agriculture must be preserved and 
protected for a host of economic, sociological, environmental and 
national security reasons--many of which are often overlooked in the 
context of other policy decisions.
    My family operates a cattle, sheep and hay ranch in the Little 
Snake River Valley on the Wyoming-Colorado border. I am a former member 
of Wyoming's House of Representatives and I served on the federal 
government's Western Water Policy Review Advisory Commission in the 
late 1990's.
    The topic of this oversight hearing is not only tremendously 
important to the Alliance, it also is immediately relevant to me and 
other Wyoming water users, and to farmers, ranchers and small 
communities all over the West.
            alliance involvement with climate change issues
    The Family Farm Alliance Board of Directors at its 19th Annual 
Meeting in Las Vegas last February established a subcommittee to 
develop a white paper that addresses the important issue of climate 
change, its possible impact on Western water supplies and irrigated 
agriculture, and recommendations on how to plan and provide stewardship 
for this change. That document will soon be finalized and publicly 
released, and we will share it with the subcommittee. I think it will 
once again demonstrate the Alliance's realistic approach to problem 
solving.
  current and projected impacts of climate change to western farmers 
                              and ranchers
    In the past six months, the public has been inundated with a flood 
of new studies that focus on projected climate change impacts to 
Western water resources. Predictions and conclusions reached about the 
impacts climate change will have on future water resources availability 
are as varied as the Western landscape. However, we are increasingly 
hearing reports that predict dire long-term hydrologic consequences for 
the West. Several studies further focus on specific regions or 
watersheds and are briefly discussed below.
Arizona
    Experts in Arizona say that climate change is occurring and will 
likely have more impacts in the future to water resources. A climatic 
water budget runoff model has been developed for the Salt and Verde 
River basins of central Arizona\1\, which used the outputs of six 
global climate models to estimate runoff in the future under assorted 
``scenarios'' developed by the Intergovernmental Panel on Climate 
Change. Due to projected warmer temperatures by the year 2050, 
projected changes in runoff for the two basins suggest that the runoff 
from the Salt and Verde will have approximately an 85% chance of being 
less in the future due largely to warming in the study area. This could 
have significant impacts for these two basins, which have six dams, a 
variable hydrology, and a total storage capacity of 2.3 million acre-
feet (as compared to the 27 million acre-feet capacity of Lakes Powell 
and Mead on the Colorado River).
---------------------------------------------------------------------------
    \1\ CLIMATE CHANGE 2050: IMPACTS ON RUNOFF FROM THE SALT AND VERDE 
RIVER SYSTEMS. PRESENTATION TO THE FAMILY FARM ALLIANCE ANNUAL 
CONFERENCE, February 22, 2007, Dr. Robert C. Balling, Jr., School of 
Geographical Sciences, Arizona State Uuniversity.
---------------------------------------------------------------------------
California
    A report released in 2006 by the State of California\2\ predicts 
that climate change will result in a drastic drop in the state's 
drinking and farm water supplies, as well as more frequent winter 
flooding. The report suggests that warmer temperatures will raise the 
snow level in California mountains, producing a smaller snowpack and 
more winter runoff. This means more floodwaters to manage in winter, 
followed by less snowmelt to store behind dams for cities, agriculture, 
and fish. By the year 2050, the statewide snowpack would shrink by 5 
million acre-feet less water, more than the total capacity of Lake 
Shasta, the state's largest reservoir.
---------------------------------------------------------------------------
    \2\ OUR CHANGING CLIMATE-ASSESSING THE RISKS TO CALIFORNIA, A 
summary biennial report from the California Climate Change Center, 
2006.
---------------------------------------------------------------------------
    By 2050, the State study predicts that average snowpack in the 
Sierra Nevadas is likely to diminish by more than a third, and more 
precipitation will fall as rain rather than as snow, making it harder 
for reservoirs to capture for the long summer the same amount of water. 
The dwindling snowpack could reduce deliveries of Sierra supplies to 
Central Valley farmers by 10%.
    According to another recent study developed by the University of 
California\3\, agricultural water users in the Central Valley are also 
the most vulnerable to climate warming. For the driest climate warming 
scenario assessed, the predicted hydrology would reduce agricultural 
water deliveries by about a third. For that dry scenario, the study 
speculates that, while financial losses to the agricultural community 
would be compensated by water sales to urban areas, much of this loss 
would likely result in an uncompensated structural change in the 
agricultural sector.
---------------------------------------------------------------------------
    \3\ CLIMATE WARMING AND WATER MANAGEMENT ADAPTATION FOR CALIFORNIA, 
Stacy K. Tanaka et al, Department of Civil and Environmental 
Engineering, Department of Agricultural and Resource Economics, 
University of California, Davis 95616.
---------------------------------------------------------------------------
Colorado River Basin
    A February 2007 report by a National Research Council (NRC) 
committee\4\ says agriculture is the likeliest target for shifting use 
to urban needs in the fast growing West. But it cautions that ``the 
availability of agricultural water is finite.'' It adds that rising 
population and water demands ``will inevitably result in increasingly 
costly, controversial and unavoidable trade-off choices'' in managing a 
shrinking resource. Future droughts may be longer and more severe 
because of a regional warming trend that shows no signs of dissipating, 
the NRC report notes. It also states that a preponderance of evidence 
suggests that rising temperatures will reduce the river's flow and 
water supplies.
---------------------------------------------------------------------------
    \4\ COLORADO RIVER BASIN WATER MANAGEMENT: EVALUATING AND ADJUSTING 
TO HYDROCLIMATIC VARIABILITY, National Research Council, Division on 
Earth and Life Studies, Water Science and Technology Board, 2007.
---------------------------------------------------------------------------
    The committee also looked at how a steadily rising population and 
related increases in water demand will affect Colorado River water 
management. The population across the western United States has grown 
rapidly. Despite some successful water conservation efforts, urban 
water use in the region has increased significantly along with the 
expanding population. Increasing urban water demands are often met 
through sales, leases, or transfers of water rights from farm users. 
Water transfer agreements will be limited in their ability to satisfy 
growing, long-term demand, according to the NRC committee, and such 
agreements may also cause problems for third parties, such as 
downstream farmers or ecosystems. Technology and conservation measures 
are useful and necessary for stretching existing water supplies, the 
committee acknowledged, but any gains in water supply will be 
eventually absorbed by the growing population.
Pacific Northwest
    Last April, the Intergovernmental Panel on Climate Change released 
a report\5\ that predicts climate-change related impacts to water 
resources in the Pacific Northwest. Similar to predictions made in 
other parts of the West, dwindling mountain snowpack is expected to 
make summer water scarce especially east of the Cascades, where 
agriculture is a strong component of rural communities.
---------------------------------------------------------------------------
    \5\ CLIMATE CHANGE 2007: IMPACTS, ADAPTATION AND VULNERABILITY, 
INTERGOVERNMENTAL PANEL ON CLIMATE CHANGE, World Meteorological 
Organization and the United Nations Environment Program.
---------------------------------------------------------------------------
    Snowpack in the Cascade Range holds two-thirds of the region's 
stored water. As it melts during the dry summer months, it fills 
rivers, generates hydropower, and helps meet the water needs of 
irrigation, fish, recreation and growing urban areas. However, Cascade 
snowpack has diminished in the past 50 years and is expected to further 
shrink. Projected warmer winter temperatures will cause snowpack to 
melt earlier in the spring, which could exacerbate both spring-time 
flooding and late-summer drought conditions. This prediction does not 
bode well for irrigation-dependent eastern portions of Oregon and 
Washington.
Utah
    A 2003 study directed by Congress and led by Utah State University 
professor Frederick Wagner\6\ lays out a variety of possibilities if 
temperatures increase from nearly 4 to 6 degrees Fahrenheit by 2100. 
The potential scenarios range from increased precipitation (with 
decreased snowpack and greater downstream flood risks) to decreased 
precipitation (desertification and a decline in water resources). In 
all scenarios, water management changes would be required, and the 
worst-case scenario would likely trigger water transfers from 
agriculture to urban areas, which would contribute to a sharp decline 
of farming and ranching. Water resources experts in Utah also realize 
that new surface water storage projects may be necessary to capture 
more snowmelt or more water from other sourcesg.\7\ The Southern Nevada 
Water Authority--which has essentially used up its share of Colorado 
River water--is already planning to take groundwater out of aquifers 
under the Utah-Nevada state line and pipe it to Las Vegas. Ranchers in 
this area are fighting this proposal.
---------------------------------------------------------------------------
    \6\  Professor emeritus of the Department of Forest, Range and 
Wildlife Science at Utah State University.
    \7\ Professor Jack Schmidt, Utah State University, Dept. of 
Aquatic, Watershed, and Earth Resources, quoted in ``Global Warming: 
What about water?'', Salt Lake City Tribune, October 30, 2006.
---------------------------------------------------------------------------
       summary of anticipated impacts to agricultural water users
    The Western Governors' Association (WGA) recently testified\8\ in 
support of a bill that would reorient and fully fund the U.S. Global 
Change Research Program to make it more user-driven. The WGA testimony 
mirrors many of the common themes and findings developed in the reports 
identified above. WGA found that we can expect to see the following 
general effects and impacts caused by warming future temperatures in 
the Western U.S.:
---------------------------------------------------------------------------
    \8\ Testimony before the . . . Western States Governors Association 
. . .

  <bullet> Smaller snow packs and earlier snowmelt will affect 
        reservoir storage and demand for water and impact productivity 
        and value of hydroelectric generation;
  <bullet> More rain than snow is likely, with uncertain projected 
        impacts to overall precipitation amounts in specific areas;
  <bullet> Extreme flood events could be more common and larger.
  <bullet> Droughts and higher temperatures would be more intense, 
        frequent and last longer, which would increase stream and 
        reservoir evaporation, diminish surface water supplies, and 
        stress groundwater supplies and water quality.

    Despite the highly variable and uncertain nature inherent with 
climate change predictions, it can safely be concluded that, in the 
West, with a warming climate, there will be less water stored in our 
biggest reservoir . . . the snow pack. More water in the form of 
rainfall and runoff will come at farmers and ranchers sooner in the 
season, when it may not be useful and may even present a threat.
  what are irrigators, water agencies and businesses doing to address 
                            climate impacts?
    While a great deal of scientific inquiry and public discourse has 
been focused on climate change and its possible consequences for the 
planet's future, Western irrigators and irrigation districts are 
concerned about the problems threatening their water supplies today--
drought and urban population growth. Event without climate change, 
these factors present an immediate crisis for agricultural water users 
in the West. If the effects of climate change are anything like those 
outlined in the research discussed here today, Western irrigated 
agriculture could be largely eliminated. This is, of course, worrisome 
to farmers and ranchers and their communities. It ought to be of great 
concern to nation as a whole because climate change may result in a 
disruption of food production worldwide. If that is what is in store 
for us, then this country cannot afford to lose the food production 
capacity of Western irrigated agriculture.
    The response of irrigators and water agencies to current water 
supply challenges can provide some insight into the possible measures 
that might be taken to cope with long-term water supply reductions 
resulting from climate change.
                            drought response
    Much of the West is currently in drought or facing reduced water 
supplies as a result of environmental regulation. In response, farmers 
and water agencies are taking creative measures to conserve water and 
increase the efficiency of irrigation. Here are a few examples.

  <bullet> In the San Joaquin Valley of California, state-of-the-art 
        drip irrigation systems water some of the most productive 
        farmland in the world.
  <bullet> Further north, in the Sacramento Valley, producers and local 
        governments are working to develop a regional water management 
        program that will help address not only water quantity 
        challenges, but also water quality and environmental issues. 
        Those same growers 15 years ago were key players in a state-
        managed drought water bank that temporarily transferred local 
        water to southern California to meet other statewide needs.
  <bullet> In Idaho, water users are working with state and federal 
        agencies and the Nez Perce Tribe to settle longstanding 
        disputes and create more certain water supplies.
  <bullet> Along the Columbia River, irrigators are developing water 
        exchange programs to increase supply reliability while 
        improving salmon habitat.

                  pressures of urban population growth
    The West is the most rapidly growing part of the United States. 
Yet, water supplies there are essentially static. In some areas, urban 
demand for water--and land--is straining agriculture and rural 
communities to the breaking point. New environmental water demands 
imposed by regulatory agencies or courts also first look to 
agriculture. This is happening in every state, but farmers and ranchers 
point to some striking examples:

  <bullet> A report released last year by Environment Colorado found 
        that, from 1987-2002, Colorado lost an average of 460 acres per 
        day of ag land. The report predicts 3.1 million more acres will 
        be lost to development by 2022.
  <bullet> Arizona's massive Salt River Project (SRP)  in a few years 
        will cease to provide water to agriculture in order to meet new 
        demands exerted by development.
  <bullet> In Las Vegas, Nevada, over 70,000 new residents are moving 
        in every year, and urban water officials are looking to rural 
        areas to satisfy its growing thirst.
  <bullet> A restoration agreement developed for the Platte River could 
        potentially dry up hundreds of thousands of acres of farmland 
        in Nebraska and Wyoming, in order to reallocate water to meet 
        the perceived needs of imperiled fish and wildlife.
  <bullet> The California Department of Conservation indicates that 
        more than 1 million acres of farmland in the state was 
        converted between 1988 and 1998. Last year, California's 
        population officially topped 37 million, a growth rate of 1.4 
        percent, representing 500,000 new residents in the last fiscal 
        year.

    Farmers, ranchers and rural communities cannot solve the water 
supply problem created by the Western population boom. Nor can they be 
expected to sacrifice their livelihoods for the ``greater good'' of 
golf courses, strip malls and housing developments.
    Farmland is disappearing at a time when the U.S. needs a stable 
domestic food supply (just as it needs a stable energy supply). We are 
concerned that this critical issue--which becomes even more serious 
when viewed in the context of projected climate-change impacts to water 
supplies--is being overlooked by our national leaders.
    A reliable, safe and sustainable domestic food supply is just as 
important as a strong military to the protection of our national 
interests. The post 9/11 world of terrorist threats makes the stability 
of domestic food supply even more pressing.
     what are western irrigators doing to reduce greenhouse gases?
    Western farmers and ranchers are already taking actions to reduce 
greenhouse gases and other possible contributors to climate change. 
Some of these actions are undertaken consciously with this objective in 
mind; others have been implemented as part of the broad portfolio of 
actions that successful farmers have to take to stay profitable in 
today's economic and regulatory climate. In virtually every Western 
state, there are examples of activities that agricultural producers are 
taking that have an overall effect of reducing carbon dioxide 
emissions, which many policy makers believe are a primary contributor 
to global warming. These actions include:

  <bullet> Use of cleaner and more efficient diesel engines;
  <bullet> Reduction of energy needs on farms;
  <bullet> Use of biodiesel;
  <bullet> Low-till practices;
  <bullet> Involvement in conservation programs, which provide 
        incentives to set aside thousands of acres of farmland for 
        wildlife habitat;
  <bullet> Selling carbon credits to industries for approved management 
        actions.

    Probably most obviously, and most importantly, crops turn carbon 
dioxide into oxygen. Further, new research suggests that irrigation has 
kept croplands cool, countering to some extent the rising temperatures 
caused by greenhouse gas emissions over the last half century.\9\
---------------------------------------------------------------------------
    \9\ Kueppers, L. M., M. A. Snyder, and L. C. Sloan (2007), 
IRRIGATION COOLING EFFECT: REGIONAL CLIMATE FORCING BY LAND-USE CHANGE, 
Geophys. Res. Lett., 34, L03703, doi:10.1029/2006GL028679.
---------------------------------------------------------------------------
          recommended strategies to address potential impacts
    Western water supplies are already inadequate to the demands of 
agriculture, urban growth and environmental enhancement. Global climate 
change, we're told, will further reduce those supplies.
    So how will we meet the ever-increasing demand for water in the 
West in an era when there will be an ever-decreasing supply? Improved 
conservation and efficiency by urban and agricultural water users is 
certainly part of the solution, but only part.

1. Implement a Balanced Suite of Conservation and Supply Enhancement 
        Actions
    We believe that it is possible to meet the needs of cities and the 
environment in a changing climate without sacrificing Western irrigated 
agriculture. To achieve that goal, we must expand the water supply in 
the West. There must be more water stored and available to farms and 
cities. Maintaining the status quo simply isn't sustainable in the face 
of unstoppable population growth, diminishing snow pack, increased 
water consumption to support domestic energy, and increased 
environmental demands.
    It is simply ludicrous to believe that conservation alone will 
supply enough water for the tens of millions of new residents expected 
to arrive in Western cities during the coming decades. Farmers and 
ranchers understand that conserved water cannot realistically be 
applied to instream uses, as it will more likely be put to beneficial 
use by the next downstream appropriator or held in carryover storage 
for the following irrigation season.
    Many water projects are ready and waiting to be developed in the 
West\10\. While conservation and recycling programs have done a 
tremendous job of meeting new growth, still, only a small amount of new 
water has been developed in the past 30 years. We cannot continue to 
``conserve just a little more'' forever. It's time to start developing 
and implementing the water infrastructure needed to cope with a 
changing climate, meet the needs of a burgeoning population, and 
support a healthy agricultural base in the West.
---------------------------------------------------------------------------
    \10\ WESTERN WATER SUPPLY ENHANCEMENT DATABASE, Family Farm 
Alliance, 2005.
---------------------------------------------------------------------------
2. Streamline the Regulatory Process to Facilitate Development of New 
        Infrastructure
    Modern, integrated water storage and distribution systems can 
provide tremendous physical and economic flexibility to address climate 
transformation and population growth. However, this flexibility is 
limited by legal, regulatory, or other institutional constraints, which 
can take longer to address than actually constructing the physical 
infrastructure\11\.
---------------------------------------------------------------------------
    \11\ CLIMATE WARMING AND WATER MANAGEMENT ADAPTATION FOR 
CALIFORNIA, Stacy K. Tanaka et al, Department of Civil and 
Environmental Engineering, Department of Agricultural and Resource 
Economics, University of California, Davis 95616.
---------------------------------------------------------------------------
    The often slow and cumbersome federal regulatory process is a major 
obstacle to realization of projects and actions that could enhance 
Western water supplies. In addition, there exists with agencies a 
defeatist attitude that no dams or water supply projects will be built. 
So, there is no commitment to earnestly begin and engage the difficult 
problems described above. The Family Farm Alliance wants to work with 
Congress, federal agencies and other interested parties to build a 
consensus for improving the regulatory process.
3. Prioritize Research Needs
    Our country has tremendous, but limited, resources available to fix 
our problems, so we must prioritize. One priority research items should 
be a comprehensive validation of West-wide changes in climate change-
driven streamflow. This should be followed by quantification of the 
amount of additional reservoir storage, conservation targets, etc 
required to re-regulate this change in hydrology. This would quickly 
illustrate to policy makers the need to start modernizing our water 
infrastructure. This assessment should be accompanied by a 
comprehensive study of the collective impacts of agricultural land and 
water changes in western states over the last 10 years, as well as 
predicted trends. A study of this sort may provide the type of hard 
findings that may help wake up policy makers on the ``big picture'' 
ramifications of this issue.
                               conclusion
    Climate change could further strain fresh water supplies in the 
American West. We must begin to plan for that now, and not wait until 
we are forced to make decisions during a crisis. Relying on agriculture 
to be a ``shock absorber'' to soften or eliminate the impending water 
shortage is not planning. It is a choice to put our heads in the sand 
and hope for the best. It is a decision that could worsen the overall 
impact of climate change on our nation's economy and security.
    Millions of acres of barren land have been transformed into the 
most efficient and productive agricultural system in the world. About 5 
percent of the land area of the West is irrigated, and the Bureau of 
Reclamation provides water to about one-fifth of that acreage. All of 
this has been done for a total federal investment of $11 billion. A 
1998 study found that the economy of the United States receives a 
greater than 100% return each year on this investment\12\.
---------------------------------------------------------------------------
    \12\ That report and associated data was produced by Darryll Olsen, 
Ph.D. of the Pacific Northwest Project in Kennewick, Washington and 
Houshmand Ziari, Ph.D. of IRZ Consulting in Hermiston Oregon. The 
report was prepared for the Family Farm Alliance.
---------------------------------------------------------------------------
    Now is not the time to retreat from our investment. Now is the time 
to enact sound policies that encourage continued investment in 
irrigated agriculture. Allowing water-short cities to absorb farmers' 
water supplies will significantly diminish domestic food production at 
exactly the same time global warming is predicted to severely adverse 
impact food production worldwide.
    The U.S. recently became a net importer of food. The U.S., which 
once fed much of the world, now imports more food than it exports. Food 
production, like so many of our industries and services, is moving off 
shore, and a large part of our security is moving with it.
    Europeans aggressively protect their farms and food production 
capability because they still remember the hungry years during and 
after World War II when they relied on other nations, America in 
particular, to feed them. The time has come--indeed, it's long 
overdue--for the United States to similarly adopt an overriding 
national goal of remaining self-sufficient in food production. Policy 
decisions on a wide range of issues ranging from taxation to the 
management of natural resources should then be evaluated to be sure 
they are consistent with that goal. It's hard to imagine a simpler or 
more important step to safeguard the American public.
    Thank you.

    Senator Cantwell. Thank you again, Mr. O'Toole, for being 
here.
    Mr. Brick.

    STATEMENT OF TIM F. BRICK, CHAIRMAN, METROPOLITAN WATER 
               DISTRICT OF SOUTHERN CALIFORNIA, 
                        LOS ANGELES, CA

    Mr. Brick. Madam Chair and distinguished Senators. I too 
would like to begin by expressing my deepest sympathy to the 
family and friends of the late Senator Thomas. He was a great 
friend of western water and we will miss him.
    I'm Tim Brick, the Chairman of the Board of the 
Metropolitan Water District of Southern California. For about 
80 years we've been supplying water to a population that is now 
18 million people through the coastal plain of southern 
California. Our two main sources of supply have been the 
Colorado River and the California State Water Project from 
northern California.
    I'd like to say that I guess my main message really is that 
in order to meet our reliability goals we've had to start 
changing and transforming the way that we approach water 
planning and to emphasize a diversification of supply and 
resources. A lot of the lessons for this we really learned from 
the drought that occurred in the late 80's and early 90's, 
which hit our region very hard.
    But the current situation in southern California is that we 
are in the driest year on record. Los Angeles, which typically 
has 15 percent--15 inches average rainfall, this year has 3.2 
inches of average rainfall. In the 9 most recent years, it has 
fallen to 11 inches, which is 27 percent below normal, and that 
included one of the highest rainfall years on record as well. 
My community of Pasadena 3 years ago had 58 inches of rainfall. 
This year it had 3.5 inches of rainfall.
    This pattern throughout the West is largely typical of the 
West, in which we're experiencing record low precipitation and 
runoff. This is the first time in Metropolitan's history in 
which critical dry conditions exist locally and on all of our 
supply watersheds.
    You've heard estimates of great concern with regard to the 
long-term adequacy of supplies on the Colorado River and 
estimates that it's likely that runoff will decline in the near 
future from 10 to 15 percent, and some would even say 
substantially more. On our State Water Project entitlement and 
supply, there has been some extensive study by the government, 
by the State Government, to look at the key issues with regard 
to runoff, water quality, and extreme weather conditions 
related to the State Water Project, with some very disturbing 
kinds of conclusions.
    Our response really has been to move toward a 
diversification of supplies and the development of a buffer 
beyond even that basic goals that we set for future supply. It 
includes storage, both surface storage and groundwater storage. 
We've spent more than $450 million in recent years on 
groundwater storage and more than $2 billion on surface 
storage.
    It includes a very substantial commitment to conservation 
and increased conservation programs, even including trying to 
change how southern Californians view landscaping and 
developing a California-friendly landscaping program which 
emphasizes natives and appropriate vegetation. We made a major 
investment in recycling and groundwater recovery as well, with 
85 programs that we've spent $215 million on that now supply 
about 128,000 acre-feet of supply per year. That's about enough 
water for 600,000 people.
    We also now manage imports for ecosystem health and 
competing needs, shifting the timing of deliveries to wetter 
years or wetter periods when there's less impact on fish and 
the environment. It's important to know that that's 
particularly important because the effects of climate change 
are going to create great stress on the ecosystems and the 
watersheds that supply southern California and the rest of the 
West.
    In the next year there's going to be some critical 
decisions made that we need Federal help and support on. The 
first is with regard to the basin State recommendations to the 
U.S. Bureau of Reclamation on how to manage shortage on the 
Colorado River Basin. The second is with regard to the 
Sacramento-San Joaquin River Delta System. Key decisions need 
to be made and the basic message that we would offer is that we 
cannot afford to wait. We need to partner with the scientific 
community, implement no-regrets actions, undertake aggressive 
conservation steps, and we need imperative decisions regarding 
the California Bay Delta System and the Colorado River Basin 
States Initiative.
    Metropolitan stands ready to work cooperatively and 
collaboratively with you and with the Federal agencies you 
oversee. Thank you very much.
    [The prepared statement of Mr. Brick follows:]
 Prepared Statement of Timothy F. Brick, Chairman, Metropolitan Water 
            District of Southern California, Los Angeles, CA
     Chairman Bingaman and Members of the Subcommittee, thank you for 
this opportunity to testify regarding the impacts of climate change on 
water supply and availability in the U.S. My name is Timothy Brick, and 
I am the Chairman of the Board of the Metropolitan Water District of 
Southern California.
    For more than 75 years Metropolitan Water District has provided 
imported water to the Southern California region from the Colorado 
River and the State Water Project originating in Northern California. 
Our mission has been to be the wholesale provider of high quality, 
reliable drinking water supplies primarily for municipal and industrial 
use. In recent decades, we have begun to diversify our resources and 
commit to contingency planning in order to live up to our mission.
    Metropolitan Water District is the nation's largest provider of 
imported water to an urban area. The population today in our service 
area is more than 18 million, and it is projected to rise to 22 million 
by 2030. Metropolitan is comprised of 26 member public agencies that 
service an area spanning 5,200 square miles and six southern California 
counties.
                             climate change
    Metropolitan's latest challenge is one shared by not only the water 
community, but also the global community as a whole. California's 
history shows us that change in climate and weather, both natural and 
human-induced, are inevitable.
    This climate change will have a dramatic impact on water supplies 
and demands and will necessitate a strong ethic of water use efficiency 
in our communities as well as the aggressive development of innovative, 
alternative water supplies to meet growing water needs.
    Southern California is currently experiencing its driest year on 
record. Since July 1st 2006, Los Angeles has received only 3.21 inches 
of rainfall as compared to the normal of 15 inches per year. This year 
seems to be a continuation of a critically dry weather trend. In the 
most recent nine years, Los Angeles has averaged only eleven inches per 
year, 27% below normal.
    On a larger scale, most of the western United States is 
experiencing record low precipitation and runoff. For the first time in 
Metropolitan's history, there are critical dry weather conditions 
occurring concurrently in our service area of Southern California as 
well as in the watersheds for our Colorado River and State Water 
Project water supplies. These regional climate trends are shown in the 
recent drought outlooks provided by the National Oceanic and 
Atmospheric Administration.
                     colorado river water supplies
    A report released by the National Research Council in February 2007 
looked at past climate and streamflow conditions in the Colorado River 
and raised concerns regarding the long-term adequacy of Colorado River 
water supplies.
    The western United States, particularly the region that depends on 
Colorado River supplies, has been experiencing drought conditions since 
the late 1990s. Years 2002 and 2004 are among the 10 driest years on 
record in the upper basin states of Colorado, New Mexico, Utah and 
Wyoming. Correspondingly, water storage in the basin's reservoirs has 
dropped sharply and now is at the lowest level since their initial 
fillings many decades ago.
    It is now known that water allocations between the upper and lower 
Colorado River basin, as governed by the Colorado River Compact of 
1922, were based on a short record of relatively high annual flows of 
15 million acre-feet annually on the Colorado River. Recent patterns as 
well as reconstructed river flows based on tree-ring data dating back 
several centuries indicate that the past water management decisions on 
river water allocations and use may be overly optimistic of future 
water availability as annual flow could be 10 to 15 percent less than 
the 1922 estimate. Some experts would say even more.
    Temperature records across the Colorado River basin and the western 
United States document a warming trend over the past century. Most 
recent climate model projections suggest that temperature across the 
region will continue to rise in the foreseeable future. Higher 
temperatures will result in less snowfall, increased evaporation 
losses, and shifting of snowmelt to earlier in any given year. The 
preponderance of scientific evidence suggests reduced Colorado River 
streamflow and water supplies, as well as increasing severity, 
frequency, and duration of future droughts.
    In addition, the western United States is experiencing rapid 
population growth, further increasing the pressure for Colorado River 
water supplies. For example, population grew 66% in Nevada, 40% in 
Arizona, and 30% in Colorado from 1990 to 2000; these three states 
ranked number 1, 2, and 3 in terms of highest percentage population 
growth during the last Census.
    Better understanding of past climate and streamflow conditions of 
the Colorado River, rapid population growth and increasing water 
demands in the region, an apparent climate warming, and warnings from 
many climate model simulations have cast great uncertainty in the 
reliability of future Colorado River supplies to southern California 
and the Southwest.
                     california state water project
    Last year the California State Department of Water Resources 
released a report titled ``Progress on Incorporating Climate Change 
into Management of California's Water Resources.'' The report was 
prepared in response to Governor Schwarzenegger's Executive Order S-3-
05 establishing California greenhouse gas emissions targets.
    This report utilized four climate scenarios from two global climate 
models and downscaled potential ranges of change to the State Water 
Project watershed to analyze potential impacts. While the report does 
not represent a comprehensive assessment of the climate change impact, 
it does reveal at least three major potential impacts that constitute 
growing concerns for water managers.
Runoff
    The first concern is related to the timing of snowmelt runoff. 
Studies suggest that warmer temperatures during the past half-century 
have brought significant changes in the seasonal timing of runoff. 
Smaller spring snow packs are a very real possibility and earlier 
melting of these natural reservoirs. When warmer temperatures in the 
winter translates into more rain and/or less snow in our Sierra Nevada 
mountains, it will severely lessen the ability to store water for peak 
summer water needs, avoid costly flooding, and otherwise manage fresh 
water--an increasingly scarce resource.
Water Quality
    Water quality is also a concern linked to climate change. A higher 
sea level would likely bring increased salinity levels intruding on the 
freshwater system that is already vulnerable to salt water intrusion, 
and could further jeopardize levee stability, possibly leading to 
larger and more frequent failures like one that happened last year. 
Long periods of dry weather can also bring water quality challenges as 
contaminants typically accumulate on land surfaces. When the rain 
returns, it carries these contaminants in the runoff, making water 
treatment more difficult.
Extreme Weather Conditions
    The third concern is linked to the possibility of extreme weather 
events that change the frequency of storm and drought conditions. 
Extreme weather conditions bring about many challenges, water quality 
being only one. Storage becomes another challenge as managers are 
caught in a tradeoff between storing water for future dry periods and 
lowering reservoirs before the onset of a flood season to protect 
downstream communities.
    Climate change impacts further accentuate the variability and 
uncertainties surrounding water supplies from the State Water Project 
system.
                metropolitan's policy on climate change
    In March 2002, our board adopted policy principles on global 
climate change as related to water resource planning. The principles 
stated in part that ``Metropolitan supports further research into the 
potential water resource and quality effects of global climate change, 
and supports flexible ``no regret'' solutions that provide water supply 
and quality benefits while increasing the ability to manage future 
climate change impacts.''
                        metropolitan's response
    The policy principles are reflected in Metropolitan's Integrated 
Resource Plan (IRP). Metropolitan and its member agencies have 
developed an IRP water resource portfolio that emphasizes 
diversification and adaptability of supply sources to manage current 
and future uncertainty. The IRP has also placed an increasing emphasis 
on local supplies such as conservation, water recycling and groundwater 
recharge.
    Metropolitan built a new storage reservoir in the late 1990's in 
order to store water when it is plentiful during wet years for use in 
dry periods. In addition, Metropolitan is completing a large project 
called the Inland Feeder that will also expand our ability to obtain 
water from the Colorado River and State Water Project when it is 
available and to provide greater system reliability and flexibility.
    Metropolitan has also forged many agreements in the past few years 
to store water in groundwater basins within and outside of southern 
California. Our cumulative investment in groundwater storage through 
2006 was more than $400 million for groundwater storage augmented by 
$45 million of state grants.
    Metropolitan also recognizes that importing water requires a large 
amount of energy. For example, importing an acre-foot of water via the 
State Water Project requires 3,200 kwh, and an acre-foot of Colorado 
River supplies requires 2,000 kwh. The IRP places increased emphasis on 
less energy consuming local water resources.
    The greatest concentration of effort and resources in recent years 
has been in the area of conservation. Metropolitan has made a 
cumulative investment of $251 million in conservation. Metropolitan has 
long been an advocate and supporter of water conservation providing 
financial incentives to member agencies to grow conservation programs 
in their service areas through a variety of programs and rebates. 
Conservation has occurred in both residential and business sectors with 
Metropolitan offering guidance and financial incentives to use more 
water-efficient technologies. The most recent push has been in the area 
of outdoor conservation. Our California Friendly program is an 
umbrella for many different programs that promote waterwise lifestyle 
choices.
    Today, the California Friendly umbrella extends over a wide area of 
Metropolitan-sponsored programs that include retail partnerships to 
encourage of native and California Friendly plants in the product mix 
of large home improvement stores; a bewaterwise.com Web site that hosts 
as many as 3,000 visitors a day; and a landscape rebate program for new 
homes and a model home program with incentives for new home builders to 
install more efficient water saving devices in their model homes.
    In recent years, Metropolitan has helped to bring about more than 
85 water recycling and groundwater recovery programs by providing 
financial incentives to member agencies. Metropolitan has invested 
about $215 million through 2006 into these projects, which produce 
128,000 acre-feet per year, equivalent to the water needs of over 
600,000 people.
    Metropolitan's diverse water resource portfolio continues to 
include imported supplies from the Colorado River and California State 
Water Project. To better manage the water systems for ecosystem health 
and competing needs, Metropolitan has shifted the timing of deliveries 
from these sources to wetter years or wetter periods when there is less 
impact on the fisheries and environment. To further efforts towards 
proper management of these supplies, Metropolitan has been 
participating with the other Colorado River basin states to provide 
recommendations to the U.S. Bureau of Reclamation on how the river 
system should be managed. Similarly, Metropolitan is a participant with 
other interests within the State of California on improvements to the 
Sacramento-San Joaquin River Delta system, which is the hub of water 
deliveries for the State Water Project. The goal is to more effectively 
manage water supply, water quality, and environmental needs. Both the 
efforts on the Colorado River system as well as the State Water Project 
Delta system will face critical decisions in the coming year.
                               conclusion
    The great challenges presented by the uncertain effects of climate 
change and increasing demands on the scarce freshwater supply mean we 
cannot afford to wait. Metropolitan, and the water community as a 
whole, needs to partner with the scientific community to conduct 
further research in assessing risks and integrating them into water 
management decisions. Metropolitan will continue to implement ``no 
regrets'' actions that incorporate climate change into our planning and 
investments in infrastructure, energy management and water supply 
development. Importantly, aggressive conservation and water use 
efficiencies must be practiced within California's communities and 
businesses to use our limited water supplies wisely and to protect the 
environment and ecosystems that will be stressed by climate change.
    To support Metropolitan's continued supply diversity, and better 
adapt to climate change and other impacts, it is imperative that 
decisions regarding the Delta's ecosystem, levee and other 
infrastructure improvements. In addition, the Colorado River basin 
states initiatives and water management programs must be implemented to 
assure proper management of Colorado River resources during this 
extended drought.
    Finally we need greater collaboration and partnerships with 
governmental agencies, non-governmental organizations, and other 
entities to implement solutions that provide benefits in multiple areas 
such as water quality and quantity, ecosystem health, and reduced 
energy usage. The federal government should play a key role in 
addressing uncertainty with regard to climate change by being a direct 
participant in the State of California's efforts on the Delta, Colorado 
River, and local water management. Metropolitan stands ready to work 
cooperatively and collaboratively with you and the federal agencies 
that you oversee.

    Senator Cantwell. Mr. Williams. Thank you, Mr. Brick.
    Mr. Williams.

STATEMENT OF JACK WILLIAMS, SENIOR SCIENTIST, TROUT UNLIMITED, 
                         ARLINGTON, VA

    Mr. Williams. Yes. Madam Chairman, members of the 
committee. I appreciate the opportunity to appear before you 
today to provide Trout Unlimited's perspective on the impacts 
of climate change on our Nation's water supply and related 
impacts to salmon and trout populations.
    My name is Jack Williams. I'm the Senior Scientist at TU. 
Trout Unlimited is the Nation's largest cold water fisheries 
conservation organization dedicated to the protection and 
restoration of our Nation's trout and salmon and the watersheds 
that sustain them.
    Trout Unlimited is very concerned about the impacts of 
climate change on our water and fisheries resources. During the 
past 2 years we have modeled the impacts of climate change on 
coldwater fisheries and developed a set of strategies that, if 
implemented, will build resistance to climate change impacts 
and help maintain our Nation's important salmon and trout 
resources.
    I have four main points that I would like to make this 
afternoon. These points are described in detail in my written 
testimony and are as follows:
    First, climate change will have a major negative impact on 
trout, salmon, and the stream systems that support them.
    Second, despite these concerns, we believe there are 
strategies that can be implemented now to build resistance to 
climate change into our fish populations and river systems.
    Third, these actions must strategically target populations 
where we can achieve immediate and lasting impacts.
    Finally, the long-term health of our rivers and watersheds 
must have priority over any quick fixes.
    Let me briefly elaborate. First, climate change will have a 
major negative impact on trout and salmon and the river 
systems. Most models predict salmon populations to decline by 
20 to 40 percent by the year 2050 in the Pacific Northwest and 
by larger amounts in California and Idaho. In some regions 
trout populations will decline by more than 50 percent. Our 
Nation's streams and rivers will be impacted by more 
pollutants, lower flows, reduced snow packs, and a greater 
likelihood of floods, drought, and wildfire. Erosion rates will 
increase, as will polluted runoff from our cities and 
agricultural areas.
    The negative impacts of climate change are already upon us. 
Two quick examples to that effect. One, off the coast of the 
State I live in in Oregon we've had a dead zone that's appeared 
off the coast every year since 2002 that appears to be caused 
by changes in ocean currents that are in turn controlled by 
weather patterns. In 2006, this dead zone covered an area the 
size of Rhode Island.
    Another sign. Because of warmer stream flows and earlier 
runoff, May flies and other aquatic insects are emerging 
earlier in Rocky Mountain streams. Earlier emergence of aquatic 
insects means that females are smaller in body size and produce 
fewer eggs than would insects that emerge later. Such changes 
may seem minor, but they have cascading implications to fish 
populations that depend on May flies, caddis flies, and other 
aquatic insects as their primary foods.
    This brings me to my second point. Despite these concerns, 
we believe there are strategies that can be implemented now to 
build resistance to climate change into our fish and river 
populations. But unless immediate action is taken, stream 
conditions will degrade and more of our native trout and salmon 
may warrant the protection of the Endangered Species Act. Our 
strategies can be summarized as the protect, reconnect, restore 
model of fishery sustainability. This process emphasizes 
protection of our best remaining habitats and populations, 
reconnection of stream systems by removing in-stream barriers 
and reestablishing in-stream flows, and restoration of main 
stem river habitats.
    In many ways the impacts of climate change will bring 
additional stress to stream systems and watersheds that have 
already been pushed to their ecological limits. We may not be 
able to slow the immediate impacts of changing climate, but we 
can identify and remove or mitigate existing sources of stress. 
Watersheds that are in a healthy condition will be better able 
to withstand the stresses of climate-imposed impacts and 
rebound from floods and drought.
    Third, as I mentioned, these actions must be 
strategically--target populations where we can achieve 
immediate and lasting impacts. We must plan and coordinate our 
efforts to focus where we can get the most bang for our buck.
    Last, the long-term health of our rivers and watersheds 
must have priority over any quick fixes. We are highly 
skeptical of any attempts to channelize streams or dam 
headwaters in an effort to control flows on floods. Rather, we 
advocate healthy streams and flood plains that are more able to 
absorb the higher energies associated with floods and also more 
likely to slowly release water and maintain flows to minimize 
drought.
    Thank you again for the opportunity to testify today and 
I'll be happy to answer any questions.
    [The prepared statement of Mr. Williams follows:]
 Prepared Statement of Jack Williams, Senior Scientist, Trout Unlimited
    Mr. Chairman, Members of the Committee, I appreciate the 
opportunity to appear before you today to provide Trout Unlimited's 
perspective on the impacts of climate change on our nation's water 
supply, related impacts to trout and salmon populations, as well as 
strategies that we believe can be important in responding to the very 
serious threat that climate change poses to these valuable resources.
    Trout Unlimited (TU) is the nation's largest coldwater fisheries 
conservation organization dedicated to the protection and restoration 
of our nation's trout and salmon, and the watersheds that sustain them. 
Our goal is to restore robust populations of native and wild coldwater 
fishes so that future generations can enjoy these resources. TU has 
more than 160,000 members organized into 450 chapters across the 
country. Our members generally are trout and salmon anglers who give 
back to the resources they love by voluntarily contributing substantial 
amounts of their personal time and energy to fisheries habitat 
protection and restoration on public and private lands. The average TU 
chapter donates 1,000 hours of volunteer time on an annual basis.
    My name is Jack Williams and I serve as Senior Scientist for Trout 
Unlimited. Prior to working for TU, I was privileged to serve in a 
number of research and management positions in the federal government, 
including Endangered Species Specialist for the U.S. Fish and Wildlife 
Service, National Fisheries Program Manager for the Bureau of Land 
Management (BLM), Science Advisor to the Director of the BLM, Deputy 
Forest Supervisor on the Boise National Forest, and Forest Supervisor 
on the Rogue River and Siskiyou national forests. I have also served as 
a Professor at Southern Oregon University and retain the title of 
Adjunct Professor at that institution.
    Trout Unlimited is very concerned about the impacts of climate 
change on our water and fisheries resources. During the past year, a 
team of TU scientists and geographic information specialists have 
modeled the impacts of climate change on coldwater fishes, reviewed 
available scientific literature, and prepared articles on the impacts 
of climate change for our members. In addition, TU has polled hunters 
and anglers across the country to determine their level of interest and 
concerns about how climate change is likely to impact their 
recreational pursuits. Furthermore, we have developed a series of 
strategies, that if implemented, we believe will substantially increase 
the resistance and resilience to climate change impacts in our nation's 
salmon and trout streams.
    I would like to briefly describe the impacts from climate change on 
our trout and salmon resources and their habitats and then proceed to 
describe our strategies to increase resistance and resilience to these 
impacts.
                 impacts to trout and salmon resources
    There is a clear scientific consensus that climate change will have 
major and negative implications to our nation's hydrology and river 
systems. Numerous peer-reviewed studies have predicted broad declines 
in trout and salmon populations as well. U.S. Forest Service scientists 
have predicted that between 53 and 97% of wild trout populations are 
likely to be eliminated from the Appalachian Mountains because of 
warming climate. Losses of western trout populations may be as high as 
64%. Most studies of Pacific Coast salmon predict losses of 20-40% by 
the year 2050. The bad news about the salmon models is that they may 
actually be optimistic predictions because they focus on freshwater 
conditions and do not consider the complexity and uncertainty of 
changing ocean environments.
    Although some regions will fare better than others and the timing 
and severity of impacts is somewhat uncertain, the overall need for 
concern should be clear. Based on review of the relevant literature and 
research, the following impacts from climate change are likely to 
occur: increased stream temperatures, increased evaporation rates, 
earlier spring runoff, reduced snowpack, higher winter flows and lower 
summer flows in most streams, greater storm intensity and increased 
frequency of floods, drought and wildfires, and rising sea levels. 
Erosion rates will increase as will polluted runoff from our cities and 
agricultural areas. One of the most significant bottom lines for 
fisheries and other water users is that stream flows are likely to be 
even lower during future summers than they have been in the past.
    While some consequences of climate change are highly predictable 
others are not. Beginning in 2002, a ``dead zone'' of very low 
dissolved oxygen has appeared each year off the Oregon coast. Unlike 
other oceanic dead zones, this one is not attributable to pollution or 
other human impact that has been identified. Rather, it is caused by 
changes in ocean currents and upwelling that is in turn, controlled by 
weather patterns. In 2006, the dead zone covered 1,235 square miles, an 
area the size of Rhode Island. According to Oregon State University 
Professor Jane Lubchenco, ``we are beginning to think there has been 
some sort of fundamental change in ocean conditions off the West 
Coast.'' The changes appear consistent with wind patterns modified by 
climate change.
    The Oregon coast changes bring up another important concern: 
climate change is not just a problem of the future, but is a growing 
concern of the present. Our climate already is rapidly changing and we 
currently are seeing impacts to our stream systems and aquatic 
communities. For instance, because of warmer stream flows and earlier 
peak runoff, mayflies and other aquatic insects are emerging earlier in 
Rocky Mountain streams. Earlier emergence of aquatic insects means that 
females are smaller in body size and produce fewer eggs than would 
insects that emerge later. Such changes may seem minor but could have 
cascading implications to fish populations that depend on mayflies, 
caddisflies, stoneflies and other aquatic insects as their primary food 
supplies.
    At TU we have modeled impacts of climate change on Colorado River 
cutthroat trout in Utah, Wyoming and Colorado; Bonneville cutthroat 
trout in Idaho, Utah, Wyoming and Nevada; and westslope cutthroat trout 
in Idaho, Montana, Oregon and Washington. In 5 of the 8 major river 
drainages where Colorado River cutthroat trout occur, most populations 
already are below adequate habitat thresholds and will be further 
stressed by climate change impacts. The same situation is true for 2 of 
4 geographic management areas of Bonneville cutthroat trout. Most 
remaining populations of both subspecies are restricted to small, 
headwater streams, which will feel the brunt of climate change impacts 
due to declining snowpacks, drought and wildfire. Westslope cutthroat 
trout fare somewhat better because of existing strongholds in National 
Forest wilderness areas. Nonetheless, populations of westslope 
cutthroat continue to be invaded by non-native rainbow trout that 
hybridize with the cutthroat and eliminate the native gene pool.
    Depending on the climate model used, most salmon populations in the 
Pacific Northwest are expected to decline by 20 to 40% by the year 
2050. In California, where temperatures already pose a significant 
source of stress for fisheries, greater declines are likely.
    Unless immediate action is taken to restore resistance and 
resiliency to climate change impacts, stream conditions will degrade 
and many more of our native trout and salmon may soon warrant the 
protection of the Endangered Species Act. Let me outline what can be 
done to alleviate at least some of the adverse impacts of climate 
change on the nation's trout and salmon populations.
strategies to increase the resistance and resilience to climate change 
                                impacts
    Trout Unlimited works primarily to implement what we refer to as 
the Protect-Reconnect-Restore model of fishery sustainability. This 
process emphasizes protection of our best remaining habitats and 
populations, reconnecting stream systems by removing instream barriers 
and reestablishing flows, and restoring vital lower-elevation rivers. I 
will describe six strategies for dealing with a rapidly changing 
climate that fit this model. These strategies are consistent with the 
best available science and have been proven to be effective in on-the-
ground application. Our primary goal in suggesting these strategies is 
to increase the resistance to climate change impacts in our natural 
systems and to enable fish populations and their habitats to rebound 
more completely once they are disturbed by flood, drought and wildfire 
that will accompany a warming environment.
    Furthermore, it is important to realize that these actions must be 
implemented strategically to achieve success. That is, for each 
evolutionarily significant unit of salmon, or each large river basin 
with trout, we need to identify the best subset of opportunities for 
protection, reconnection, and restoration. We must carefully choose 
those areas for restoration where we can make the most immediate and 
lasting impact.

    Strategy 1: Protect remaining core habitat areas.--It is vital that 
remaining salmon and trout strongholds as well as watersheds that 
produce reliable supplies of cold water be protected from additional 
disturbance. Watersheds that currently support large and robust 
populations of native fisheries should be protected from new dam and 
road development. Simply stated, it is more biologically sound and cost 
effective to protect existing population strongholds than attempt to 
restore them once they have been disturbed.
    Strategy 2: Maintain genetic and life history diversity.--Higher 
levels of genetic diversity enable populations to better adapt to 
future environmental change. For example, scientists at the University 
of Washington have demonstrated that large numbers of separate spawning 
populations of sockeye salmon in Alaska's Bristol Bay have been the key 
to maintaining that robust fishery in the face of changing freshwater 
and marine conditions. Under certain conditions, one set of stocks will 
be favored and produce abundant offspring; when conditions shift, a 
different group of populations will be favored. It is simply a matter 
of maintaining all the genetic pieces to maximize adaptability.
    Life history diversity also is critical. In western cutthroat 
trout, for example, most populations are resident stream forms that are 
restricted to single tributaries. But, restoring migratory populations 
expands habitat options, produces bigger fish, and allows remaining 
individuals more opportunities to find suitable habitats as stream 
conditions and flows change.
    Strategy 3: Increase size and extent of existing populations.--
Currently, many populations of native trout in the West have been 
pushed into upper elevation streams as non-native species have been 
introduced downstream. We know that at least 5 miles of continuous high 
quality habitat are necessary to ensure the likelihood that each trout 
population will persist for many generations. The populations already 
are being squeezed from downstream reaches. Climate change will squeeze 
them from upstream as snowpacks diminish and precipitation patterns 
change. The options for these fish are to expand into remaining 
downstream habitat or perish. But for downstream expansion to be 
possible, non-native fishes must be removed and habitats restored.
    Strategy 4: Minimize outside stressors.--In many ways, the impacts 
of climate change will bring additional stress to stream systems and 
watersheds that already have been pushed to their ecological limits. We 
may not be able to slow the immediate impacts of a changing climate, 
but we can identify and remove or mitigate existing sources of stress. 
Too many roads, poorly constructed culverts, and poor livestock 
practices are a few examples of existing stressors that can be fixed. 
Watersheds that are in a healthy condition will be better able to 
withstand the stress of climate-imposed impacts and rebound from 
disturbances.
    We know basic improvements in water quality, restoration of 
riparian habitats, and restoration of stream channel complexity will 
improve habitats and create refuges from warm water by forming deeper 
and more shaded pools of cool water. This appears just as true for 
small mountain streams in New Mexico or Montana as it does for larger 
river systems in coastal areas of Oregon and Washington.
    Strategy 5: Manage at watershed scales to reconnect stream 
systems.--Many existing stream systems have been disconnected by 
construction of dams, water diversions, and other dewatering processes. 
We should identify and reconnect the hydrology in those areas that are 
most likely to provide for long-term survival of trout and salmon. In 
some cases, this may be as easy as replacing poorly designed culverts 
with small bridges that allow upstream and downstream movement of fish 
and spawning gravels.
    Strategy 6: Monitor, evaluate and employ adaptive management.--As 
noted earlier, our ecosystems are complex and some impacts of climate 
change are difficult to predict with certainty. Therefore, it is 
important to adequately fund monitoring programs and maintain the 
ability to modify our management approach in the face of changing 
conditions and new information. We must listen to what the land is 
telling us as climate shifts.
                               conclusion
    In conclusion, we find that climate change poses a serious and 
imminent threat to our nation's water and stream resources and to the 
trout and salmon populations they support. Further, we believe that the 
impacts of a rapidly changing climate are already manifesting 
themselves through changes in precipitation regimes and snowmelt 
patterns, warmer weather and increasing drought, reduced snowpacks and 
earlier stream runoff, reduced stream flows in the summer, and a 
greater threat from disturbance processes such as drought, flood and 
wildfire.
    Despite these significant challenges posed by a rapidly changing 
climate, we believe there are many reasonable and proven actions, such 
as the strategies described herein, that can be taken immediately to 
reduce the threats to our coldwater fishery resources. We strongly 
believe that our actions must be based on the principles of 
conservation biology and restoration ecology.
    The long-term health of our rivers and watersheds must have 
priority over any quick fixes. We are highly skeptical of any attempts 
to channelize streams or dam headwaters in an effort to control flows 
and floods. Rather, we advocate healthy streams and floodplains that 
are more able to absorb higher energies associated with floods and also 
are more likely to slowly release water and maintain flows during 
summer and autumn.
    Many of our existing trout and salmon face an increased risk of 
extinction. It is important to make investments in protection and 
restoration of our streams, riparian areas and watersheds during the 
current and coming years while the debates and discussions concerning 
our energy policies and carbon footprint move forward. By making such 
basic investments in the health of our watersheds, we will insure the 
persistence of our most valuable salmon and trout populations and buy 
the time needed to deal with the larger problem of reducing our carbon 
footprint.
    Thank you again for the opportunity to testify today. I look 
forward to answering any questions that you may have.
                         Supplemental Testimony
elements of a contingency plan to save coldwater fish communities from 
                     the impacts of climate change
    Background.--Climate change is predicted to have severe impacts to 
stream systems and water supplies in the United States (see Philip W. 
Mote, June 6, 2007 testimony and references therein). Populations of 
trout and salmon are projected to decline accordingly with 
corresponding impacts to recreational and commercial interests that 
depend on these resources for their livelihood. Improving the condition 
of habitats and expanding target populations can improve the likelihood 
that important fisheries will persist in the face of additional stress 
imposed from climate change. For example, recent studies on 
Washington's Snohomish River Basin found that habitat restoration could 
offset salmon declines predicted by all but the most dire climate 
models (James Battin et al. 2007. Projected impacts of climate change 
on salmon habitat restoration. Proceedings of the National Academy of 
Sciences 104:6720-6725).
    Goals of contingency plan.--1) to identify a representative sample 
of stream and lake habitats throughout the United States that support 
the best remaining coldwater fish communities, 2) to restore resistance 
to climate change impacts to this representative sample through 
ecological restoration, and 3) to protect these habitats from 
additional stressors. This will maximize the likelihood that the 
natural diversity of coldwater fishes will persist until such time that 
site-specific impacts of climate change are more fully understood.
    Steps in development of a contingency plan.--The initial step to 
completing such a strategy is to identify watershed-scale 
representatives of the best remaining habitats in each river basin 
containing trout and salmon resources. This could be accomplished 
through a broad-scale status tool such as Trout Unlimited's 
Conservation Success Index (see http://tucsi.spatialdynamics.com). 
Trout and salmon make appropriate surrogates for the broader aquatic 
biodiversity because their habitat requirements are relatively well 
known, they are sensitive to habitat disturbances and require cold and 
clean water, and they are broadly distributed across the country. If 
the trout and salmon are protected, it is likely that other native 
components of the aquatic communities within these drainages will be 
well protected.
    The second step is to determine needed action to restore resilience 
and resistance to climate change impacts in each selected system and 
implement these measures. These actions would be based on ecologically 
sound and proven strategies of stream restoration and population 
expansion (see testimony of Jack E. Williams, June 6, 2007). These 
actions include, among other actions, restoration of instream flows, 
removing barriers to fish movement, and restoring life history 
diversity in target sites.
    The final step would be to provide interim protection to these 
areas while additional research is conducted to revise and focus our 
understanding of the local impacts of climate change on stream systems. 
By minimizing outside stressors, these Combined range of Bonneville 
cutthroat trout and Colorado River cutthroat habitats and their fish 
trout in the western United States. Results of Conservation Success 
Index communities would be analyses for these two species illustrate 
how habitat and population integritymore likely to withstand can help 
identify target populations in each major river basin. Subwatersheds 
additional stress from with the highest total scores would be compared 
with climate change models to find the best remaining populations that 
should be least impacted by climate change impacts.

    Senator Cantwell. Thank you, Mr. Williams.
    Mr. Culbertson, thank you for being here.

    STATEMENT OF TIM CULBERTSON, ON BEHALF OF THE NATIONAL 
              HYDROPOWER ASSOCIATION, EPHRATA, WA

    Mr. Culbertson. Madam Chairman, members of the 
subcommittee, I'm Tim Culbertson, General Manager of Grant 
County Public Utility District No. 2, located in the central 
part of the State of Washington. I appear before you today to 
testify on behalf of NHA, a nonprofit national association 
dedicated exclusively to advancing the interests of the U.S. 
hydropower industry, including new water power technologies, 
ocean, tidal, and in-stream hydrokinetic power. Along with NHA, 
I greatly appreciate the opportunity to speak to you on the 
importance of recognizing the critical role hydropower plans to 
help combat climate change, the potential effects to hydropower 
resources resulting from climate change, and planning that is 
under way, particularly in Washington State and the Pacific 
Northwest, in preparation of these changes.
    Grant County PUD is a consumer-owned utility in a rural, 
predominantly agricultural section of the State. Grant PUD's 
energy portfolio is diverse and expanding, which is consistent 
with Grant PUD's focus on renewable energy, including 
hydropower. Combined, Grant County PUD's two dams, Priest 
Rapids and Wanapum on the Columbia River, have a rated capacity 
of around 2,000 average megawatts. In a typical year, our 
hydroelectric projects generate enough power to serve over 
8,000 homes with clean, reliable, and affordable electricity. 
That is enough to power the entire Seattle area.
    This power is also a driving force not only for the 
Washington State economy, but for the entire Pacific Northwest 
region, as Grant PUD provides electricity at cost to 22 other 
utilities throughout the Northwest, providing power to millions 
of consumers in Washington, Idaho, Oregon, Montana, Utah, 
Wyoming, and California.
    Senator Cantwell, members of the subcommittee, our message 
to you today is simple. Congress needs to fully consider 
hydropower and its many benefits as it debates and develops 
climate change policy for the United States. Too often 
hydropower is overlooked or taken for granted in these 
discussions. This is unfortunate because hydropower is a clean, 
renewable, and domestic resource and has a significant role to 
play in combating climate change.
    Not only is hydropower the largest source of renewable 
power in the United States, but there is a tremendous growth 
potential that remains untapped. A new report released by the 
Electric Power Research Institute conservatively estimates the 
potential increase in hydropower generation capacity at 23,000 
megawatts by 2025. The overall resource potential based on 
resource assessments conducted by the U.S. Department of 
Energy, EPRI, and the industry is estimated to range from 
85,000 to 95,000 megawatts. This represents a doubling of 
hydropower's current contribution to the Nation's energy 
supply.
    However, the industry realizes that the benefits hydropower 
brings to the table are threatened if climate change is left 
unchecked. Changes in local conditions caused by reduced snow 
pack, earlier spring runoff, and affected peak flows will 
impact the timing, availability, and amount of water power for 
generation. This will in turn create challenges in meeting the 
country's increasing need for electricity, as well as have 
significant consequences to downstream water uses such as 
irrigation, recreation, fish migration, and water supply 
resources.
    These effects to all of these resources will have 
significant economic impacts and affect consumers both 
regionally and nationally. As a result, the hydropower industry 
and others are beginning to examine these potential impacts and 
have begun planning for them.
    Grant PUD recognizes that as climate impacts to the 
Nation's rivers unfolds steps will need to be taken to address 
them. For its part, the PUD has begun to optimize its existing 
water resources with installation of more efficient generating 
equipment, with the utilization of advanced hydropower turbines 
at Wanapum Dam. The PUD is currently in design for new turbines 
and generators at Priest Rapids Dam for additional 
efficiencies. Installing more efficient equipment will provide 
more power with the same amount of water.
    However, variability in the amount of water and timing of 
the water from year to year is not unusual for the hydropower 
industry. Grant County PUD participates in a coordination 
agreement with Federal and non-Federal dam operators on the 
Columbia and Snake River systems. In addition, long and short-
term water planning of the system is discussed with regional 
operators as often as weekly throughout the runoff season.
    In addition to Grant PUD's investment in equipment and 
river coordination agreements, hydropower in general is an 
excellent flexible resource. During drought or excess water 
years, hydropower's built-in flexibility helps to address 
changing water conditions and the many pressures on the system. 
While there are several things that can be done to help plan 
for the future impacts, hydropower's unique ability to adapt, 
an attribute unmatched by other energy resources, again 
highlights its role as part of the climate change solution.
    Beyond the hydropower industry's efforts, all around the 
country State, regional, and local initiatives are under way to 
investigate the impacts of climate change. Washington State in 
particular is taking aggressive steps to address climate 
change. The Washington Climate Change Challenge, which has 
engaged business, community, and environmental leaders over 
this year, will culminate in specific recommendations both to 
the Governor and the State legislature.
    Washington is also working closely with other western 
States, California, Oregon, New Mexico, and Arizona, and 
together they have established the Western Regional Climate 
Action Initiative to collaborate on identifying, evaluating, 
and implementing ways to reduce greenhouse gas emissions.
    However, there is also an important role for the Federal 
Government to play. NHA encourages the Congress not only to 
work with the industry to develop a better understanding of 
climate change impacts to the resource, but to provide the 
policy support necessary to realize the industry's substantial 
growth potential.
    Senator Cantwell. Mr. Culbertson, we want to definitely 
hear your recommendations, but could you summarize those?
    Mr. Culbertson. Sure. Which ones?
    Senator Cantwell. Whatever recommendations to the Federal 
Government that you have.
    Mr. Culbertson. One is to consider the benefits that 
hydropower plays to the region and the fact that there is a 
huge potential. There's an awful lot of talk about renewable 
standards and I hope that the Federal Government adopts a 
Federal standard. It would be helpful I think to all the States 
to have some consistency.
    But one of the roles I think the Federal Government can do 
is understand that behind the renewables there needs to be some 
other resource that stands behind these renewable resources to 
firm them, because they're intermittent generation resources. 
As we look at our requirements as a utility to operate control 
areas and provide a reliable system, we have to have a resource 
that we can count on for capacity. So we believe the resource 
of choice to stand behind these other renewable resources is 
hydrogeneration.
    So I think considering hydrogeneration is a viable resource 
not only in conjunction with renewable standards, but it also 
serves well when we talk about climate change.
    [The prepared statement of Mr. Culbertson follows:]
    Prepared Statement of Tim Culbertson, on behalf of the National 
                  Hydropower Association, Ephrata, WA
                              introduction
    Good afternoon, I am Tim Culbertson, General Manager of Grant 
County Public Utility District No. 2 located in the central part of the 
state of Washington. Grant County PUD is a long time member of the 
National Hydropower Association (NHA)\1\ and I appear before you today 
to testify on behalf of NHA.
---------------------------------------------------------------------------
    \1\ NHA is a non-profit national association dedicated exclusively 
to advancing the interests of the U.S. hydropower industry, including 
the new water power technologies--ocean, tidal and instream 
hydrokinetic power. It seeks to secure hydropower's place as an 
emissions-free, renewable and reliable energy source that serves 
national environmental and energy policy objectives. Its membership 
consists of more than 140 organizations including; public utilities, 
investor owned utilities, independent power producers, equipment 
manufacturers, environmental and engineering consultants and attorneys.
---------------------------------------------------------------------------
    The association greatly appreciates this opportunity to speak to 
you on the importance of recognizing the critical role hydropower plays 
to help combat climate change; the potential affects to hydropower 
resources resulting from climate change; and the planning that is 
underway, particularly in Washington state and the Pacific Northwest, 
in preparation for these changes.
    Senator Cantwell, members of the Subcommittee, our message to you 
today is simple--Congress needs to fully consider hydropower and its 
many system benefits as it debates and develops climate change policy 
for the U.S. Too often hydropower is overlooked or taken for granted in 
these discussions. This is an unfortunate oversight because hydropower, 
a clean and domestic resource, has a significant role to play to combat 
climate change.
    Not only is hydropower the largest source of renewable power in the 
United States, but there is tremendous growth potential that remains 
untapped. In fact, a new report released by the Electric Power Research 
Institute (EPRI) conservatively estimates the potential increase in 
hydropower generation capacity at 23,000 Megawatts (MW) by 2025.\2\ 
This same study also acknowledges that 90,000 MW of hydropower remains 
undeveloped. With the right government policies a significant portion 
of this clean homegrown energy could be captured.
---------------------------------------------------------------------------
    \2\ Assessment of Waterpower Potential and Development Needs. EPRI, 
Palo Alto, CA: 2007. 1014762.
---------------------------------------------------------------------------
    However, the industry realizes that the benefits hydropower brings 
to the table are threatened if climate change is left unchecked. 
Changes in local conditions, such as the timing and availability of 
water for power generation, will create challenges in meeting the 
country's increasing need for electricity, as well as have significant 
consequences to irrigation, recreation and water supply resources. All 
of which will have a significant economic impact to this growing region 
and affect consumers both regionally and nationally. As a result, the 
hydropower industry and others are beginning to examine these potential 
impacts and have begun planning for them.
    In order to fully meet the challenges posed by the effects of 
climate change, the industry requests that Congress partner with the 
private sector to develop the needed strategies and responses. Federal 
investment in new advanced hydropower technologies--through economic 
incentives and research and development funding--is critical to assist 
the industry in its planning and preparation for the impacts climate 
change will impose on the resource. It is critical that we apply best 
practices and technological advances to optimize water resources for 
the benefit of all users. Smart use of policy, planning and technology 
application is the best path forward.
                               background
    Let me take a few moments to provide some information about Grant 
County PUD; its hydropower resources; and the importance of those 
resources to Washington state and the Pacific Northwest.
    Grant County PUD is a consumer-owned utility, created in 1938 by a 
popular vote of county residents who struggled for 20 years to receive 
electricity. Grant County is a rural, predominantly agricultural 
region. Electricity provided by Grant PUD supports the county's 
important role in the agricultural sector of Washington state, which 
accounts for a fifth of the state's annual gross product and employs 
173,000 people--more than any other sector in the state.
    Grant PUD's energy portfolio is diverse and expanding, which is 
consistent with Grant PUD's focus on renewable energy, including 
hydropower. Combined, Grant County PUD's two dams, Priest Rapids and 
Wanapum on the Columbia River, have a rated capacity of around 2,000 
average megawatts (actual generation varies depending on river flow and 
other factors). In a typical year, 2005, our hydroelectric projects 
generated enough power to serve over 800,000 homes with clean, reliable 
and affordable electricity. That is enough to power the entire Seattle 
area.
    This power is also a driving force not only for the Washington 
state economy, but for the entire Pacific Northwest region. Grant PUD 
provides electricity at cost to 22 other utilities throughout the 
Northwest, providing power to millions of consumers in Washington, 
Idaho, Oregon, Montana, Utah, Wyoming, and California. Combined, Grant 
PUD's dams allow the Northwest to avoid 942,000 tons of carbon 
emissions annually.\3\
---------------------------------------------------------------------------
    \3\ Natural gas combined-cycle turbines are the predominant backup 
generation source in the Pacific Northwest.
---------------------------------------------------------------------------
           impacts on hydropower resources and their effects
    In 2004, hydropower made up approximately 7% of the electricity 
generation in the United States. Focusing on the state of Washington, 
hydropower represents 72% of its electricity generation. As such, the 
state clearly understands that the potential impacts due to climate 
change on hydropower resources will have a significant effect on its 
economy, the lives of its residents, and the environment. As a result, 
Washington has begun to closely examine those impacts and their 
effects.
    This year, Governor Christine Gregoire signed Executive Order 07-
02, which among other things, created the Washington Climate Change 
Challenge, an initiative designed to consider the full range of 
policies, strategies and specific steps the state of Washington should 
take to prepare for the impact of global warming.
    As part of the initiative, impacts to hydropower resources were 
examined. Specifically, effects on mountain glaciers, snow pack and 
peak flows were analyzed utilizing data summarized in a November 2006 
report titled, ``Impacts of Climate Change on Washington's Economy.''
    The report states that mountain glaciers in the North Cascades have 
lost a significant percentage of their total volume since 1983; that 
average mountain snow pack in the North Cascades, which is critical to 
summer stream flows, has declined at a majority of mountain sites 
studied causing spring runoff to occur earlier in the year; and 
finally, that stream flows have been affected resulting in peak flows 
occurring earlier in the year throughout the state, including the 
Columbia River Basin.
    These impacts are creating changes in the availability of water and 
the timing and amount of flows. This increases the stress on the 
hydropower system and affects power output, as well as poses challenges 
and creates secondary effects on downstream uses such as fish 
migration, recreation, irrigation, and water supply.
    For hydropower, output may be affected as changes in water 
management become necessary. Simulations of the power market by the 
University of Washington indicate a possible revenue impact of 5 
percent or less, which at today's rates totals $165 million per 
year.For salmon and other fish, changes to peak river flows may affect 
rearing, migration and spawning. Low flows in spring and summer could 
result in warmer water, which holds less oxygen and can stress fish. In 
addition, increased temperatures in summer streams may exceed the 
tolerable limits for coldwater fish.
    In the end, all the additional uses of the water--recreation, 
irrigation, water supply--for which hydropower projects provide, will 
be affected in one way or another by changes in the amount and timing 
of flows.
    For a hydropower system that is as highly regulated as that in the 
state of Washington, the additional stress brought on by climate change 
will exacerbate tensions between the competing water users and their 
needs. The challenge we face is ensuring our current policies, 
particularly regulatory frameworks, are flexible enough to withstand 
the additional stress and result in the appropriate balance of these 
competing needs.
                          planning for impacts
    Grant County PUD recognizes that as climate impacts to the nation's 
rivers unfold, steps will need to be taken to address them. For its 
part, the PUD has begun to optimize its existing water resource with 
the installation of more efficient generating equipment with the 
utilization of the advanced hydropower turbine at Wanapum Dam. The PUD 
is currently in design for new turbines and generators at Priest Rapids 
Dam for additional efficiencies. Installing more efficient equipment 
will provide more power with the same amount of water.
    Variability in the amount of water and timing of the water from 
year to year is not unusual for the hydropower industry. Grant County 
PUD participates in a coordination agreement with federal and non-
federal dam operators on the Columbia and Snake Rivers. In addition, 
long and short term water planning of the system is discussed with 
regional operators as often as weekly throughout the runoff season.
    In addition to Grant County PUD's investments in equipment and 
river coordination agreements, hydropower, in general, is an excellent 
adaptor. During drought or excess water years, hydropower's built-in 
flexibility helps to address changing water conditions and the many 
pressures on the system. While there are several things that can be 
done to help plan for future impacts, the advantages contained in 
hydropower's flexibility and ability to adapt once again highlight its 
role as part of the climate change solution.
    Beyond the hydropower industry's efforts, all around the country, 
state, regional and local initiatives are underway to investigate the 
impacts of climate change. From the work of the Northeast states 
participating in the Regional Greenhouse Gas Initiative (RGGI) to 
California's passage of its greenhouse gas emissions bill, governments, 
industries, and the public are actively engaged in climate change 
planning and preparation.
    As mentioned earlier, Washington state in particular, is taking 
aggressive steps to address climate change. The Washington Climate 
Change Challenge, which has engaged business, community and 
environmental leaders over this year, will culminate in specific 
recommendations to both the Governor and the state Legislature.
    Currently, a Climate Advisory Team composed of about 30 leaders 
from business, labor, and local jurisdictions, is hard at work 
reviewing policies and potential strategies for slowing climate change. 
They are working with Technical Working Groups to analyze impacts and 
actions focusing on the agriculture, energy supply (including 
hydropower), forestry, transportation, and residential, commercial and 
industrial sectors.Washington is also working closely with other 
western states--California, Oregon, New Mexico and Arizona--and 
together they have established the Western Regional Climate Action 
Initiative to collaborate on identifying, evaluating and implementing 
ways to reduce greenhouse gas emissions.
    The work underway, from that of individual utilities to regional 
groups, is important in order for the hydropower industry to prepare 
for climate change and other impacts on water--from regulation to 
transportation, and from fish needs to irrigation needs. Coordination 
of runoff planning for the many uses of water will be more difficult as 
the predicted events of climate change unfold. Additional long term 
planning for water storage and support for hydropower operations is 
necessary to address the future uses of the hydropower system.
             hydropower's role in combating climate change
    Hydropower should be encouraged and supported to play an important 
part in solving the climate problem. Reducing greenhouse gas emissions 
will require the use of all of the climate-friendly technologies 
currently available, as well as new technologies.
    Hydropower provides significant benefits and potentially even 
greater benefits in the future, if properly supported. Beyond the fact 
that it is renewable, climate friendly, and domestic, hydropower offers 
some advantages over other resource options.
    Hydropower provides significant generation, peaking capacity, and 
ancillary services to bolster the reliability, stability, and 
resilience of the nation's transmission system. This includes frequency 
control, regulation, load following, spinning reserve, supplemental 
reserve and blackstart capability. The August 2003 blackout on the east 
coast was a testament to these benefits, where hydropower projects in 
New York and elsewhere remained online and were critical in restoring 
power to the area.
    In addition, as the U.S. significantly increases the amount of 
renewable resources in its overall portfolio, hydropower offers one 
other significant advantage. Hydropower is one of the few resources 
suited to ``firming'' intermittent or non-dispatchable resources such 
as wind. As the development of wind, solar and other intermittent 
resources grows, as is widely expected, the need for ``firming'' 
resources will become even more important. Without these ``firming'' 
resources, the value of intermittent or non-dispatchable resources is 
greatly reduced.
    Today, hydropower accounts for approximately 77% of the actual 
renewable electricity generation and 83% of the nation's renewable 
energy capacity. As robust a resource as hydropower is today, there 
remains tremendous growth potential for the industry. As stated 
earlier, a new EPRI report finds the potential increase in generation 
capacity at 23,000 MW by 2025. To put this in perspective, the total 
installed generating capacity for wind is approximately 9000 MW.
    The EPRI estimate includes: 2,300 MW capacity gains at existing 
conventional hydropower (incremental hydropower); 5,000 MW of new 
conventional hydropower at existing non-powered dams\4\; 2,700 MW of 
new small and low power conventional hydropower (<30 MW installed 
capacity); 10,000 MW from ocean wave energy; and 3,000 MW from 
hydrokinetic technologies.
---------------------------------------------------------------------------
    \4\ Currently only 2 percent of U.S. dams have hydropower 
facilities.
---------------------------------------------------------------------------
    The EPRI report also states that these estimates could be 
significantly increased if economic incentives and regulatory 
processing for the industries are enhanced. The overall resource 
potential, based on resource assessments conducted by the U.S. 
Department of Energy (DOE), EPRI, and industry is estimated to range 
from 85,000 to 95,000 MW. This represents a doubling of hydropower's 
current contribution to the nation's energy supply.
    If the U.S. is serious about its response to the effects of climate 
change, then federal support for the development of this untapped 
potential is necessary.
    Hydropower resources should be treated as fairly and equitably as 
any other renewable energy resource under any proposed national 
renewable portfolio standard, which should include incremental 
hydropower, hydropower at existing non-powered dams and the new 
hydropower technologies--ocean, tidal and instream hydrokinetic power.
    Economic incentives, such as the Production Tax Credit and the 
Clean Renewable Energy Bonds program should be extended long term, 
fully funded, and expanded to include more resources such as additional 
hydropower at non-powered dams and the new technologies. Credit parity, 
so that all new renewable resources brought on-line receive the same 
credit amount, should also be adopted.
    To that end, NHA applauds Senator Cantwell for proposing 5.1370, 
the Clean Energy Investment Assurance Act of 2007, and for her 
continuing support of the hydropower resource. The bill, co-sponsored 
by Senator Gordon Smith and Senator John Kerry, addresses these needed 
changes to the PTC and CREBs programs, resulting in increased clean 
renewable hydropower being brought online throughout the U.S.
    Finally, the hydropower research and development program at the 
Department of Energy should be reinstituted and expanded to include 
initiatives for both the conventional industry and the ocean, tidal, 
and hydrokinetic technologies. Advanced turbine designs for 
conventional hydropower have shown promising first round results. Grant 
County PUD utilized the DOE R&D program as a private-public partnership 
in developing the advanced turbine now being deployed at Wanapum Dam. 
Seeing the program to completion and supporting the necessary studies 
for the development of the new technologies are crucial if these 
advancements are to succeed and gain acceptance.
    With the proper support outlined above, the hydropower industry 
will be able to responsibly develop the identified growth potential, 
thus significantly contributing to the climate change solution.
                               conclusion
    Members of the Subcommittee, let me conclude with these final 
thoughts. The hydropower industry must remain actively engaged in the 
discussions on climate change. We have begun, along with state and 
local partners, to undertake an examination of the issues; to review 
policies to address them; and to take steps to mitigate potential 
effects.
    However, there is also an important role for the federal government 
to play. NHA encourages the Congress not only to work with the industry 
to develop a better understanding of climate change impacts to the 
resource, but to provide the policy support necessary to realize the 
industry's substantial growth potential.
    Most important, the federal government must step up and reinvest in 
hydropower and new waterpower technologies, which allow us to maximize 
the water resource with the application of new advancements. The DOE 
program must be reinstated and the federal hydropower system should 
cooperate with the non-federal sector to study and deploy new advanced 
technologies to achieve this goal.
    Senator Cantwell we commend you for your leadership in holding this 
hearing on the interplay between climate change and the hydropower 
resource. Climate issues are some of the most complex of our time. NHA 
and the hydropower industry look forward to working with you and other 
policymakers and we offer ourselves as a resource for future climate 
hearings or other events.
    Thank you.

    Senator Cantwell. Thank you again for being here and thank 
you for your testimony.
    Mr. Culbertson. You're welcome.
    Senator Cantwell. Dr. Fulp, thank you.

 STATEMENT OF TERRY FULP, PH.D., AREA MANAGER, BOULDER CANYON 
  OPERATIONS OFFICE, BUREAU OF RECLAMATION, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Fulp. Good afternoon, Madam Chair and members of the 
subcommittee. My name is Terry Fulp and I'm the Area Manager of 
the Boulder Canyon Operations Office for Bureau of Reclamation. 
We operate Lake Mead and Hoover Dam and our other facilities 
down to the Mexico border.
    I'm pleased to be here today alongside my colleagues and 
others to discuss the Bureau of Reclamation's operations and 
the state of the science on global climate change. I have 
submitted a written statement for the record. Additionally, I'd 
like to just start off by saying that in my job with 
Reclamation my primary responsibility is related to the 
management of the lower Colorado River. If you have specific 
questions outside my area, I'd be happy to respond to those in 
writing for the record.
    As you know, there is extensive interest, as we've heard 
today, in the scientific as well as the water communities with 
regard to the potential impacts of climate variability and 
climate change on water resources in the western United States. 
Fortunately, Reclamation already possesses great operational 
flexibility to respond to hydrologic variability in order to 
fulfil our mission in the West. Droughts, floods, and wide 
climate variability in the West are a fact of life and 
something we've been adapting to for over 100 years.
    However, that flexibility may be challenged in the future. 
Our understanding of climate change and the capabilities of 
climate change models to provide information on the scales that 
we need is improving, as we have heard today, and will continue 
to improve. We are preparing now to be able to determine how 
and where to incorporate that new information into our water 
management decisions.
    We have several collaborative efforts ongoing and I'd like 
to just touch on a few of those for you. Our primary 
partnership is with our sister agency the U.S. Geological 
Survey, with which Reclamation is working to define the impacts 
of climate variability and climate change on western water 
resources. Dr. Milly mentioned several areas we're focusing on 
that will better help us predict future water availability.
    As I also mentioned, we need information with regard to 
these potential impacts of climate change on relatively 
detailed temporal and spatial scales. We're collaborating with 
the Department of Energy's Lawrence Livermore National 
Laboratory to develop and evaluate climate model output at the 
level of individual Reclamation drainage basins. The result of 
this effort will essentially be an archive of what is called 
down-scaled climate data from numerous climate models that we 
as Reclamation managers can then use to assess our operational 
risks.
    Turning to specific basins, we are partnering with the 
California Department of Water Resources to conduct joint 
research to assess the risk of shifting climate on 
Reclamation's water and power operations in California. This 
research may also be applicable to all of our basins. 
Additional partners in this activity include the Army Corps of 
Engineers, of course the Geological Survey, the Scripps 
Institute, and Santa Clara University.
    We're also collaborating with NOAA and the University of 
Colorado, as represented by Mr. Udall, to assist in better 
understanding the science surrounding climate variability. 
Specifically, my office is working directly with Mr. Udall, 
from whom you heard from earlier and other climate scientists 
to assess current abilities to analyze the potential impacts of 
climate change specifically on Colorado River water supply.
    We're also working very closely with the University of 
Arizona to understand what tree ring records can tell us with 
respect to past hydrologic variability on the Colorado River.
    Reclamation and the Department of the Interior will 
continue to develop these collaborative efforts in order to 
understand and incorporate climate information into our water 
resource planning and operations efforts. I do want to take 
this opportunity to point out that we do not believe that real-
time operational changes to release patterns or storage levels 
at our major facilities are warranted at this time. As I stated 
in the beginning, we possess great operational flexibility at 
our major facilities that can respond to hydrological 
variability.
    We need more specific real-time hydrologic indicators at 
the basin scale that show how inflows change, both in terms of 
timing and volume, and how those changes fall outside the 
historical ranges that our operations currently can handle. 
We'll continue to actively pursue seeking this information with 
our collaboration and we'll of course incorporate it in our 
operational schemes as appropriate.
    In summary, together and with the support of Congress and 
our customers, we believe that this and other collaborations 
will equip Reclamation with the necessary information and tools 
to adapt to potential climate change impacts in the future.
    Thank you and I'd be happy also to address any questions 
you might have.
    [The prepared statement of Mr. Fulp follows:]
    Prepared Statement of Terry Fulp, Area Manager, Boulder Canyon 
  Operations Office, Bureau of Reclamation, Department of the Interior
    Madam Chairwoman and Members of the Subcommittee, my name is Terry 
Fulp, and I am the Area Manager at the Boulder Canyon Operations Office 
at the Bureau of Reclamation. It is a pleasure to be here today 
alongside the U.S. Geological Survey (USGS) to discuss the Bureau of 
Reclamation's operations, and the state of the science on global 
climate change.
    There is extensive study, and discussion, within the scientific 
community about whether the West is experiencing warmer temperatures, 
longer growing seasons, earlier snowpack runoff, and more precipitation 
occurring as rain rather than snow. As the predictive capabilities of 
climate change models improve, western water resource management is 
looking to where and how to incorporate new climate change information.
    A report released earlier this year from the National Academies of 
Science on Colorado River Basin Water Management concluded that 
``higher temperatures will result in less upper basin precipitation 
falling as snow, increased evaporative losses, and will shift the 
timing of peak spring snowmelt to earlier in the year.'' Reclamation is 
evaluating methodologies for incorporating climate change information 
into its west-wide operations.
    Fortunately, Reclamation already possesses operational flexibility 
to respond to hydrologic change and fulfill its mission to deliver 
water and power in the West. Drought, flood, and wide climate 
variability are all common occurrences in the western United States. 
Given its mission, Reclamation must manage with this variability in 
mind. However, solutions and strategies for incorporating climate 
change science into water project operations is an emerging effort 
being undertaken by all western water management interests, not just 
Reclamation. Identifying the information needed will require 
coordinated participation from all the organizations that can provide 
expert climate and hydrologic sciences.
    Reclamation works with its many partners to better understand and 
incorporate climate information into western water resource management. 
These partnerships include:

  <bullet> Department of the Interior--United States Geological Survey 
        (USGS)--The Reclamation Research and Development (R&D) Office 
        is working with climate change experts in the USGS to help 
        define the impact of changes in climate variability and climate 
        change on western water resources. USGS and Reclamation 
        management met in April 2006 to discuss collaboration and 
        coordination efforts.
  <bullet> Department of Energy (DOE)--Reclamation is working with DOE 
        on evaluating general circulation climate models at the level 
        of individual Reclamation drainage basins, and use of the 
        resulting model information by Reclamation Regions.
  <bullet> Department of Commerce--National Oceanic and Atmospheric 
        Administration (NOAA)--Reclamation is in the early stages of 
        collaboration with NOAA Regional Integrated Science and 
        Assessments Centers in the western U.S. to assist in data 
        selection, interpretation, and understanding. These centers 
        include the University of Washington Climate Impacts Group, the 
        California Applications Group, the Western Water Assessment, 
        and Climate Assessment for the Southwest. We are also 
        collaborating with NOAA Earth System Research Laboratory to 
        assist Reclamation to better understand the science surrounding 
        climate variability and climate change.
  <bullet> National Science Foundation (NSF) Funded Science Centers--
        These research centers include the National Center for 
        Atmospheric Research and the National Center for Sustainability 
        of Semi-Arid Hydrology and Riparian Areas. NSF also funds the 
        Consortium of Universities for the Advancement of Hydrologic 
        Science Inc., which has developed a Hydrologic Information 
        System that may be of use to Reclamation as we seek to have 
        better access to critical Hydrologic data. Reclamation plans to 
        work with individuals in these centers and to utilize the 
        available data to understand the impact of climate variability 
        and climate change on western water resources.
  <bullet> State of California--Department of Water Resources (DWR)--
        Reclamation is conducting joint research with DWR on assessing 
        the risks of shifting climate on Reclamation's water and power 
        operations This effort focuses on the Central Valley and State 
        Water Projects. Additional partners include the U.S. Army Corps 
        of Engineers, USGS, Scripps Institute, and Santa Clara 
        University.
  <bullet> U.S. Department of Agriculture's Natural Resources 
        Conservation Service (NRCS)--NRCS's Snowpack Telemetry (SNOTEL) 
        network provides an extensive, automated system designed to 
        collect snowpack and related climate data in Alaska and the 
        western United States which can be used to produce water supply 
        forecasts. NRCS's Soil Climate Analysis Network (SCAN) is an 
        information system designed to provide data on soil moisture 
        and climate information from a number of different sources.

    Secretary Kempthorne has convened a Climate Change Task Force 
chaired by Deputy Secretary Lynn Scarlett. In testimony delivered April 
26, 2007, the Deputy Secretary spoke about the Task Force to the House 
Interior Appropriations Subcommittee. She explained that uncertainties 
persist on the timing, scale, and site-specific incidence of climate 
change impacts. Widely respected models differ in their projections 
about precipitation patterns, changes in vegetation, extent of sea 
level rises, and so on. Moreover, global climate modeling is just 
beginning to provide descriptions and projections at the regional and 
smaller scales that are needed to be useful for land managers on the 
ground.
    To address this, the Task Force has designated three subcommittees. 
The first is currently reviewing the legal and policy issues associated 
with reviewing climate change effects in land-use planning. The second 
subcommittee focuses on land and water management, and cataloguing 
impacts relevant to Interior managed lands and waters. And the third 
subcommittee will focus on whether modeling might be developed at 
regional scales to better project more location-specific changes to the 
landscapes we manage. The three subcommittees will evaluate information 
needs and whether new types of monitoring might strengthen our 
understanding of on-the-ground trends in water availability and timing 
of flows, vegetative patterns, movement of species and so on.
    Reclamation will continue to develop these partnerships to better 
understand and incorporate climate information into western water 
resource management. However, we do not believe that operational 
changes to release patterns or storage levels at major water facilities 
are warranted at this time. In order for new operational regimes to be 
warranted, Reclamation would look for much more specific, real-time 
hydrologic indicators at the basin level than currently exist, to show 
that runoff and inflows are occurring far outside the normal range. In 
some locations, methods may be available for linking climate change 
information to actual runoff. But more specific data to inform those 
methods is needed, and Reclamation would look for a dramatic change in 
the timing and volume of inflows beyond the capability of current 
operations and flood plans before implementing substantial changes in 
operations.
    We also continue to work with our water users to institute improved 
water management and conservation in order to be better prepared for 
any possible future impacts associated with climate change. Our Water 
2025 and Water Conservation Field Services Program, as well as current 
processes to analyze shortage sharing and coordinated water operations 
in the Colorado River Basin, all are important in this effort.
    Together, and with the support of Congress and our customers, we 
believe that these activities will make Reclamation well-equipped to 
adapt to climate change impacts if and when they bring about new 
hydrologic regimes within the river basins of the West.
    This concludes my written statement. I am pleased to answer any 
questions the subcommittee may have.

    Senator Cantwell. Thank you, Dr. Fulp, and thank you to all 
the panelists for being here and for your testimony. I'll 
remind you again that you can submit longer statements if you 
have them for the record and that the subcommittee has received 
additional testimony, statements, and exhibits and we'll make 
those part of the official record today. Again, my colleagues 
I'm sure may ask additional questions and we'll submit them to 
the panelists.
    Mr. Fulp, are you saying in your testimony that you're 
going to continue on the path that you're on now--given that 
the projections for temperature increases will be in the 
magnitude of several times greater than what they have been 
over the last 50 years, don't you think we ought to have a 
contingency plan?
    Mr. Fulp. Well, again I believe we see that as maybe a two-
part question. First of all, that temperature, those 
temperature effects, we need to understand clearly how that 
relates to the water supply, particularly the precipitation 
inflow in our specific basins; and then from that we can 
understand how any operational regime changes or scheme changes 
need to be made.
    So we believe that's exactly the path we should be on, is 
get the science further along in order to provide us that 
specific information.
    Senator Cantwell. Has the Bureau done any analysis on the 
impact?
    Mr. Fulp. We have several efforts that I didn't talk about 
in the verbal remarks that are listed in the testimony. The one 
that I did mention here with the Department of Water Resources 
in the State of California, we are looking at potential impacts 
to both water and power in our Central Valley operation.
    Similarly, in Colorado we believe that recent research is 
going to be fruitful and we'll be able to look at also 
potential water flow impacts on the Colorado River Basin.
    Senator Cantwell. But would you say the Bureau has changed 
its priorities, given data and information about climate 
change?
    Mr. Fulp. I believe our priority remains the same in the 
sense of our mission and that's to deliver water and generate 
hydropower. We obviously want to do that in the most safe, 
efficient way possible, and so certainly this new information 
we are pushing very hard to get it and we are very anxious to 
see what it tells us.
    Senator Cantwell. Mr. Culbertson, does that sound like a 
contingency plan?
    Mr. Culbertson. I don't know for the California river 
systems, but I do know that the Bureau in the Northwest is 
looking at the question you asked earlier that addresses 
incremental storage. I think you're probably well aware that 
the Bureau and others are looking at incremental storage in the 
State of Washington. One is the Black Rock Project, which would 
pump water out of the headwaters of our Wanapum--Priest Rapids 
Dam. But also the Bureau is in the final stages of looking at 
one of four projects. The most feasible project we believe at 
this time is in the Lower Crab Creek area, which is right in 
the center of the county of Grant and is twice the size of 
Black Rock.
    So if you look at the shapes of water and the surplus years 
that we have, it may make some real viable sense to think about 
building some incremental storage projects to capture some of 
the water, especially in the spring time when we have a fair 
amount of surplus water that we end up spilling even in below 
average water years because of the shape of the flows. So 
incremental storage may actually make some sense depending on 
the size of the projects. But the Bureau is looking at those as 
we speak today.
    Senator Cantwell. I think, Dr. Fulp, I'd be more 
comfortable if the Bureau was proposing some changes as it 
related to our strategy in delivering and protecting water in 
the West, given climate change. The fact that you don't have 
the data, and we heard from our previous panelists the 
importance of data to the specific approaches and solutions. 
I'd feel more comfortable if the agency was advocating, even 
within its budget, this amount of money to make sure that we 
are on track with modeling and impacts.
    But not having the data shouldn't be a substitute for not 
having a strategy. If step No. 1 is let's get the data, then 
I'm happy to hear that.
    Mr. Fulp. Well, I don't mean to imply that we aren't doing 
other things. Let me give you an example perhaps--
    Senator Cantwell. Just so I can bring in Mr. Culbertson's 
comment, my comment was I think you won't stop getting 
recommendations from the panelists who are here. You won't stop 
getting local governments who are in search of solutions and 
asking for Federal dollars. So it'd be better if the Bureau had 
its own proposal as it relates to this.
    Mr. Fulp. Okay, yes. Let me maybe make two points. 
Certainly we have an active research program and we will 
continue to do that and we are funding that.
    Second, I think I also want to point out we are doing other 
things. One that Mr. Udall mentioned is the adoption of 
additional operational guidelines for the Colorado River. What 
that does for us is implement a shortage strategy. If in fact 
the reservoirs continue to decline, we would then have a 
strategy by which we reduce water deliveries.
    Another key aspect of it, however, though, is in very 
active conservation program. If these guidelines go into place 
as we think in December, if would allow our water users to 
conserve water and store it in Lake Mead for use later. So that 
will be quite a new tool that will give us flexibility to allow 
our users essentially to trade water. So we believe that's 
going to really be a good addition to our management scheme in 
the lower basin.
    Senator Cantwell. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Chairwoman.
    Mr. Brick, when you look at the issues that you have to 
deal with of water supply and you have to weigh the threats, if 
you will, that you're dealing with, how would you allocate them 
from the standpoint of just natural weather changes, population 
growth, and forced climate change? How would you rate the 
threat, if you will, to the water supply in your particular 
area?
    Mr. Brick. Well, it's very difficult to separate out what 
is kind of natural hydrologic variation and the new impact of 
climate change. But I would say that the planning that we've 
done to respond to drought conditions coming irregularly has 
served us well, has positioned us well, really, to be able to 
deal with the kind of uncertainty and risk that climate change 
presents.
    It's not clear what the impacts are going to be, but it's 
clear that we can't wait to find out and that we need to take 
hopefully kind of no-regrets kind of actions immediately in 
order to deal with both hydrologic uncertainty in general as 
well as with the added layer of complexity that climate change 
adds to that.
    Senator Corker. What about the population growth piece as 
it relates to the other issues?
    Mr. Brick. Well, population growth is certainly critical, 
and in the Colorado River Basin this is a very rapidly growing 
area, and in the 90's Nevada grew by 66 percent, Arizona grew 
by 40 percent, Colorado grew by 30 percent. This is the most 
rapidly growing area in the Nation.
    So we're faced with a situation in which the allocation of 
Colorado River water was based upon a relatively wet period of 
time and the division of 15 million or 16.5 million really 
acre-feet of water on the Colorado River when that is not 
considered to be the realistic normal flow of the Colorado 
River at this point.
    With estimates from climate scientists who say that climate 
change is likely to induce a variation of 10 to 15 percent, and 
some of the estimates go as high as 41 percent reduction in the 
stream flow on the Colorado River in the future, it creates a 
great deal, a great deal of concern, Senator, as to what we're 
going to have to do on the Colorado River.
    I would like to say that the statements by our friend from 
the Bureau of Reclamation are important and the basin States 
have responded to this and do have some action steps that we 
are all united in asking the Bureau of Reclamation to pursue 
with regard to shortage sharing criteria on the Colorado River 
and also with regard to the creation of what's being called 
intentionally created surplus, which is the ability to bank 
water on the Colorado River, which is a very important 
management step for us at a very reasonable cost, a lot less 
than building other reservoirs and other things like that. We 
will be able to manage and trade water in the future based on 
these recommendations from the basin States.
    So we encourage congressional oversight of that and support 
for the basin States' recommendations.
    Senator Corker. But back to the population growth issue, it 
seems to me that we know we have a lot of contributing factors 
to sort of magnify the problem, but with the tremendous 
population growth that's taking place without these other 
factors, you have serious issues. Is that correct?
    Mr. Brick. That's absolutely correct. Even in our service 
territory, we're now at 14 or 18 million people, rather. It was 
12 million when I first came on board with the Metropolitan 
Water District. So it's changed that much, from 12 to 18 
million, and we expect it's going to go up to 22 million by 
2030.
    Senator Corker. Are there things happening at the State and 
local level? I mean, the things that we are talking about in 
this panel are semi-more difficult to deal with. They're based 
on modeling and all of us as a world, if you will, have to work 
together to address that issue. It sounds like that in your 
particular area that's a very definable thing to deal with 
through zoning and working with State and local governments, 
and that's a much more tangible, easily handled problem that 
sounds like it's of greater magnitude in many ways than what 
we're talking about today as it relates to water supply.
    So are there things happening at the State and local level 
to deal with the huge magnitude of growth that is using up this 
water?
    Mr. Brick. Well, two-thirds of the growth in southern 
California is coming, is internally generated. But you're 
absolutely right, the local land use planning and a lot of the 
important decisions that get made about the density of 
developments are very important. Moves toward mixed use 
development in urban areas and concentrating growth in urban 
areas and protecting green belts or other zones outside of 
cities are very important. More dense housing in urban areas is 
very preferable to carpet bombing the desert with new 
subdivisions.
    Many steps like that are being taken, but I think that 
you're right that there is a need for much more action in that 
area in order to really assure that the needs of southern 
California and other regions in the West are met in the future.
    Senator Corker. Again, I was with the chairman last week in 
Brussels working with others, the European Commission, and 
looking at global warming, and it seems to me that again to 
have such a tangible way of dealing with it at the local and 
State level might be a great first step with some of the issues 
that are coming up.
    Mr. Culbertson, and I thank you all for your testimony. But 
on the renewable portfolio standard that we're going to be 
dealing with I think very soon in the next 3 weeks, I know one 
person on this committee plans on putting forth an amendment. 
Talk to me a little bit about new opportunities for hydropower, 
the investment? Talk to me a little bit about the possibility 
of--I know that's one of the renewables that is included per 
this person's proposed amendment. But talk to me about the 
opportunities there?
    Mr. Culbertson. There are a number of potential 
opportunities. Unfortunately, in the utility industry many 
times we tend to put all of our eggs in one basket. Currently I 
think that the utility industry--and I've been around 30-some 
years in the utility business out West. The resource of choice 
right now is basically two. One is wind and that's 
predominantly the renewable resource of choice. The other is 
gas-fired generation.
    However, there are multiple hydro projects around the 
United States, especially the Northwest, that, at least under 
the State of Washington, qualify potentially as a renewable 
resource, and hopefully a Federal standard will include hydro 
resources as renewable generation. We recently filed--I'll give 
you an example--on a small project known as the Klee-Ellen 
Project about halfway between where I live in the center part 
of the State and Seattle. It's an existing storage project, 
flood control primarily.
    We have filed that preliminary permit application to add 
incremental generation to that project. It's a cost- effective 
resource. It is considered a renewable resource. We believe 
there are a number of those kind of projects around the country 
that could be retrofitted. There are canal systems that have 
low drops on the canal systems. We have a number on our system. 
We're going to go back and retrofit, I believe, a number of 
those drops. They're not huge, but every little bit of 
generation, incremental generation, is a benefit to the system.
    Technology is rapidly changing. Microturbines in canal 
systems and low-flow stream systems. We are watching that 
technology as it rapidly advances. We believe that our canal 
system and low-flow streams--not too far in the future--we'll 
be able to put little microturbines in there and generate off 
of those microturbines.
    But when you look at all of that, if you have rapid growing 
areas, I guess I'll sit here and say before you I believe all 
hydro generation is renewable. It's a renewable resource, 
always has been. There are other projects across the West and 
across the country where you could do exactly the same thing as 
we talked about about the Klee-Ellen Project, only on a larger 
scale. You have existing large storage projects where you could 
retrofit to put generation capacity on those storage projects. 
We're looking at some of those. They're larger scale, but at 
this point in the State of Washington and the standard 
adopted--it's going through its rulemaking process--would not 
be included as renewable. That's not going to stop us from 
looking at those, at those projects, because right now I think 
they're some of the most cost effective projects that can be 
developed when you look at the scope of projects that utilities 
are able to look at right now.
    If you take coal off the table, put nuclear back on the 
table, which some are doing, but when we look at what the 
potential is for renewable projects I think it's large-scale 
and small-scale hydro projects. That's where we're going to 
focus a lot of our efforts. We're going to look at biomass. We 
are the largest producer of biomass in the State of Washington, 
so we're going to look at methane digesters at dairies. But 
they're very small. You're not going to get large-scale 
generation. We're going to probably develop a wood products 
biomass facility. Senator, if you haven't heard we've signed a 
new agreement with the Yakama Nation. I think your staff will 
be briefed about it tomorrow.
    But you have to look at all of those things and you can't 
put all of your eggs in one basket. I believe that we've got to 
diversify our renewable portfolio. But I think a good portion 
of that is also then developing the incremental hydro resources 
that we have available to go along with those other renewable 
resources.
    Senator Corker. I know the body language in the back with 
people standing suggests that it's time for this hearing to 
come to a close. But just if you will, what is your mix, your 
portfolio mix at present?
    Mr. Culbertson. At present we have 2,000 plus megawatts of 
hydrogeneration.
    Senator Corker. Do it in percentages, if you will.
    Mr. Culbertson. Hydro is 95 or 96 percent of our 
generation, wind is probably 2 percent, and other is the 
remaining percent--whatever it is.
    Senator Cantwell. All States should be so lucky as to have 
a Grant County PUD. I should tell you that.
    Mr. Culbertson. Yes, we're very fortunate.
    Any more questions?
    Senator Corker. I want to thank all of you for your 
testimony and traveling so far to be with us. All of this is 
very helpful. I know in many cases there's not many Senators 
here up at the dais, but we do get your written testimony and 
our staffs all do look at that.
    I want to thank the chairwoman for having this hearing and 
for all of you being here.
    Senator Cantwell. Well, Senator Corker, thank you for 
attending and being here this afternoon. I think your questions 
were right on. Having jointly chaired the San Joaquin hearing a 
few weeks ago, we definitely see how the impacts of local 
decisions play into this. I personally think the Energy 
committee and this subcommittee should take a much more 
aggressive role at looking at these water issues throughout the 
country, but certainly impacting the West, and promulgate more 
ideas about what we should be doing in a proactive sense, given 
the level of frustration.
    I don't think I've seen a more contentious issue than water 
except for fish and, Mr. Williams, often fish and water go 
together. The lack of fish and water has caused a great deal of 
debate in western States in the last several years, and 
oftentimes they end up right at our doorstep. So I would 
suggest if we could think about being a little more proactive 
maybe we can deal with those issues in advance of court cases 
and court decisions and coming to us with last resort 
agreements.
    So anyway, thank you very much for your testimony and the 
subcommittee is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

       Responses of Tim Brick to Questions From Senator Cantwell
    Question 1a. Your testimony identifies an impressive array of 
investments that Metropolitan has made in groundwater storage, 
conservation, and water reuse projects. It appears that Metropolitan's 
approach is to make itself as diversified as possible with respect to 
water supply, and as efficient as possible in its operations, as the 
way to meet the long-term water supply challenges posed by climate 
change and other factors.
     If that correct? Is it your view that implementing strategies for 
good water management is the best strategy for dealing with the impacts 
of climate change will have on water supply?
    Answer. Good water management by diversifying water resources and 
practicing demand management is key to handling current and future 
uncertainties, including climate change, for the southern California 
region.
    Since the adoption of its first Integrated Resources Plan (IRP) in 
1996, the diversified water supply strategy has proven to work well for 
Southern California. The region was able to withstand a 40% reduction 
in Colorado River supply beginning in 2003 (due to the on-going drought 
on the River and the Quantification Settlement Agreement). Furthermore, 
2004 was one of the driest years on record for California. Southern 
California managed without water rationing.
    Southern California relies on four different hydrologic basins for 
its water supplies, and integrating the management of these sources 
provides greater overall capability to handle hydrologic variability of 
these basins. In addition, Metropolitan has worked to integrate the 
resources of its member agencies and agencies outside Metropolitan. The 
region has benefited from storing water to help meet both seasonal 
swings in water demand and year-to-year variation in water supply.
    Metropolitan also works with other water agencies to purchase 
transfer water during dry periods. In 2003 and 2005, it acquired over 
125,000 acre-feet of options to purchase transfer water supplies from 
agricultural water districts in the Sacramento River Basin. In 2004, 
Metropolitan entered into a 35-year program with Palos Verde Irrigation 
District that provides Metropolitan with up to 111,000 acre-feet of 
Colorado River water annually, depending on Metropolitan's needs.
    Metropolitan provides incentives for strong conservation practices 
and water recycling, which enhances local supply and conservation for 
the region.
    It is important to note that none of these actions alone is enough; 
that only a mixture of these management actions maintains a reliable 
water supply for Southern California.
    Question 1b. Does Metropolitan, as part of its Integrated Resource 
Plan have specific actions it is taking solely due to impacts expected 
due to climate change?
    Answer. At this time, Metropolitan is implementing `no regrets' 
actions and projects to prepare for climate change; that is, projects 
which provide water supply and quality benefits now, because they make 
overall water management sense, while increasing the ability to manage 
potential climate change impacts when they occur. Our IRP is revised 
every 5 years and plan implementation is reported annually to track 
progress, changes in resource status or assumptions, and anticipated 
implementation challenges. The last version of the IRP, released in 
2004, included a ten percent buffer to provide for uncertainties about 
water supply and management programs and for uncertain developments 
such as climate change.
    MWD staff is currently preparing a new, major revision of the IRP 
that will be released in 2008. This revision will incorporate specific 
responses to potential climate change impacts.
    Question 2. You mentioned that Metropolitan, and the water 
community as a whole, needs to partner with the scientific community to 
conduct further research to assess the risks of climate change on 
water, and integrate appropriate responses into water management 
decisions. We heard a similar recommendation from the first panel that 
there needs to be better integration between the science community and 
the water user community.
     Do you have any suggestions on how we might accomplish a better 
integration of scientists and water users on the issue of climate 
change and water? Is there an existing program or structure that can be 
used to facilitate that integration?
    Answer. Metropolitan supports a close collaboration between climate 
scientists and water resource planners and engineers on applying the 
science of climate change. Water resource planners and engineers use 
previous experience to predict the future, and the climate scientists 
say the past may no longer predict the future. Hence, a planned 
structure for interaction is needed. The communication needs to be two-
way; engineers and planners would convey their needs to 
climatologists--key parameters for determining risks-tolerance levels 
including magnitude and frequency of impacts, and scale to be of use. 
And climatologists need to convey to planners and engineers tools to 
predict the future.
    Answer. Metropolitan believes that we need a joint determination of 
indicators for adjusting strategies for water resource planning and 
emergency preparedness. Funding from the Regional Integrated Sciences 
and Assessments (RISA) and Climate Change Science Program (CCSP) need 
to be earmarked for this exchange. Funding needs to be reinstated for 
USGS stream gage monitoring and weather station data collection 
programs, which have suffered declining budgets in recent years and 
have curtailed the collection of invaluable data.
    Metropolitan recommends that Congress earmark part of the National 
Science Foundation grant funding for climate research for projects that 
partner academics and water industry practitioners. Metropolitan also 
supports NASA's program for satellite monitoring of the Earth's 
climate, and NASA's CCSP budget needs to earmark the aggressive 
development of actual application of satellite data.
        Response of Tim Brick to Questions From Senator Salazar
    Question 1. Are the existing reservoir storage capacities capable 
of handling the early snowpack melts?
    Answer. While the operations of existing storage facilities are 
being adjusted to capture the earlier snow melts, additional surface 
and groundwater storage will be required to manage future impacts of 
climate change for more intense runoff, less snow pack, and longer 
droughts. Existing reservoir storage volume and operating guidelines 
were developed based on historical runoff patterns and storm 
intensities. Changes predicted to occur with climate change would 
require revising flood management and water conservation and recycling 
strategies. With the possible impact of higher storm intensities, it is 
likely that more storage space would need to be reserved for flood 
control thereby reducing the ability to capture runoff for consumptive 
use by people. Additional surface and groundwater storage may be 
required in certain watersheds to compensate for the reduced capture 
ability.
    In addition, water use efficiency gained through water conservation 
and recycling enhances the ability to meet water demands. Each acre-
foot of conservation savings or recycling water would lessen the need 
to utilize stored water during dry periods. Finally, climate change 
would likely impact fish and wildlife, and hence the reservoirs may be 
called upon to regulate the quantity and temperature of streamflow, 
further limiting the ability to store water for consumptive needs.
    Question 2. What are the best options you believe are available to 
adapt to global warming impacts on water supplies in the West?
    Answer. Metropolitan believes that the water agencies should 
incorporate options that include both mitigation and adaptation to 
climate change in their water resource management plans. For example, 
Metropolitan is examining its operations, including reduction of 
greenhouse gas emissions, to mitigate climate change. It also supports 
the Governor Schwarzenegger Executive Order S-3-05 and recently enacted 
state legislature AB 32 by state assembly speaker Nunez to reduce the 
extent of climate change and associated impacts to water supply.
    For adaptation, Metropolitan has diversified its resource mix and 
created additional water storage opportunities. It has developed 
conservation and recycling incentives for local agencies to develop 
these programs. It has worked with industry associations and 
legislatures for stricter plumbing codes (e.g. low flow showerheads) 
and stricter appliance efficiency standards (e.g. clothes washing 
machines). Metropolitan also supports streamlining regulatory 
requirements for water transfers and water recycling.
    Question 3. Have conservation efforts been effective in reducing 
water demand or have increases in population in the West negated the 
savings from conservation?
    Answer. Because of the investments the region has made in storage, 
conservation, recycling and groundwater recovery, Southern California 
uses the same amount of imported water today as the region did in 1990, 
even though the region has grown by more than 3 million people.
    For Metropolitan's service area, conservation efforts have reduced 
the daily per person consumption by 36 gallons. Our projections 
anticipate that by 2025, conservation efforts will reduce per person 
daily water use by 54 gallons. In more fully developed areas such as 
the City of Los Angeles, the region's largest city, with four million 
people, water use has been stable for 25 years despite the addition of 
one million people. Retrofitting older, less water efficient devices 
and appliances delays the need for new water supplies.
    Water demands in more rapidly developing areas would increase with 
population and economic growth, since the newer housing and development 
have already incorporated more water-efficient features through the use 
of stricter plumbing codes in place. However, Metropolitan strives to 
increase water use efficiency in the newer areas through partnerships 
with local, regional and national homebuilders, with support from the 
California Building Industry Association and U.S. Bureau of 
Reclamation, to increase the awareness by home buyers and remodelers of 
water-efficient landscapes and devices. Through its California 
Friendly Home Program, Metropolitan currently offers incentives to 
builders to offset the costs of equipping model and production homes 
with water-efficient fixtures and landscapes that exceed plumbing code 
requirements. Homes built with California Friendly specifications are 
designed to use 30 percent less water than conventional homes.
    Question 4. Do you believe that climate change impacts on water 
supplies will have to be considered when making commitments about 
future water deliveries?
    Answer. Climate change is an important consideration for water 
agencies in the planning and implementation of water management 
strategies. Water agencies, such as Metropolitan, must consider ranges 
of water supply and demands in their planning for future water 
deliveries, including supply uncertainties due to climate change and 
other factors (such as population and economic growth, endangered 
species and ecosystem needs, more stringent water quality requirements, 
etc.) In addition, recent state legislation requires local governments 
to demonstrate sufficient water supply for 20 years when approving new 
developments exceeding certain thresholds. The federal government could 
hold oversight hearings to ensure state and water agencies are taking 
into account potential impacts of climate change on investment 
decisions, and future water rights and appropriations. Climate change 
considerations should also be incorporated into decisions regarding 
federal water contracts and system operations that directly affect 
water apportionments to individual states.
    Regarding water resources to southern California, the federal 
government plays a key role in making decisions regarding ecosystem, 
operations and infrastructure improvements for the Colorado River and 
the San Francisco Bay and Sacramento and San Joaquin River Delta. It is 
important that those decisions would result in sustainable water 
delivery systems from the Colorado River and the Delta to meet urban, 
agricultural and environmental water needs.
                                 ______
                                 
    Responses of Patrick O'Toole to Questions From Senator Cantwell
    Question 1a. You mention the need for expanding the water supply in 
the West through new storage projects that will make water available to 
farms and cities.
     What type of storage projects has the Alliance and its members 
been contemplating?
    Answer. The Board of Directors of the Family Farm Alliance in 2005 
launched a forward looking project that pulled together a master data 
base of potential water supply enhancement projects from throughout the 
West. Our goal was to gather together ideas from around the West and 
put them into one master data base.
    The types of projects contained in the resulting Western Water 
Supply Enhancement Study database are not monstrous dams like China's 
Three Gorges project. Instead, they are supply enhancement projects 
that range from canal lining and piping, to reconstruction of existing 
dams, to integrated resource plans. There are also some very feasible 
new surface storage projects. The benefits from these projects include 
providing certainty for rural family farms and ranches, additional 
flows and habitat for fish, and cleaner water.
    Along with basic information included on a CD-ROM, the database 
that was generated from the compilation of the survey has a Global 
Information System (GIS) element and includes pictures, maps and a 
description of up to 500 words for each project or proposal. New GIS 
format technology is embedded that permits viewers to see a map of 17 
Western states and then ``drill down'' to see map details of a project 
area. If you would like, we can make copies of the CD-ROM available to 
your committee. We welcome all constructive comments.
    The Initiative shows that, in most areas of the West, water 
resources are available and waiting to be developed. However, the 
policies of the federal government make development of that water 
nearly impossible. Water wars are being fought throughout the West 
simply because we have not had the vision to develop new, 
environmentally sound, sources of water.
    Question 1b. Can you give some examples?
    Answer. There are more than 100 projects included in our data base. 
Some specific projects include:

  <bullet> Water for Irrigation, Streams, and Economy Project (WISE), a 
        collaborative effort in Oregon to improve the health of the 
        Little Butte Creek and Bear Creek systems and increase the 
        effectiveness and efficiency of local irrigation districts. The 
        WISE Project utilizes a combination of strategies including: 
        piping and lining canals, increasing the storage capacity of 
        selected reservoirs, and installing a pumping system that will 
        provide access to water that has been allocated for 
        agricultural purposes. Collectively, more water will be 
        available for management for irrigation and environmental 
        instream purposes.
  <bullet> Sites Reservoir in has been identified by the California 
        Department of Water Resources and the CALFED Program as one of 
        the most cost-effective and environmentally beneficial new 
        facilities under consideration in California. The Sites project 
        would enhance water supply reliability for environmental, urban 
        and agricultural uses throughout the state. Sites would provide 
        water supplies in average and dry years for urban, agricultural 
        and environmental purposes, increase San Francisco Bay-
        Sacramento/San Joaquin Delta outflows during critical times, 
        improve flood control, enhance groundwater recharge, bolster 
        fish flows, and improve flexibility for existing projects, such 
        as Shasta Reservoir. Sites reservoir can greatly increase 
        reliability of water supplies by reducing water diversions on 
        the Sacramento River during critical fish migration periods.
  <bullet> Strawberry Valley Rehabilitation and Betterment Projects 
        (Utah) are proposed to decrease the water seepage and losses in 
        the Strawberry Valley Project, as well as provide gravity 
        pressure for the continued migration toward sprinkler 
        irrigation systems, which would then provide additional water 
        savings. These projects could save approximately 15,000 to 
        20,000 acre-feet of water per year in an agricultural area that 
        is rapidly urbanizing.
  <bullet> Farmington Groundwater Recharge Program. This $33.5 million 
        effort is lead by Stockton East Water District (California) in 
        partnership with the U.S. Army Corps of Engineers to contribute 
        to restoration of local aquifers and to repel saline water 
        intrusion. The Program seeks to rotate water with other land-
        uses via short-and long-term agreements with landowners, and 
        develop permanent recharge facilities. The recharge facilities 
        also provide seasonal habitat for migratory waterfowl. This 
        will provide an additional water supply yield to the region of 
        approximately 17,000 acre-feet annually.

    Question 1c. Obviously, there will be environmental concerns 
associated with any new surface water storage projects. Moreover, 
increasing temperatures means more reservoir evaporation, resulting in 
some loss of the water supply that storage might otherwise make 
available. In your opinion, is it possible to address those issues and 
move forward with storage projects that will ultimately have broad 
support from a number of different stakeholders?
    Answer.
Environmental Impacts
    Individual surface storage proposals must be evaluated and the 
associated benefits and risks must be viewed in a net, comprehensive 
manner. While some environmental groups focus on perceived negative 
impacts associated with new facility construction (e.g. loss of 
habitat, disruption of stream flow patterns, and potential evaporative 
losses), these perceived impacts must also be compared to the wide 
range of multi-purpose benefits that storage projects can provide. 
Properly designed and constructed surface storage projects provide 
additional water management flexibility to better meet downstream 
urban, industrial and agricultural water needs, improve flood control, 
generate clean hydropower, provide recreation opportunities, and--yes, 
create additional flows that can benefit downstream fish and wildlife 
species.
Evaporation
    Potential increasing temperatures and associated increased 
evaporation must also be evaluated for new storage projects on a case-
by-case basis. Evaporation is a function of several variables, 
including temperature, wind and the surface area of the reservoir. 
Sometimes, new reservoirs might actually result in lower evaporative 
losses than is the current case.
    Consider, for example, Oregon's Long Lake basin, located just west 
of Upper Klamath Lake, the principal reservoir for the Klamath 
Irrigation Project. Putting in earthen dams in the mostly dry Long Lake 
could create a reservoir with about the same storage capacity as Upper 
Klamath, but with only about 10 percent of the surface area. It would 
be about 160 feet deep, compared to an average depth of just 8 feet for 
Upper Klamath Lake. Upper Klamath's annual water loss to evaporation is 
290,000 acre-feet. The projected annual loss from a Long Lake Reservoir 
would be 8,000 acre-feet. That's a huge difference--and a huge benefit. 
So is the fact that the water from such a reservoir would be much 
colder than water from Upper Klamath.
Stakeholder Support for New Projects
    Some people and organizations oppose dams as a matter of dogma. 
They have no flexibility when it comes to surface storage. But 
experience teaches us that solving complex problems requires a great 
deal of flexibility. It also requires the collective efforts of 
reasonable, well-intentioned people who may come at the problem from 
entirely different perspectives. Surface storage isn't the solution in 
all cases, but dismissing it out-of-hand serves no good purpose.
    Creative, successful solutions can be found by motivated, 
unthreatened parties. The holders of water rights approach the Western 
water supply problem with much at risk, and with much to offer in the 
form or practical experience managing the resource on a daily basis. 
Incentives that create reasons to succeed will do more good for the 
environment in a shorter period of time than actions that rely on 
threats of government intervention.
    Question 1d. Given the cutbacks in water supply funding over the 
last several years, do you envision that water users will be able to 
pay for a majority of any new water supply infrastructure?
    Answer. Those who benefit from new water supply infrastructure 
should help pay for that infrastructure. For the most part, new water 
supplies are not being proposed to meet the expanding needs of 
agriculture. On the contrary, we are seeing a move in the opposite 
direction, where agricultural lands are going out of production and 
being lost to expanding urban development. Water that was originally 
established for agriculture and the communities it supports is now 
being reallocated to meet new growing urban and environmental water 
demands. The growing numbers of urban water users in the West and the 
public interest served through improved environmental water supplies 
should naturally be part of equitable financing schemes.
    The President and Congress will prioritize whatever federal funds 
are available to meet existing and future needs. As for the rest of the 
capital, it must come either from state and local governments or from 
the private sector. If the federal government cannot fund the required 
investments, it should take meaningful steps to provide incentives for 
non-federal entities to fill the void, and remove barriers to the new 
ways of doing business that will be required.
    In this time of tight budgets and huge overseas spending, the 
federal government must adopt a policy of supporting new projects to 
enhance water supplies while encouraging state and local interests to 
take the lead in the implementation of those projects.
    Question 2. Your testimony identifies as a priority, the need for 
research that would validate projected climate-driven changes in 
streamflow; and which would then be coupled with a plan addressing the 
new storage and conservation targets essential to compensate for the 
changed hydrology. You also suggest the need for a comprehensive 
assessment of changes in agricultural land and water use over the last 
decade.
    In your opinion, should the Federal government lead such a research 
effort? If so, who should take the lead? Is any one agency equipped to 
carry out such a large task?
    Answer. No. Rather, this type of study lends itself well to a 
private-public partnership that would add non-governmental farming 
organizations, state agencies and academic institutions to a team of 
federal agencies like the Natural Resources Conservation Service, 
Bureau of Reclamation, U.S. Geological Survey. For example, the Family 
Farm Alliance has partnered with Colorado State University and recently 
developed a proposal to the U.S. Department of Agriculture for a 
project that would assess public attitudes and perceptions regarding 
agricultural water use in the West. A similar type of proposal--one 
that involves producers, state and federal agencies, and academia--
could be developed to create a partnership of the above agencies and 
other entities to collaboratively lead a climate change/hydrology 
research effort. We would be happy to further coordinate and detail 
such a proposal.
     Responses of Patrick O'Toole to Questions From Senator Salazar
    Question 1. Are the existing reservoir storage capacities capable 
of handling the early snowpack melts?
    Answer. There are several reports that suggest existing reservoirs 
will not be capable of safely accepting the earlier, more intense 
snowmelt. As noted in our written testimony, a report released last 
year by the State of California predicts that climate change will 
result in a drastic drop in the state's drinking and farm water 
supplies, as well as more frequent winter flooding. The report suggests 
that warmer temperatures will raise the snow level in California 
mountains, producing a smaller snowpack and more winter runoff. This 
means more floodwaters to manage in winter, followed by less snowmelt 
to store behind dams for cities, agriculture, and fish. Water resources 
experts in other parts of the West also realize that new surface water 
storage projects may be necessary to capture more snowmelt or more 
water from other sources.
    Some Western water managers believe there will likely be a ``rush'' 
to re-operate existing multi-purpose projects to restore some of the 
lost flood protection resulting from the changed hydrology associated 
with climate change. These projects were designed to provide a certain 
level of flood protection benefits that will be reduced because of more 
``rain flood''-type of events. There will be a call to reduce carryover 
storage and to operate the reservoirs with more flood control space and 
less conservation space. If this is done, it will even further reduce 
the availability and reliability of agricultural water supplies.
    Further, many water users are located upstream of existing 
reservoirs. These users must then rely on direct or natural that is 
primarily fueled by snowmelt. In the Rocky Mountain West, snowmelt 
traditionally occurs during the onset of the irrigation season. Since 
conveyance systems are never 100% efficient, water is diverted, 
conveyed and spread on the land in excess of the net irrigation demand. 
This surplus returns to the stream and recharges groundwater aquifers, 
which augments water supplies for all users located downstream from the 
original diversion. If more runoff were to occur during warm cycles in 
winter before the onset of the irrigation season, this would impact the 
utility associated with these return flows.
    One priority research item should be a comprehensive validation of 
West-wide changes in climate change-driven streamflow. This should be 
followed by quantification of the amount of additional reservoir 
storage, conservation targets, etc required to re-regulate this change 
in hydrology. To optimize beneficial use, storage should be spaced 
through the drainage and locate at high and low elevations to regulate 
and subsequently re-regulate the water supply to maximize beneficial 
use.
    Question 2. What are the best options you believe are available to 
adapt to global warming impacts on water supplies in the West?
    Answer. In our written testimony, we elaborated on general actions 
that should be prioritized to allow us to mitigate climate impacts to 
Western water supplies:

          a) Implement a Balanced Suite of Conservation and Supply 
        Enhancement Actions;
          b) Streamline the Regulatory Process to Facilitate 
        Development of New Infrastructure; and
          c) Prioritize Research Needs.

    Also, many of the West's Reclamation projects are nearly 100 years 
old and are badly in need of repair. Rehabilitation measures should 
focus on maximizing the conservation effort through increased delivery 
efficiencies, construction of re-regulation reservoirs to prevent 
operational waste, and construction of new dams and reservoirs in 
watersheds with inadequate storage capacity to increase beneficial use 
and provide operational flexibility. Conjunctive management of surface 
and groundwater supplies should be encouraged. Installation of 
additional stream gauges, water meters, groundwater monitoring wells 
and better estimates of consumptive use are of paramount importance for 
the equitable management of available water supplies.
    Question 3. Have conservation efforts been effective in reducing 
water demand or have increases in population in the West negated the 
savings from conservation?
    Answer. Yes, conservation efforts have been effective, but it 
strains credibility to believe that conservation alone will supply 
enough water for the tens of millions of new residents expected to 
arrive in Western cities during the coming decades. Also, conservation 
does not work in many cases, especially where the desire is to increase 
in-stream flow. Water that is conserved tends to be used by the next 
junior downstream appropriator and the flow remains the same.
    In our written testimony, we provided several examples from 
throughout the West, where creative measures have been taken to develop 
and efficiently manage water resources for irrigation. These examples 
represent just a handful of the creative water management programs that 
Western irrigators are working on. Efforts to conserve water in urban 
areas have also been impressive, particularly in the Southwest.
    The experience of the City of Las Vegas may provide the best 
response to Senator Salazar's question. The Southern Nevada Water 
Authority (Authority) has imposed dramatic conservation measures in the 
areas it serves in and around Las Vegas. Consider the following:

  <bullet> As of March 2006, a program developed to pay customers $1 
        per square foot to remove lawns had already spent $56 million.
  <bullet> New restrictions were imposed on landscaping.
  <bullet> Use of recycled water was stepped up dramatically.
  <bullet> Casino-hotels along the Las Vegas Strip have made 
        significant investments in water features, capturing and 
        treating grey water and using recycled water.
  <bullet> A stiff four-tier rate structure was imposed, as were high 
        connection charges.

    With conservation measures in place, southern Nevada reduced water 
use by 65,000 acre-feet in two years. However, despite these aggressive 
conservation actions, the Authority is moving with equal determination 
to develop new water supplies in other parts of the region, since 
probabilities of shortages on the Colorado River are likely going to 
increase over time. As noted in our written testimony, the Authority is 
already planning to take groundwater out of aquifers under the Utah-
Nevada state line and pipe it to Las Vegas.
    So, this particular example--which describes some of the most 
innovative and aggressive conservation measures undertaken in the 
West--suggests that even the highest level of conservation is 
insufficient to keep up with new demands caused by new residents moving 
to Las Vegas.
    Question 4. Do you believe that climate change impacts on water 
supplies will have to be considered when making commitments about 
future water deliveries?
    Answer. Yes, with qualifications. Proper planning of any water 
resources project includes thorough hydrologic assessments and modeling 
of potential future scenarios. These scenarios can include a range of 
variables, including population projections, financial predictions, and 
weather/climate scenarios. However, caution should be employed when 
making commitments about future water deliveries, especially where 
climate change is concerned. Policy makers must understand the 
incredible uncertainty and high range of variability inherent in 
climate change predictive models before considering using these models 
as a basis for commitments.
    It often appears that agency modelers will expend seemingly endless 
amounts of funding based on their hope to create predictive tools, even 
though we are decades or more away from models that will have enough 
reliability to commit money or other resources. Climate scientists love 
their models, but when asked if they have enough confidence in them to 
make irreversible commitments of resources, the message becomes a more 
subdued ``no, but we hope to get there''.
                                 ______
                                 
     Response of Philip W. Mote to Questions From Senator Bingaman
    Question 1. Subcommittee staff have been looking at putting 
together a National Water Science Initiative that would focus on 
expanding, standardizing, and modernizing data acquisition for streams, 
groundwater, lakes, and reservoirs. Hopefully, this effort would lead 
to the development of better hydrologic models which would improve 
overall water management. I would also hope that these models could be 
coupled with atmospheric models to improve our ability to assess the 
impacts of climate change on water supplies.
    What do you think of such an initiative? It sounds as if the focus 
has been on streamflows in most of the research. What about other 
parameters affecting water supplies such as groundwater recharge; soil 
moisture; reservoir evaporation; and evapotranspiration? Would it help 
to increase our knowledge base about these parameters to use in 
conjunction with more streamflow data?
    Answer. Such an effort is vitally needed in order both to 
understand the details of how climate change will affect water 
resources in different watersheds and to improve streamflow prediction 
on timescales from a week to a year. At the University of Washington, 
the hydrology group headed by Prof. Dennis Lettenmaier developed the 
VIC (Variable Infiltration Capacity) hydrologic model, which unlike 
conventional hydrology models balances both water and energy fluxes and 
hence is more physically realistic and more suitable for estimating how 
streamflows, soil moisture, and evapotranspiration will change in a 
changing climate. This model has been used in numerous studies of 
climate change and also for shorter-term forecasting. Better data, 
especially naturalized streamflows, would improve this and other 
models' ability to accurately simulate streamflows and other aspects of 
the hydrologic system.
    The National Integrated Drought Information System, which Congress 
and the President authorized and funded in 2006, is a trailblazing step 
in the direction you suggest. It is among other things intended to 
harmonize data collection and distribution efforts among the various 
federal agencies. The National Weather Service's Historical Climate 
Network Modernization effort is also relevant for the effort you 
propose.
    Question 2. It's been my understanding that the climate change 
scientific community has relied heavily on data made available from 
satellites; and also made significant investments in trying to develop 
new remote sensing technologies. Unfortunately, I recently read a news 
report indicating that the Administration is drastically scaling back 
the use of satellite based data collection, which is critical to 
refining our understanding of the implications of global warming.
    Your testimony noted the importance of additional data and analysis 
in tracking and understanding the implications of climate change on 
water. Are you aware of these planned cutbacks in satellite data, and 
if so, how do you think it will affect ongoing science programs in this 
area?
    Answer. I believe you are referring to the NPOESS, National Polar 
Orbiting Environmental Satellite System, which is intended to make 
better use of planned satellites in both the Department of Defense and 
Department of Commerce. I understand that the NPOESS schedule has 
slipped considerably and that the instrument packages on the various 
satellites have been reworked, and there is considerable risk now that 
the first NPOESS satellite will not launch until the demise of NASA's 
Terra and Aqua satellites. Satellites are primarily used for process 
studies, and they have a role to play in climate monitoring but 
generally their design lifetime is too short to constitute monitoring, 
so overlapping series of satellites are needed.
     Response of Philip W. Mote to Questions From Senator Cantwell
    Question 1. Your testimony states that ``warming in the West can 
now be confidently attributed to rising greenhouse gases and are not 
explained by any combination of natural factors''. Researchers at the 
University of Washington have recently debated the trends being 
observed in snowpack in the Pacific Northwest, and whether those trends 
were attributed solely to global warming or more closely related to the 
natural variations in weather patterns.
    How do you discern between the two causes and how might we improve 
in understanding and addressing this distinction in the future?
    Answer. Implicit in the question are two separate logical steps. 
The first is whether snowpack has changed in a manner that can be 
explained by warming, regardless of the cause of the warming. The 
second is whether western warming can be explained by natural factors 
or whether the buildup of greenhouse gases is involved.
    For the first question, as one of the primary parties in that 
discussion of snowpack, I am very familiar with the issues discussed. I 
and colleagues at several other institutions have published about 8 or 
9 peer-reviewed papers demonstrating that snowmelt-driven hydrology in 
the West has changed in the last 50-60 years and that warming is 
clearly involved. Our papers considered about 1,000 locations where 
snow has been monitored and about 300 locations where streamflow has 
been monitored, as well as detailed hydrologic modeling that 
substantially corroborated the observations. The ``debate'' arose after 
a colleague at UW, on the basis of cursory analysis with a handful of 
snow monitoring sites and without the scrutiny of peer review, 
challenged the findings of these 8-9 far more detailed and peer-
reviewed studies, referring to the notion of declining snowpack as a 
``myth''. However, an independent review panel of four faculty at UW 
examined the evidence on both sides and wrote a short report affirming 
the basic conclusion that snowpack in the Cascades had declined some 
30% since the mid-twentieth century largely in response to warming.
    The second question was addressed in a paper by Peter Stott in 
2003, which showed that the warming in western North America could not 
be explained solely by natural variability but could be explained by 
the buildup of greenhouse gases. An easy way to see that is by 
considering trends in temperature and how they relate to the primary 
pattern of western climate variability, which is a north-south seesaw 
associated with Pacific basin climate patterns. That is, the Northwest 
tends to have winters that are wetter and cooler than average when the 
Southwest has winters that are drier and warmer than average, and vice 
versa. But in the past 50 years all regions of the West have warmed, 
illustrating that rising greenhouse gases have dominated the natural 
see-saw.
    Question 2. In talking about predicted future changes, you 
discussed climate models being used by the IPCC, and that those models 
tended to agree that precipitation will likely increase in the north 
and decreases in the Southwest. Mr. Udall and Dr. Milly's testimony 
seem to be in sync with those conclusions. A recent story in USA Today, 
though, entitled ``Climate change models overstate droughts'', talks 
about a new study entitled ``How Much More Rain Will Global Warming 
Bring'', which finds that climate change will result in increased 
global rainfall which may be 3 times greater than currently predicted. 
The story concludes by stating that ``climate modelers are overstating 
how much rainfall will dry up in a warmer climate''.
    Are you familiar with this new study, and if so, does it have 
implications for the modeling results that you've all discussed today?
    Answer. I have read the paper in question by Mears et al., and I 
believe its results were somewhat overstated in the USA Today article. 
The last two sentences of the paper says that it raises more questions 
than it answers: ``The observations reported here suggest otherwise, 
but clearly these questions are far from being settled.'' [emphasis 
added]
    The authors studied variability in precipitation from satellite 
data over about the last 20 years, and the relationship between 
temperature and precipitation that they reported was predominantly a 
tropical relationship and was dominated by the 1997-98 El Nino event 
and the changes in rainfall and wind that occurred then; it uses the 
relationships derived from the past 20 years to test the models, and 
extrapolates from that behavior to the future. Furthermore, what their 
paper showed outside the tropics was that the pattern that global 
climate models project for future changes--drying in the subtropics and 
more precipitation in higher latitudes--are correct, but the intensity 
is underestimated. In other words, if they are correct that models 
underestimate the intensity of the hydrologic cycle are correct, the 
projection of increased drought in the southwest is also an 
understatement. Heavier precipitation in the tropics goes along with 
less rainfall in the desert areas.
    Question 3. You discuss the need to produce information on a 
regional basis as opposed to a global scale, including the development 
of regional climate models. It's my understanding that a great deal of 
the projections currently being made are the result of ``downscaling'' 
global climate models to assess climate change impacts in specific 
regions.
    It's my understanding that you have a paper in the works on this 
subject. What are your views on the issues associated with 
``downscaling'' and the prospects for regional models? What will 
regional models be able to do better than global models?
    Answer. Thank you for noticing that paper. We believe that regional 
models are a useful tool for studying climate change, sometimes 
illustrating how large-scale changes in circulation can interact with 
small-scale topography to produce interesting results. In some respects 
global model changes can be considered to be uniform across a large 
region--for example, the factors producing a 3F warming or 10% 
decrease in summer precipitation would be largely the same in central 
Washington as in eastern Idaho, even though the baseline temperature 
and precipitation in each place is different. However, for other 
aspects like the interaction between snow cover and surface 
temperature, getting the details of the location correct (for example, 
whether it has snow cover) are very important for determining the rate 
of warming. Regional models can be useful tools for such details. There 
are a number of technical challenges in using regional models, not 
least the computing power required to do long simulations and to 
improve their numerics.
      Response of Philip W. Mote to Questions From Senator Salazar
    Question 1. What studies do you believe would be most beneficial to 
understanding the potential impacts from global warming on water 
supplies?
    Answer. First, estimating future flows using a combination of 
global climate models, regional models, and physically-based hydrologic 
models. Ideally this approach would include a range of scenarios of 
future climate. Second, each water management agency that has a water 
resources model should run the model on a range of future flows to 
investigate the impacts. For example, the Northwest Power and 
Conservation Council has used flows produced using the VIC hydrologic 
model (mentioned in my responses above) in its Genesys hydropower model 
to investigate what climate change could do to future hydropower 
production.
    Question 2. Are the existing observation networks, e.g., for 
measuring streamflows, snowpacks, etc., adequate to understanding the 
observed impacts from global warming? Are there additional observation 
networks we should be putting in place?
    Answer. None of these networks was originally designed for 
monitoring climate changes. Monitoring long-term climate and hydrology 
requires greater consistency in instrumentation, observing practices, 
and surrounding landscape than most sites have achieved. Using these 
networks to deduce changes over time therefore requires some efforts to 
estimate the effects of these non-climatic factors, for example the 
effects of changing a thermometer type. A serious problem of attrition 
is reducing the number of long-term weather stations, stream gauges, 
and snow courses, and, as the American Association of State 
Climatologists and various panels of the National Academy of Sciences 
have said, Congress should reverse this decline so that we can at least 
maintain the level of monitoring capability that we have now. Improving 
real-time reporting capability and data access are another high 
priority. Adding sensors like soil moisture, groundwater, and solar 
radiation to existing networks would further improve their value. These 
various tasks are in my opinion more urgent and more valuable than 
establishing new networks, with the exception that the Climate 
Reference Network (which is currently being installed) should certainly 
be completed.
                                 ______
                                 
    Response of Bradley H. Udall to Questions From Senator Bingaman
    Question 1. Subcommittee staff have been looking at putting 
together a National Water Science Initiative that would focus on 
expanding, standardizing, and modernizing data acquisition for streams, 
groundwater, lakes, and reservoirs. Hopefully, this effort would lead 
to the development of better hydrologic models which would improve 
overall water management. I would also hope that these models could be 
coupled with atmospheric models to improve our ability to assess the 
impacts of climate change on water supplies.
    What do you think of such an initiative? It sounds as if the focus 
has been on streamflows in most of the research. What about other 
parameters affecting water supplies such as groundwater recharge; soil 
moisture; reservoir evaporation; and evapotranspiration? Would it help 
to increase our knowledge base about these parameters to use in 
conjunction with more streamflow data?
    Answer. The answer is, without qualification, yes. I would 
encourage you to include the NRCS, USGS, and NOAA in this effort. I 
think it is possible for these three entities to collaborate much 
better than they currently do and synergies should result. The USGS is 
currently beginning a necessary and overdue effort to combine 
groundwater and surface water models; more innovative efforts of this 
type need to be pursued. In my experience there is a knowledge gap 
between the atmospheric scientists and the hydrologists that needs to 
be bridged; each discipline would be well served to learn from the 
other.
    In the context of climate change there is very little research on 
groundwater recharge and evapotranspiration, somewhat more has been 
done on soil moisture and reservoir evaporation but all four are 
lacking focused research efforts. There is very little soil moisture 
data. The NRCS is in the process on installing soil moisture sensors at 
some of its SNOTEL sites, and elsewhere. This is a start, but much more 
is needed. There is anecdotal evidence that the record low 2002 runoff 
occurred because of low soil moisture prior to the runoff season that 
year. But given current datasets, it is impossible to test this 
hypothesis. If true, this would increase our capability to issue 
accurate streamflow forecasts.
    Question 2. It's been my understanding that the climate change 
scientific community has relied heavily on data made available from 
satellites; and also made significant investments in trying to develop 
new remote sensing technologies. Unfortunately, I recently read a news 
report indicating that the Administration is drastically scaling back 
the use of satellite based data collection, which is critical to 
refining our understanding of the implications of global warming.
    Your testimony noted the importance of additional data and analysis 
in tracking and understanding the implications of climate change on 
water. Are you aware of these planned cutbacks in satellite data, and 
if so, how do you think it will affect ongoing science programs in this 
area?
    Answer. Yes, I am very aware of these issues. The American 
Association for the Advancement of Science felt strongly enough to 
issue a policy statement on this problem this year on April 28.
    There are likely two causes: (1) the mismanagement of the NPOESS 
satellite programs by NASA, NOAA and DOD; (2) the ill-conceived and 
focus on sending a human to Mars.
    I categorically state that this will impact climate science.
    The AAAS Statement is worth reading in its entirety, and I agree 
with it completely, but here are some selected extracts:

          The network of satellites upon which the United States and 
        the world have relied for indispensable observations of Earth 
        from space is in jeopardy. These observations are essential for 
        weather forecasting, hurricane warning, management of 
        agriculture and forestry, documenting and anticipating the 
        impacts of global climate change, and much more.
          Maintenance of an adequate constellation of Earth-observing 
        satellites and the instruments they carry is now threatened by 
        budget cuts and reallocations in the two federal agencies that 
        share the primary responsibility for them, the National 
        Aeronautics and Space Administration (NASA) and the National 
        Oceanic and Atmospheric Administration (NOAA).
          The situation is already causing harm, and it will become 
        rapidly worse unless the Congress and the Administration take 
        prompt action to reverse the recent trends.
          The new NRC report finds that [T]he United States' 
        extraordinary foundation of global observations is at great 
        risk. It also concludes that the sensors planned for the next 
        generation of U.S. Earth observing satellites are `generally 
        less capable' than their counterparts in the current, now 
        rapidly diminishing generation.
          These declines will result in major gaps in the continuity 
        and quality of the data gathered about the Earth from space.
          As noted in the new NRC study and elsewhere, this trend of 
        sharply diminished U.S. capacity in Earth observations from 
        space has been the result not only of tightening constraints on 
        NASA and NOAA budgets but also of an explicit redirection of 
        NASA's priorities away from Earth observation and toward 
        missions to the Moon and Mars. The goals in NASA's mission 
        statement formerly began with `To understand and protect our 
        home planet . . . ' Those words have now been replaced with 
        `Pioneering the future . . .'. The aim of better exploring the 
        moon and Mars has attractions, but we agree with the sentiment 
        expressed by the former chairman of the House Science 
        Committee, Representative Sherwood Boehlert (R-NY), who 
        observed at a hearing on this topic in April 2005 that `The 
        planet that has to matter most to us is the one we live on.'
          The result of the change in NASA priorities is that the funds 
        needed to sustain critical space-based observations are now 
        declining precipitously, even as the agency's total budget 
        grows. budgets and currently fall far short of U.S. needs The 
        NRC study offered detailed recommendations for restoring U.S. 
        capabilities in Earth observations from space to acceptable 
        levels, including:

                  <bullet> reconstituting specific key observation 
                capabilities that have recently been deleted from 
                scheduled NOAA satellite series;
                  <bullet> accelerating NASA's current launch schedule 
                to shrink the data gaps implied by current plans; and
                  <bullet> committing to the 17 highest-priority new 
                Earth-observation missions, out of more than 100 
                candidates evaluated for the 2010-2020 time period.

          The study concluded that its recommendations could be funded 
        until 2020 by returning the Earth-science budget at NASA to its 
        FY 1998-2000 level and stabilizing the budget of NOAA's 
        National Environmental Satellite Data, and Information Service 
        at only slightly above the FY2007 level, adjusted for 
        inflation. This is a blueprint for a program that will bring 
        immense returns for modest costs. The Congress and the 
        administration ought to implement it.
    Response of Bradley W. Udall to Questions From Senator Cantwell
    Question 1. In talking about predicted future changes, you 
discussed climate models being used by the IPCC, and that those models 
tended to agree that precipitation will likely increase in the north 
and decreases in the Southwest. Mr. Udall and Dr. Milly's testimony 
seem to be in sync with those conclusions. A recent story in USA Today, 
though, entitled ``Climate change models overstate droughts'', talks 
about a new study entitled ``How Much More Rain Will Global Warming 
Bring'', which finds that climate change will result in increased 
global rainfall which may be 3 times greater than currently predicted. 
The story concludes by stating that ``climate modelers are overstating 
how much rainfall will dry up in a warmer climate''.
    Are you familiar with this new study, and if so, does it have 
implications for the modeling results that you've all discussed today?
    Answer. I am familiar with this study and have had several 
discussions with scientists about it. Here's what I've discovered:

          1) Like all science, this article will take some time for 
        people to digest.
          2) The new 2007 IPCC WG1 Summary for Policy Makers says the 
        following about the observations for heavy precipitation and 
        droughts:

                  ``More intense and longer droughts have been observed 
                over wider areas since the 1970s, particularly in the 
                tropics and subtropics. Increased drying linked with 
                higher temperatures and decreased precipitation have 
                contributed to changes in drought. Changes in sea 
                surface temperatures (SST), wind patterns, and 
                decreased snowpack and snow cover have also been linked 
                to droughts. (3.3)''

        and

          The frequency of heavy precipitation events has increased 
        over most land areas, consistent with warming and observed 
        increases of atmospheric water vapour. (3.8, 3.9)
          Wentz's article focuses on heavy precipitation events and 
        barely discusses droughts. Theory predicts both heavier 
        precipitation and more drying due to atmospheric physics as the 
        planet warms. These two concepts, contrary to perception, are 
        tied together and one does not preclude the other. In fact, 
        they are related.

          3) There is a very short dataset associated with the article. 
        Data from only 20 years is frequently too short to be able to 
        detect and quantify trends. For example, the early satellite 
        temperature record showed very little tropospheric warming. 
        Today, we now know that the methods used to analyze that data 
        were in error, and after many discussions and publications, 
        science finally got it right.
          4) The science of more floods and more droughts' associated 
        with climate change is quite robust. It bothers me that the 
        authors did not cite what is one of the most important articles 
        on the topic, Kevin Trenberth's ``Changing Character of 
        Precipitation'' published in 2003 in the Bulletin of the 
        American Meteorological Society.
          5) The satellite data for the study only covers the oceans, 
        not continents. Continental data was assumed to be a constant.
          6) In summary, this was a study done with a short dataset, 
        looks only at oceans, focuses on precipitation and not 
        droughts, and seems to disagree with the most recent 
        observations on drought as reported by the IPCC. I suspect many 
        of these issues will be discussed in papers that respond to 
        this article.
          7) With regard to models, there is much work to be done on 
        many fronts. Please see my response below to Senator Salazar.

    Question 2. You discuss the need to produce information on a 
regional basis as opposed to a global scale, including the development 
of regional climate models. It's my understanding that a great deal of 
the projections currently being made are the result of ``downscaling'' 
global climate models to assess climate change impacts in specific 
regions.
    Udall--What is ``downscaling'' and is it the best way to evaluate 
trends in specific regions? Do we have the capability to develop 
region-specific climate models and, if so, will they be likely to 
produce better predictive results?
    Answer. The current generation of global circulation models 
operates with very large scale grid boxes--on the order of 200km per 
side. In areas of complex topography like mountains, these large grid 
boxes do not do a good job of simulating climate. In addition, some 
weather and climate processes operate on scales much smaller than 
200km, and these processes are, grossly speaking, estimated, rather 
than precisely calculated. These large grid boxes are due to computer 
limitations--in order to make the grid boxes half the current size and 
process data at the same rate, computers need to be 16 times faster. 
(one grid box turns into four grid boxes, the four boxes are then 
divided vertically making 8 grid boxes, and the model time step is cut 
in half meaning that 16 solutions are required where previously only 
one solution was needed.) As computer power increases following Moore's 
law, every 4 years we can halve the grid box size. In order to get grid 
boxes on the order of 25km, we need 3 halvings' or about 12 years.
    Until models get to much smaller grid boxes, the only way to get 
more accurate regional level information is to take the large scale 
output and downscale' it. There are 2 ways to do this: (1) find 
statistical relationships between the computer model and known 
historical conditions, and use those relationships to convert future 
model data into downscaled' data (``statistical downscaling''); and (2) 
use a regional computer model (or nested model') to take the large 
scale model and put it into a similar model but one with small grid 
boxes(``dynamical downscaling''). The statistical method is generally 
quite fast; the regional model is much slower.
    Both techniques have strengths and limitations: the statistical 
method can downscale output from many different computer models and 
even different runs of the same model with ease while the regional 
model is believed to be more representative of the actual physics at 
work and hence offers the opportunity for more realistic 
representations. The statistical technique is, however, constrained by 
the statistics of the past events while the dynamical technique is very 
slow.
    In answer to the question, we now have both of these capabilities. 
The statistical technique have been more widely used. We need to 
encourage groups doing statistical downscaling to do large parts of the 
country in addition to their particular region, and store the output in 
a common location. In the case of dynamical downscaling, these efforts 
are just beginning. The North American Regional Climate Change 
Assessment Program (NARCCAP) is such an effort. More needs to be done 
on the dynamical downscaling front.
    Question 3. You describe in your testimony a host of problems 
facing water managers in the Colorado River basin--for example--over-
consumption; population growth; and uncertainty as to the extent of 
legal entitlements.
    Do those issues dwarf the issues likely to be posed by climate 
change? Should our focus be primarily on better water management and 
increased efficiencies on the theory that improvements in these areas 
will also serve the water supply challenges posed by climate change?
    Answer. This is a great question. Yes, in the short term, we should 
certainly focus on these areas because better water management and 
increased efficiencies do offer some significant solutions for now that 
will carry over into the future climate change problems. With respect 
to planning for climate change on a longer term horizon, I believe we 
need to begin building capacity now in water management organizations 
to deal with the unique problems of climate change. This will take 
time--engineers, managers, boards of directors all need to learn about 
the state of the science, including the limitations, and begin to think 
about how to incorporate this knowledge into operations. I believe this 
will take several years, by which time I hope our regional modeling 
capabilities will improve such that we can begin to obtain future more 
reliable future projections, especially with respect to precipitation. 
Should the models not be available at this time, I still very much 
believe this effort will generate returns by having water providers 
begin to reanalyze their entire operations.
     Response of Bradley W. Udall to Questions From Senator Salazar
    Question 1. What studies do you believe would be most beneficial to 
understanding the potential impacts from global warming on water 
supplies?
    Answer. The more I talk to scientists, the more I think that the 
US's three computer modeling groups need to be directed to fix known 
problems in their general circulation models before introducing new 
complexity. This may or may not require additional resources. When 
upgrading and enhancing these models it is too easy to direct new 
effort into increasing model complexity, when more value could be 
obtained from doing model intercomparisons, identifying problems, and 
then fixing known issues. The draft report from the Climate Change 
Science Program for Synthesis and Assessment Product 3.1, Climate 
Models: An Assessments of Strengths and Limitations for User 
Applications, covers many of the known problems with these models. A 
good start would be to encourage these modeling groups to address known 
problems before adding new features.
    Question 2. Are the existing observation networks, e.g., for 
measuring streamflows, snowpacks, etc., adequate to understanding the 
observed impacts from global warming? Are there additional observation 
networks we should be putting in place?
    Answer. The networks are clearly not adequate. We are losing 
important streamgages with long periods of records regularly. USGS 
Cooperators and not happy with the high fees being charged by the USGS 
to handle data collected by the cooperators, and as such are not 
willing to pay for their portion of the co-op station. Meta data, that 
is the data that describes the particulars of real data, is frequently 
non-existent. I had a discussion with a high level person in the NRCS 
recently about the meta-data associated with SNOTEL and he was very 
concerned about the quality of the data. Without the metadata it is 
difficult to obtain accurate studies on snow trends. This is a resource 
question. Very little is known about soil moisture because the soil 
moisture network is so sparse. Additional sites are needed. It would be 
very interesting to have the NRCS, USGS and NWS provide a joint report 
on how these networks could be improved in a cost-effective manner to 
provide reliable data for water management and research. Encouraging 
these entities from three different federal agencies to work together 
could potentially identify interesting synergies. All of these networks 
need sets of stations that are relatively clean' of aberrations so that 
long-term trends can be deduced. While the USGS and NWS supposedly have 
these data sets, many scientists complain that these sets have 
significant problems that hinder long term trend analysis.
                                 ______
                                 
      Response of Jack Williams to Questions From Senator Cantwell
    Question 1. You cite to several studies predicting broad declines 
in trout and salmon populations as a result of climate change. You also 
mention a range of impacts that will likely occur--from reduced 
streamflows to changes in insect hatches.
    In the studies predicting broad declines, is there any consensus on 
what factor, in particular, will negatively affect coldwater fisheries? 
Is it reduced streamflows, warmer temperatures, changed timing in 
streamflows or some other specific impact?
    Answer. We do not believe there is any consensus regarding a single 
factor that would primarily be responsible for predicted declines. 
However, we believe that the following two factors will be the most 
influential in predicted declines of trout, char and salmon.

  <bullet> Reduced streamflows as a result of reduced snowpack, earlier 
        runoff, drought and increased evaporation rates.
  <bullet> Increased flooding as a result of more intense and frequent 
        storm events, and resulting impacts from flood-control 
        activities such as dam construction and stream channelization.

    Of course, the causal factors are complex and often synergistic. 
For example, drought may reduce streamflows but is also likely to cause 
more frequent and larger wildfires.
    We also are very concerned about potential impacts of well-meaning 
but ill-advised attempts exert more artificial control on streamflows, 
floods and drought. Dams, for example, may appear a tempting way to 
address water supply shortages but have been shown to cause negative 
impacts downstream and actually increase risk of larger flood events as 
dam capacities are exceeded or reservoir capacity is used for other 
purposes besides flood control. We encourage measures that improve the 
long-term health of our watersheds rather than quick fixes.
    Question 2. In recommending strategies to increase the resilience 
of fisheries to Climate Change, you talk about the need to protect 
remaining core habitat areas, as well as the need to expand the range 
currently available through habitat restoration projects.
    Is there any coordinated set of federal programs to address the 
habitat protection and restoration activities that you envision? It 
seems that most of the activities that I'm aware of on the federal 
level are ESA-driven. Is that indeed the case, and if so, will that be 
too late if the impacts of climate change are rapidly accelerating?
    Answer. I do not believe that there is a coordinated federal effort 
to address the habitat protection and restoration activities that we 
envision. However, there are several important pieces at the federal 
level, which if adequately funded and coordinated, could achieve the 
desired result. For example, the Western Native Trout Initiative is an 
effort of the U.S. Fish and Wildlife Service in cooperation with other 
federal and state agencies and non-governmental organizations, to 
develop a multi-species approach to conservation of coldwater fish 
habitats. TU will be encouraging adoption of a climate-driven 
contingency plan to protect aquatic diversity at their next meeting in 
Phoenix, Arizona.
    Of course, much of the restoration work must take place on private 
lands. The Farm Bill provides $4 billion annually to help pay for 
conservation and restoration efforts on private lands, including water 
conservation and riparian and stream habitat restoration. The Farm Bill 
programs, administered by the Natural Resources Conservation Service, 
can help pay for activities to help avoid ESA listings or recover 
species so that they can be taken off of the list.
    We are concerned that if preventative action is not taken soon to 
improve the condition of our fisheries that additional species will 
require ESA protection. The ESA would likely improve protections for 
important fish species but its provisions would be invoked only after 
substantial declines occurred.

      Response of Jack Williams to Questions From Senator Salazar
    Question 1. Are the existing reservoir storage capacities capable 
of handling the early snowpack melts?
    Answer. We believe that changes in dam operation have limited 
ability to offset water supply changes anticipated by climate change. 
Most existing reservoirs are located far downstream of mountain areas 
that will be most influenced by changes in snowpacks. Many existing 
dams are multipurpose facilities that could not handle significant 
additional storage needs.
    We also are concerned about attempts to build new dams to offset 
climate impacts. Steep, mountainous terrain most affected by snowpack 
changes offers few good dam sites. Any new dams constructed in such 
areas would cause significant disruption to stream systems and aquatic 
biodiversity.
    Question 2. What are the best options you believe are available to 
adapt to global warming impacts on water supplies in the West?
    Answer. We believe that there are a number of conservation actions 
that could readily be taken to reduce demand for water supplies. In 
particular, numerous efficiencies could occur through improved 
irrigation practices, such as replacing flood irrigation with 
sprinklers, restricting sprinklers to morning and evening hours when 
evaporation is less, and installing drip irrigation where feasible.
    Improving the condition of our riparian areas and watersheds will 
improve the natural storage capacity of our lands, mitigate impacts of 
floods and drought, and insure that runoff is metered out throughout as 
much of the year as possible.
    Question 3. Have conservation efforts been effective in reducing 
water demand or have increases in population in the West negated the 
savings from conservation?
    Answer. While conservation efforts have been effective in reducing 
water demands, their overall influence on water supplies is seldom 
realized because of increasing population growth, particularly in 
larger urban centers in the West. Nonetheless, we believe that water 
conservation efforts, in municipal, agricultural, and industrial areas, 
should be a critical part of our response to climate change. We also 
believe that restoration of our watersheds will improve their natural 
storage ability and metered delivery of runoff throughout the year. 
Restoration efforts also should be a critical part of our response to 
climate change.
    Question 4. Do you believe that climate change impacts on water 
supplies will have to be considered when making commitments about 
future water deliveries?
    Answer. We believe that changes in water supplies that are 
predicted from a changing environment should be considered when making 
future commitments for water delivery. Already throughout the West, we 
have many river and groundwater systems that are over allocated, which 
causes protracted legal disputes, disrupted streamflows, and loss of 
fisheries.
                                 ______
                                 
     Response of Tim Culbertson to Questions From Senator Cantwell
    Question 1a. Your testimony talks about the additional stress and 
competition that climate change will bring about for limited water 
resources--a point reiterated by the testimony of other panelists. You 
also mention the opportunities that exist for additional hydropower 
development in the U.S.
    In the face of the potential new conflicts that climate change may 
cause in the competition for limited water resources, do you think it 
will be possible to move forward and develop the hydropower potential 
that you discuss in your testimony?
    Answer. Yes, we do believe that the projected growth opportunity 
for hydropower can be realized despite the fact that some areas of the 
country will experience additional water constraints. The estimates of 
new hydropower generation are conservative. Additionally coal, nuclear 
and natural gas facilities also consume fairly large quantities of 
water during the production of electrical energy and also have a stake 
in the use of our water resources.
    Some existing hydropower facilities will lose a portion of their 
current output due to shrinking snow pack, etc., while other regions 
will experience an increase in rainfall or snow pack. Projections are 
showing that the issue will be more of a transfer of water availability 
from particular regions to perhaps another area of the country, or a 
significant change in the timing of the water availability and the form 
in which it is received. Rather than melting snows, some rivers will be 
fed by significant rains. These rains may, or may not, arrive in 
spring. As a result, the issue becomes one of managing the water 
received, the timing of that receipt, and addressing the form (rain 
versus snow), rather than an issue of no or too little water.
    As a result, we believe that new strategies will be developed to 
address the water management issue. These strategies will address the 
form in which the water is received and the timing to ensure that 
enough water is available for the many competing interests and uses. 
This may require the building of additional water storage facilities on 
which hydropower could be built. In addition, it is especially 
important to develop new hydropower potential at existing dams that are 
currently without generation facilities. It is simply good public 
policy to ensure that our Nation's infrastructure, whether newly 
planned or existing, provides the greatest societal benefit to the 
consumer. Otherwise, the overall value of hydropower relative to other, 
more GHG-producing resources will not be fully realized.
    Another important strategy to address these impacts is increased 
research and development funding. As important as this research is, the 
Department of Energy has not funded a hydropower R&D program to any 
large degree. In fact, over the last two years the administration has 
not proposed any funding at all. A robust DOE R&D program, as is under 
consideration for FY 2008, would support: resource assessments for both 
conventional hydropower and new waterpower technologies, such as ocean, 
tidal and instream resources; environmental impact studies; RD&D for 
advanced technologies; and importantly, new turbine designs.
    New turbines, in particular, could address the timing issue with 
variable speed designs and other improvements that result in greater 
efficiencies. Underfunding research is shortsighted given the need to 
design and deploy turbines that can produce the same amount of energy 
with variable water supply. The National Hydropower Association calls 
on Congress to consider the important need for a reinvestment in 
hydropower to help prepare for the effects of climate change.
    Question 1b. Of all the impacts to water supply discussed in the 
hearing, what is the most troubling to the hydropower industry? Is it 
the change in timing of streamflows, the potential overall reduction in 
water supply or some other factor?
    Answer. Both the timing question and the supply are equally 
important concerns. Some regions may be troubled more on the timing 
issue depending on their ability to store water. Not all facilities 
have storage capability, and many industry members are constrained by 
FERC license requirements as to the amount of water they can store. 
What will be important to future planning will be a willingness to be 
flexible and provide the appropriate tools for industry to address the 
issue. More flexibility on the part of FERC and the resource agencies 
to store additional water or change release schedules could be 
something for future consideration, but it is too early as yet to 
determine exactly what tools will be necessary and under what 
circumstances they might be needed. We believe that it will require the 
cooperation of FERC, industry, the resource agencies and the 
stakeholders to work through the issues presented by the storage 
question.
    Question 1c. Will the ultimate impacts likely be different in 
different river basins? For example, will it depend on the amount of 
reservoir storage capacity that's available relative to the overall 
streamflow?
    Answer. Yes, as indicated in the response to the earlier question, 
regions of the country will be affected differently. Some areas already 
rely on spring rains, rather than large mountain snow packs and are 
well equipped to store water, timing releases over the drier summer 
months. Other regions have relied heavily on a consistent melting snow 
pack to feed rivers over the drier summer periods.
    Not all regions have studied the projected impacts climate might 
have on their water supply issues. The Northwest, California and some 
of the other western states have just recently begun to look into the 
issue. Well versed in the scarcity of water issues, western states have 
begun to understand the importance of the issue and, as a result, are 
working to develop a plan of action. While eastern states have 
experienced localized periodic droughts over the years, these regions 
of the country have generally been blessed with an abundant water 
supply system. Just the same, most industry members, despite their 
regional location, have addressed water management issues in the past 
and have the ability to plan for the future. The question is more one 
of providing the support to industry and the sharing of information 
from national, state and regional perspectives, as industry works to 
address climate change's affect on water management issues. This 
support should be in the form of information sharing, regulatory 
cooperation and financial support of research and development.
                                 ______
                                 
      Response of Tim Culbertson to Questions From Senator Salazar
    Question 1. Are the existing reservoir storage capacities capable 
of handling the early snowpack melts?
    Answer. The short answer regarding storage capacities is that some 
reservoirs are equipped, while others may not be capable to store large 
additional supplies of water. This is a site specific issue and depends 
on the original design and plan for the storage facility, the FERC 
license terms and conditions, and how projects are managed on the same 
river or within the same river basin.
    Some facilities will be engineered to handle the additional water, 
but may be constrained from a FERC license or a regional management 
perspective to hold the additional water. Projects may have a FERC 
license that requires that no water be stored, forcing the owner to 
operate the project as run-of-river. Under such a scenario, all the 
water will be required to be passed down the river system. Run-of-river 
operations are more of a trend under relicensing over the last five 
years as the preferred operation mode by many of the stakeholders 
engaged in the relicensing process. As such, the region could be 
subject to energy shortages when rains end and no additional rains are 
received during the hot summer months because the backup battery--the 
storage facility--has been eliminated. With no snow pack constantly 
feeding the river over these drier months, energy shortages could 
occur.
    Industry has the knowledge and the engineering ability to address 
these issues. However, it will require cooperation, support of R&D, and 
regulatory flexibility to address the problem and provide the tools to 
successfully manage the water resource.
    Continuing to provide support for research and the development of 
new turbines that allow for greater water efficiencies and variable 
speeds will be an important and critical step forward. Variable speed 
turbines that allow industry to address a more flexible water resource 
will be key to maintaining energy supply under the uncertainties 
presented by climate. Congress needs to support a hydropower research 
and development program within the DOE well beyond its current strategy 
of providing little to no funding. Significant new dollars should be 
invested in this program to ensure that industry has the tools 
necessary to address the climate issue and climate's affect on water 
supply.
    Question 2. What are the best options you believe are available to 
adapt to global warming impacts on water supplies in the West?
    Answer. First, we need to continue to study and plan for impact. 
Federal support should be provided for cooperative efforts to prepare 
for the impact on water supply. Second, the issue may very well drive 
states to reconsider new water supply storage facilities; the addition 
of clean, climate friendly hydropower should be considered to maximize 
the full benefit of these facilities should the states proceed with 
such a plan; 3) development of new clean, non or low emitting 
generation should be pursued to lower the carbon emissions and reduce 
the threat of global warming; this will include the development of 
ocean, tidal and hydrokinetic or damless waterpower technologies; 4) 
most important, a reinvestment in research and development, with a 
particular emphasis on turbine efficiencies and variable speed designs, 
will provide the necessary hardware tools to address the problem; 5) 
cooperation and sharing of information between the levels of government 
and industry regarding impacts and operation best practices would be 
extremely helpful; and finally 6) regulatory flexibility that would 
permit the issue of climate's impact to be considered regarding 
operation terms under existing licenses and inclusion of this equation 
as new licenses or relicensings are considered would be an important 
step forward.
    Question 3. Have conservation efforts been effective in reducing 
water demand or have increases in population in the West negated the 
savings from conservation?
    Answer. Increases in population will always affect water planning 
strategies, including conservation. Despite this issue, many regions 
have found water conservation programs effective. The question is not 
so much whether conservation works in the context of growth, but 
whether regional cooperation exists within a river basin to ensure the 
effectiveness of the program.
    Question 4. Do you believe that climate change impacts on water 
supplies will have to be considered when making commitments about 
future water deliveries?
    Answer. While most hydropower projects do not ``deliver'' water, 
the issue of water availability for all of the competing interests is 
of great concern to the hydropower industry. The terms under which a 
hydropower plant must operate are set in the license agreement. These 
agreements set flows and timing of releases as well as the amount of 
water that can be held back in a reservoir.
    Obviously, climate considerations should become an issue that is 
addressed as the license terms are set since water availability could 
change over the term of the license, which generally last for 30-50 
years. With some regulatory flexibility built in to the license, 
operators would be able to plan for and address climate change's impact 
on water availability. All stakeholders should understand that need and 
expectations for water allocations should be governed with a 
willingness to remain flexible in future or out years.
    Despite the need for flexibility and the anticipated effect climate 
change will have on water availability, with proper planning and 
support, the hydropower industry will be able to address these impacts. 
At the same time, it is critical that the federal government move 
forward in addressing the climate change issue. One important strategy 
that must be considered as part of this national campaign is the 
nation's hydropower system which sits, along with its sister renewable 
technologies, as our best hope for the future. Yet, too often, 
hydropower is not recognized for the role it could play and is left out 
of incentive plans to spur growth.
    As mentioned, hydropower is primed for significant growth in the 
areas of both conventional hydropower and new technologies. A new 
Electric Power Research Institute report has found that 23,000 MW of 
growth potential could be developed by 2025 utilizing conventional 
hydropower and new ocean, tidal and instream hydrokinetic technologies. 
This potential will require that hydropower receive the same incentives 
currently provided wind, solar, geothermal and biomass.
    Long term extension of the production tax credit, credit parity 
with the other renewables, recognition of new technologies under the 
eligibility definition within the PTC and modifications on the statute 
addressing eligibility of non-powered dams for consideration under the 
credit are all key policy changes that should be part of our plan to 
address climate change. In addition, a federal renewable portfolio 
standard should consider new technologies and non-powered dams as 
eligible renewable resources. By taking these simple acts, Congress 
could be adding substantially to our clean energy portfolio and reduce 
the nation's reliance on carbon producing generation. We urge Congress 
to give greater consideration to hydropower as part of its national 
plan to reduce our carbon footprint and lessen the impact of climate 
change on our planet.
    NHA once again expresses its appreciation to the Committee for the 
opportunity to testify at the June 6 hearing and to demonstrate 
hydropower's growth potential and role as part of the solution to 
climate change. If there are any further questions regarding NHA's 
testimony or these questions, please feel free to contact us.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

        Statement of Dan Geary, Nevada Representative, National 
                          Environmental Trust
    We appreciate the opportunity to submit testimony regarding impacts 
of climate change on water supply and availability in the United 
States, and related issues from a water use perspective. The National 
Environmental Trust is a non-profit, non-partisan organization 
established to inform citizens about environmental problems and how 
they affect our health and quality of life.
    Few issues have as dramatic an impact on our communities in Nevada 
than the urgent concern of global warming and a changing climate.It is 
no secret that water is the lifeblood of the American West. A frequent 
expression used to describe water and the West is the old phrase 
attributed to Mark Twain, ``Whiskey is for drinking, water is for 
fighting over.''
    Nevada's communities are completely dependent on the rivers and 
natural aquifers of the West. Booming Clark County, which contains 
metropolitan Las Vegas, receives its water from the Colorado River, 
with our primary reservoir stored behind Hoover Dam in one of the 
largest man-made lakes in the world. The Colorado River Compact is the 
instrument by which the waters of the Colorado River basin are 
distributed to all of the upper and lower basin states. The Colorado 
River is fragile and stretched to the breaking point. Although it once 
stretched to the Pacific Ocean from its headwaters in Colorado, the 
river now ends in an empty riverbed miles east of its natural terminus 
in Baja, Mexico. Nevada's northern counties, along with much of 
California, are dependent upon the snowpack contained in the mighty 
Sierra Nevada Mountains. Nevada's own jewel, Lake Tahoe, is entirely 
fed by the snowpack of the Sierras.
    The tale of the American West is a tale of coping with scarcity. 
The harsh reality is that water in the West is not only scarce; it is 
scarcest where and when it is most needed. Much of policymaking for 
western states is driven by this scarcity and the use of water, whether 
in cities or on farms and ranches. Most of the West's precipitation 
falls in the mountains. When air rises to pass over mountains, its 
moisture is forced out as precipitation. Man could not have devised a 
more efficient water storage and distribution system than the natural 
connection between snowpack in the mountains and the distribution 
system of the West's rivers. The cycle of winter snowfall and spring 
runoff provides nearly three-quarters of the West's water.
    Through extensive engineering along the arid Colorado River basin, 
we can hold four times the river's annual flow, and pipelines deliver 
the water where it is needed, including my home of southern Nevada. 
Water from the Colorado River is also diverted under the Continental 
Divide and through an aqueduct across the California desert to meet the 
needs of cities and farms and ranches at the edge of the Great Plains. 
Even with these marvels of engineering, the largest reservoir of water 
is the annual snowpack, which delays the runoff until spring, 
delivering water where and, most importantly, when it is needed most.
    That human activities are already changing the nature of water in 
the West is well documented. Regional snowpack, which acts as a natural 
reservoir system that stores water until needed, has been shrinking in 
recent years and releasing fresh water earlier than usual. There is a 
growing body of evidence documenting these changes, including the 
following specific findings:

  <bullet> Higher temperatures: Increases in annual temperatures have 
        been greater in the West than in other regions of the 
        contiguous states, according to National Weather Service 
        Data.\1\
---------------------------------------------------------------------------
    \1\ Climate Prediction Center, National Weather Service, National 
Oceanic and Atmospheric Administration, U.S. Temperature and 
Precipitation Trends: Annual, <www.cpc.ncep.noaa.gov/anltrend.gif>.
---------------------------------------------------------------------------
  <bullet> Less snow, more rain: Since 1949, less winter precipitation 
        is falling as snow and more as rain, according to a 2006 
        analysis of National Climatic Data Center records from 200 
        western mountain weather stations.\2\
---------------------------------------------------------------------------
    \2\ N. Knowles, M. D. Dettinger, and D. R. Cayan, ``Trends in 
Snowfall versus Rainfall for the Western United States, 1949-2004,'' 
Journal of Climate, September 2006
---------------------------------------------------------------------------
  <bullet> Less snowpack: Most snowpack levels are declining, according 
        to an exhaustive analysis of 824 western snowpack-measurement 
        records spanning the period 1950 to 1997.\3\
---------------------------------------------------------------------------
    \3\ P. W. Mote, A. F. Hamlet, M. P. Clark, and D. P. Lettenmaier, 
``Declining Mountain Snowpack in Western North America,'' Bulletin of 
the American Meteorological Society 86(2005): 39-49.
---------------------------------------------------------------------------
  <bullet> Earlier snow melt: Snowpacks are now melting earlier in the 
        year. For a majority of 279 snowmelt-dominated western rivers 
        and streams, the timing of peak flows advanced over the period 
        1948 to 2000, with the peaks coming 10 to 30 days earlier.\4\
---------------------------------------------------------------------------
    \4\ I. T. Stewart, D. R. Cayan, and M. D. Dettinger, ``Changes in 
Snowmelt Runoff Timing in Western North America Under a `Business as 
Usual' Climate Change Scenario,'' Climatic Change 62(2004): 217-232.

    Unfortunately, western states can look forward to a continuation of 
this trend. As one expert testified before Congress in 2004, ``losses 
in the West's total April 1 snowpack are likely to exceed 40% by the 
2050s.''\5\
---------------------------------------------------------------------------
    \5\ The West's Snow Resources in a Changing Climate, Testimony 
before the U.S. Senate Committee on Commerce, Science, and 
Transportation, May 6, 2004, Philip W. Mote, PhD, Joint Institute for 
the Study of the Atmosphere and Ocean Climate Impacts Group, University 
of Washington. <www-jisao.atmos.washington.edu/cig/outreach/
presentfiles/Mote--SenateTestimony--050604.pdf>.
---------------------------------------------------------------------------
    The Intergovernmental Panel on Climate Change (IPCC) found in its 
2007 report on the current and projected impacts of global warming 
that: ``Climate change is very likely to constrain North America's 
already intensively utilized water resources, interacting with other 
stresses.'' The panel found that ``projected warming in the western 
mountains by the mid 21st century is very likely to cause large 
decreases in snowpack, earlier snowmelt, more winter rain events, 
increased peak winter flows and flooding, and reduced summer flows.'' 
Coupled with increases in demand, climate-driven water scarcity is 
likely to complicate management of heavily utilized water resources.
    In some cases, the panel's projections are quite stark. For 
example, the IPCC states: ``In the case of the Sacramento-Joaquin River 
and the Colorado River basins in the western USA  . . . streamflow 
changes . . . are so strong that beyond 2020, not all the present-day 
water demands (including environmental targets) could be fulfilled even 
with an adapted reservoir management.''\6\
---------------------------------------------------------------------------
    \6\ Barnett, Malone, Pennell et al. cited by Intergovernmental 
Panel on Climate Change, ``Chapter 3: Technical Summary,'' Working 
Group II: Impacts, Adaptation and Vulnerability, Fourth Assessment 
Report, 2007, <http://www.ipcc-wg2.org/index.html>.
---------------------------------------------------------------------------
    Many circumstances are responsible for the complexity of water 
concerns throughout the United States, and particularly in the West. 
Some of these are within our control and some are not. Two that are in 
our control are diminished water availability due to global warming and 
increased water consumption due to the energy choices we make. It will 
be more important than ever to consider how choices about climate and 
energy will affect future economic growth, agriculture, wildlife, and 
recreation.
                            national action
    The United States can produce substantial, near-term reductions in 
domestic greenhouse gas emissions. An effective near-term climate 
policy would:

  <bullet> Enact comprehensive emissions reduction requirements that 
        include a carbon cap,
  <bullet> Enact simple-to-implement policies to expand production of 
        electricity from renewable sources,
  <bullet> Adopt a stronger federal fuel economy standard to improve 
        light-vehicle fuel efficiency, and
  <bullet> Aggressively implement existing federal authority to set 
        equipment and build energy efficiency standards and codes.

    In addition, the United States should begin to lay the groundwork 
for much deeper reductions in global warming emissions. These actions 
should include:

  <bullet> Replacing the highest emitting sources with cleaner sources, 
        such as renewable energy or advanced fossil energy systems with 
        low or no greenhouse gas emissions,
  <bullet> Researching and developing technologies that permanently 
        capture and sequester carbon from commercial fossil-fueled 
        energy sources,
  <bullet> Developing action plans for significantly reducing several 
        non-carbon dioxide greenhouse emissions or concentrations 
        (methane and ozone formation), along with emissions of black-
        carbon aerosols, and
  <bullet> Reengaging in the international dialogue to effectively 
        construct an international policy to address climate change 
        worldwide.
                                 ______
                                 
         Statement of the Pacific Northwest National Laboratory
    Using a unique approach to model climate and hydrologic processes 
and their linkages, scientists and engineers at the Pacific Northwest 
National Laboratory have been investigating the impacts of climate 
change on water resources in mountain watersheds and river basins for 
over a decade. These investigations have been in support of missions 
for multiple federal agencies including Department of Energy, NOAA, 
NASA, and EPA.
    Early studies at Pacific Northwest National Laboratory focused 
primarily on assessing cumulative impacts of climate change. Since the 
mid-1990's, however, our focus has increasingly been on developing 
approaches to adaptive response to climate change. Since water 
resources are one of the primary sectors directly impacted by climate 
change, adaptive water resources management has long been a focus.
    Climate change will affect water resources. Water resources are 
critical to nearly every aspect of human endeavor. The impacts of 
climate change on goods and services that directly or indirectly rely 
on water propagate in ways that our understanding can only allow us to 
crudely postulate. While water is generally a regional resource, many 
of the goods and services water provides are global. For example, 
hydropower generated by rivers in the Northwest provides electrical 
power to the nation through the power grid, and numerous irrigated 
crops grown in eastern Washington State are exported worldwide.
    Over the past century the nation has made vast investments in the 
water related infrastructure such as dams, canals, groundwater wells 
that is specifically required to mitigate the impacts of seasonal 
patterns and inter-annual variability of water supply and water demand. 
Reservoirs help mitigate the impacts of drought and flood. Water law 
provides a framework to prioritize the allocation of water in periods 
of drought. This existing infrastructure provides a capacity for some 
degree of adaptation to changes in climate.
    While climate models forecast only minor changes in the average 
quantity of precipitation in the Pacific Northwest, scientists at PNNL 
predict significant changes in the seasonal patterns of water 
availability. This change is due to the shift toward increasing 
fraction of precipitation occurring as rainfall than as snow as the 
climate continues to warm in the future following the observed trend 
over the past half century due to the buildup of greenhouse gases in 
the atmosphere. Historically, the snowpack in the Pacific Northwest 
represents the largest ``reservoir'' of freshwater in the region. 
Reduction of this virtual reservoir due to reduced mountain snowpack 
will management of already stressed water resources even more difficult
    A priority research need identified by scientists and engineers at 
Pacific Northwest National Laboratory is to significantly advance the 
methods that water mangers use to forecast and mitigate potential 
impacts of extreme events including catastrophic floods and sustained 
droughts. Our studies have suggested an increased likelihood of intense 
precipitation and winter floods in the Northwest, with the latter 
caused primarily by an increased frequency of rain-on-snow events. 
Water mangers must continuously balance the need to draft reservoirs to 
provide adequate storage for flood protection against maximizing water 
storage to mitigate drought impacts. It will be important for 
scientists to advance and validate their methods to simulate the 
observed frequency and intensity of extreme events and predict how they 
will shift in the future, and for water managers to assess adaptation 
approaches to manage the extremes under the climate-changed regimes.
    Another area that Pacific Northwest National Laboratory is 
currently investigating to help mitigate climate change impacts is 
improved conjunctive management of groundwater and surface water. Many 
regions overlie groundwater reservoirs that can be utilized to provide 
reliable backup water supplies during drought. Climate change may alter 
the rates at which these subsurface reservoirs are recharged. For 
example, in a warmer climate, reduced subsurface discharge would likely 
result from more precipitation falling as rain rather than snow, 
favoring surface runoff over subsurface recharge and higher evaporation 
from the surface during summer. Withdrawing from the subsurface 
reservoirs in excess of the recharge rate will cause potentially non-
renewable water table decline and a variety of associated adverse 
impacts. The conjunctive use of surface water and groundwater must be 
assessed in the larger context of climate change, its impacts on water 
and the ecosystems, and water use.
    Meeting these challenges within individual states, regions, and 
across regions will require increasingly sophisticated and integrated 
modeling and analysis tools to understand complex earth system 
processes at a variety of spatial and temporal scales and to model the 
potential outcomes of various management alternatives. Further, we will 
need to integrate these new tools into a decision framework that will 
harness the most comprehensive data sets and advanced earth systems 
models related to regional climate, hydrology, and demand analysis, and 
will translate our improved understanding of the system into more 
efficient and sustainable water resource, ecosystem, and economic 
operations and practices.
                                 ______
                                 
                Statement of Western Resource Advocates
                               background
    In the western United States the availability and development of 
water resources has shaped the pattern of human settlement. So 
important is water in these arid lands of the west that inscribed in 
the rotunda of the Colorado State Capitol is the saying ``Here is a 
land where life is written in water.''\1\ The ability of mankind to 
survive where rainfall is infrequent and evaporation rates high is 
wholly dependent upon the availability of water and we have produced 
enormous dams and water conveyance structures to bring water to mines, 
farms, and metropolitan areas.
---------------------------------------------------------------------------
    \1\ The Honorable J. Steven Griles, Deputy Secretary of the 
Interior, Address to the Colorado River Water Users Association, Las 
Vegas, NV, December 17, 2004.
---------------------------------------------------------------------------
    But our manipulation of western waterways has not come without 
consequence. Over the past 150 years we have seen ecosystems dry up and 
many native species die as the water that once supported them has been 
diverted for urban, industrial, and agricultural needs.
    Our ability to conquer and harness the energy of natural resources 
is unparalleled. However, these actions have also had dramatic 
increases in combustion of fossil fuels. Emissions from this combustion 
have been found to alter the chemical composition of Earth's atmosphere 
and unabated continued production will bring changes in the global 
climate, influencing temperatures and precipitation patterns.
    Human influenced climate change will have a tremendous impact on 
water resources. Experts agree that we are at the dawn of a new era in 
which greater and more frequent fluctuations in water availability will 
exist.\2\ Due to heavy human reliance upon water in the western United 
States, it is critical that westerners prepare for the changes that may 
come and adopt management strategies to decrease per capita energy and 
water use.
---------------------------------------------------------------------------
    \2\ US Environmental Protection Agency, ``Clean Water After Climate 
Change, Inside the Greenhouse,'' Global Warming Web Page, Fall 2001, 
Available at: http://www.epa.gov/globalwanning/
greenhouseigreeenhouse15/water.html.
---------------------------------------------------------------------------
                 climate change & the greenhouse effect
    Since the industrial revolution, humans have been using fossil 
fuels in large quantities to heat homes, fuel vehicles, produce 
electricity and manufacture goods.\3\ The burning of carbon based 
fuels, such as oil and coal releases a large amount of carbon dioxide 
and other greenhouse gases into the atmosphere. Once in the atmosphere 
these gases act alongside their naturally occurring counterparts 
trapping and reradiating heat back to the surface of the earth. The 
increase of trace greenhouse gases in the atmosphere causes more heat 
than would naturally be trapped to remain in the atmosphere; this 
phenomenon is known as global warming or climate change.\4\ The balance 
between retaining and releasing heat is delicate and even the slightest 
alterations can have monumental impacts.
---------------------------------------------------------------------------
    \3\ Ibid.
    \4\ McKinney, Michael L. Environmental Science: Systems and 
Solutions, 3rd Ed. Jones and Bartlett. Sudbury, MA. 2003. 419
---------------------------------------------------------------------------
    One impact of climate change that is of particular concern is the 
impact on water resources and how people living in the Western United 
States need to modify behavior and re-structure their management 
approaches to dramatically change how water is used.
                      precipitation & stream flow
    Studies have shown that even a slight 1.7 degree Celsius increase 
in temperatures alone could result in an 18 percent decrease in annual 
runoff within the Colorado River Basin, one of the primary water 
arteries of the west.\5\ \6\ Should precipitation also decrease, the 
annual run off could be reduced anywhere between 14-44%.\7\ Moreover, 
the storage capacity of the river could drastically decrease due to 
increased evaporation, potentially reducing the reservoirs by 40 
percent in the next 50 years.\8\
---------------------------------------------------------------------------
    \5\  Christensen, N.S., et al., ``Effects of Climate Change on the 
Hydrology and Water Resources of the Colorado River Basin,'' 347, 350.
    \6\ Ibid, 350.
    \7\ Nash, ``The Implications of Climatic Change for the Stream Flow 
and Water Supply in the Colorado Basin, ``171.
    \8\ Christensen, ``Effects of Climate Change on the Hydrology and 
Water Resources of the Colorado River Basin,'' 348.
---------------------------------------------------------------------------
    Impacts such as this are not isolated to the Colorado River but are 
real concerns for all rivers throughout the Western United States. A 
recent Intergovernmental Panel on Climate Change Report projected that 
average annual runoff from rivers and the availability of water would 
``decrease by 10-30% over some dry regions and mid latitudes'' by the 
middle of this century.\9\ Another report stated that ``Reduction in 
snow pack will very likely alter the timing and amount of water 
supplies, potentially exacerbating water shortages and conflicts, 
particularly throughout the western US.''\10\
---------------------------------------------------------------------------
    \9\ Intergovernmental Panel on Climate Change, Impacts, Adaptation, 
Vulnerability Summary for Policy Makers, Working Group II Contribution 
to the Intergovernmental Panel on Climate Change, Fourth Assessment 
Report. 2007.
    \10\ Jerry Melillo et al. Climate Change Impacts on the United 
States: The Potential Consequences of Climate Variability and Change.
---------------------------------------------------------------------------
    Increased temperatures in the western United States are likely to 
lead to changes in precipitation patterns that could have great impacts 
on residents. It is predicted that as temperature increases, more 
precipitation will fall in the form of rain rather than snow in higher 
altitudes of the West. This will result in a decline of the alpine snow 
pack that feeds many of the major western rivers. The soils of this 
semi-arid region are not able to absorb large amounts of water rapidly; 
therefore, increased rain may also lead to an increase in large-scale 
floods.
    In the West precipitation type has a close relationship to runoff. 
Many major river systems throughout the west are heavily reliant upon 
snowmelt runoff; in fact in the Colorado River basin, 70% of runoff 
comes from melting snow pack,\11\ which in turn feeds the basin during 
the arid summer months.\12\
---------------------------------------------------------------------------
    \11\ Kenneth M. Strepek, David N. Yates. ``Assessing the Effects of 
Climate Change on the Water Resources of the Western United States,'' 
Water and Climate in the Western United States, 2003, 102.
    \12\ ibid, 102.
---------------------------------------------------------------------------
    Moreover, a change in the type of precipitation falling, such as 
increased rain to snow ratio,\13\ would alter the hydrograph of rivers, 
shifting when water is available for use. This is also problematic in 
that water rights are currently issued based on the flow of the river 
over a specified time. If the timing of river flow were to change 
dramatically with an increase in winter runoff and a decrease in summer 
runoff, it could lead to less water being available for junior water 
right holders, even if the overall annual runoff remains the same.\14\ 
Additionally, many of the flows that benefit the environment fail to 
have any water rights at all. As a result, many flows that benefit fish 
species, the aquatic environment, and recreation, will be the first to 
be affected as flows decrease.
---------------------------------------------------------------------------
    \13\ Ibid, 340.
    \14\ Strepek, ``Assessing the Effects of Climate Change on the 
Water Resources of the Western United States,'' 102.
---------------------------------------------------------------------------
    Increased temperatures will also result in higher rates of 
evaporation in rivers, lakes, reservoirs and soils. Increased 
evaporation will lead to reduced stream flow and runoff, which will 
carry serious implications for river basins and those species dependent 
upon their resources.\15\ Cold water fish such as trout and salmon are 
especially vulnerable as they will be unable to survive in streams with 
high temperatures. The endangerment of these species could have a 
spiraling effect on other organisms within the river that would 
otherwise not be as impacted by changes in water temperature. 
Additionally, increased temperature will lead to increased levels of 
salinity within western rivers.\16\ This will not only impact aquatic 
species ability to survive but it may also lead to treaty violations 
between the United States and Mexico.
---------------------------------------------------------------------------
    \15\ Christensen, ``Effects of Climate Change on the Hydrology and 
Water Resources of the Colorado River Basin,'', 350
    \16\ Tim Barnett et al., ``The Effects of Climate Change on Water 
Resources in the West: Introduction and Overview,'' Climatic Change, 
62, 2004, 7
---------------------------------------------------------------------------
                           population growth
    Over the last fifteen years nearly all western states have seen 
dramatic population increases. For major cities like Las Vegas, Phoenix 
and Los Angles the major source of water is a single river--the 
Colorado. Since 1990 the population of Las Vegas, Phoenix and Los 
Angeles has increased a combined 228%. Las Vegas alone grew over 140%. 
In the last six years the population of the Southwest has increased by 
4,500,000 people an average increase of 14.15%.\17\
---------------------------------------------------------------------------
    \17\ U.S. Census Bureau, http://quickfacts,census.gov/
qfcliindex.html
---------------------------------------------------------------------------
    In addition to increased water demands as population soars, land 
use patterns are changing to accommodate homes for all these people. 
This can result in forests being heavily degraded. Deforestation for 
croplands as well as expanding cities will impact both water quality 
and supply. It has been found that forests play a critical role in 
precipitation patterns and that sudden loss of forested land can 
quickly lead to desertification, only exacerbating the aridity that the 
Western United States currently faces.\18\
---------------------------------------------------------------------------
    \18\ Melillo. Climate Change Impacts on the United States. 97
---------------------------------------------------------------------------
                             energy demands
    One repercussion of increased temperatures and higher evaporation 
rates could be a drastic decrease in storage, due to an already over 
allocated stream flow. Relatively small fluctuations in stream flow of 
1018% could result in significant decrease in reservoir storage along 
major rivers in the West. The impact of climate change on river flows 
and storage will also affect hydropower production.
    Compounding this is the prediction that in the coming years, 
electricity demand in the West will increase at a rate of 4-6% more 
under climate change conditions than they would otherwise. This 
increase in demand will likely encourage new energy development, which 
can place significant additional stress on already limited water 
supplies. Extraction and consumption of fossil fuels currently uses 
significant amounts of water. In 2000, coal and gas steam-generating 
electric plants in the eight state Interior West withdrew over 650 
million gallons of water per day, totaling over 728,000 acre-feet each 
year.\19\
---------------------------------------------------------------------------
    \19\ Clean Air Task Force and Western Resource Advocates, The Last 
Straw: Water Use by Power Plants in the Arid West, 2003, 2
---------------------------------------------------------------------------
    Some proposed new sources of energy would also have dramatic 
additional water demands. Water consumption estimates for oil shale 
range from 2.1 to 5.2 barrels of water per barrel of oi1.\20\ At 3 bbl 
water/bbl oil, producing one million barrels of oil per day would 
consume about 150,000 acre-feet per year--the total amount that some 
water resource managers say may remain in the entire upper Colorado 
River Basin for development.\21\ Power production to support in-situ 
retort also uses additional water. Shell's in-situ process uses 
approximately 250 to 300 kWh/bbl oil , and each kWh of electricity 
generated consumes about 0.5 gallons of water .\22\ ,\23\ ,\24\ ,\25\ A 
production rate of one million bbl/day oil would require about 150,000 
ac-ft water/yr just for power production.
---------------------------------------------------------------------------
    \20\ Bartis, J.T., et al., Oil Shale Development in the United 
States: Prospects and Policy Issues. RAND Corporation. Santa Monica, 
CA. 2005.
    \21\ Magill, B. Water manager: Climate change to ebb state's flows. 
The Daily Sentinel, January 27. 2007.
    \22\ Bartis, J.T., et al., Oil Shale Development in the United 
States: Prospects and Policy Issues, 2005.
    \23\ Clark, J. R., Nuclear energy proposed for production of shale 
oil. Oil and Gas Journal, vol 104(26), 2006. 18-20.
    \24\ Department of Energy (DOE), Report to Congress: The 
Interdependency of Energy and Water. 2006. Available at: http://
www.sandia.gov/energy-water/does/121-RptToCongress-EWwETAcomments-
FINAL.pdf Accessed 2/28/07.
    \25\ Forbes, S. Estimating Freshwater Needs to Meet Future 
Thermoelectric Generation Requirements. DOE/NETL/2006-1235. 2006. 
Accessed 2/17/07. Available at: http://www.netl.doe.govitechnologies/
coalpoweriewr/pubs/WaterNeedsAnalysisPhasel 1 006.pdf
---------------------------------------------------------------------------
    Feeling the need to adapt and diversify water resources, many 
communities throughout the west are also considering large scale 
pipelines to transport water from one region to another. Some of these 
proposals are for pipelines exceeding 200 miles in length.\26\ Pumping 
water this distance requires immense amounts of energy if met through 
coal or gas-fired power plants.\27\ The construction of these power 
plants, which emit great deals of carbon dioxide will only further 
perpetuate the cycle of climate change and all its associated impacts.
---------------------------------------------------------------------------
    \26\  Christina Roessler, Las Vegas and the Groundwater Development 
Project: Where does it start? Where will it end?, Progressive 
Leadership Alliance of Nevada, Las Vegas, NV, 2006.
    \27\ ibid
---------------------------------------------------------------------------
                agriculture in the western united states
    Eighty percent of all water in the United States is used for 
agricultural irrigation;\28\ if temperatures rise, causing elevated 
evaporation rates and decreasing the amount of surface water available 
for humans, then farmers may be forced to look elsewhere for water. One 
place for farmers to draw upon is groundwater. Over-pumping these 
underground aquifers (pumping more quickly than the aquifer is 
replenished) can cause land subsidence, salt-water intrusion and a 
myriad of other problems, further exacerbating difficulties that many 
states are already experiencing.\29\
---------------------------------------------------------------------------
    \28\ Glenn Schaible, ``Irrigation, Water Conservation, and Farm 
Size in the Western United States,'' Amber Waves, June 2004. http://
www.ers.usda.gov/AmberWaves/June04/findings/IrrigationWestern.htm
    \29\ McKinney. Environmental Science: Systems and Solutions, 3rd 
Ed, 231 6
---------------------------------------------------------------------------
                            looking forward
    Decreasing river flows and lake and reservoir levels that are the 
expected by-product of climate change provide great incentives to step-
up water conservation.
    Role of Governments.--While the bulk of conservation work needs to 
be carried-out by municipal governments, state and federal agencies can 
play an important role by providing funding and technical assistance 
and helping shape regional and state-specific education and message 
development.
    Planning.--The uncertainties generated by climate change require 
more frequent conservation planning and conservation goal-setting by 
water suppliers. Substantial state funding should be made available in 
the form of planning and implementation grants.
    Implementation.--Many cities in the West have demand management 
programs but, in many areas, improvements can still be made as cities 
refine their conservation programs and savings goals. Conservation 
program elements often include:

  <bullet> Rate structures that reward conservation and provide 
        incentive to avoid water waste;
  <bullet> Rebate programs the assist customers (both residential and 
        business) with installing high efficiency water fixtures, 
        appliances, and devices;
  <bullet> City ordinances and utility programs that encourage 
        efficient irrigation;
  <bullet> Business and residential audits that identify property-
        specific water issues;
  <bullet> Education programs that deliver a consistent conservation 
        message to all;

    Outdoor Water Use.--As municipal landscapes irrigation accounts for 
roughly half of total annual municipal water use, it deserves special 
attention. Successful outdoor programs include:

  <bullet> Incentives and requirements to amend the soil before 
        planting new landscapes;
  <bullet> Encouraging Xeriscape--to boost the prevalence of water-
        saving landscapes and, in some cases, limiting the amount of 
        turf as a percentage of total landscaped area;
  <bullet> Increasing efficiency by changing watering habits 
        (decreasing the numbers of watering days per week and lowering 
        the amount of time per sprinkler zone);
  <bullet> Irrigation improvements, including rains sensors (that turn 
        off sprinkler systems during rain) and more efficient sprinkler 
        head placement and water pressure.

    Because the West's new residents have not yet arrived, we should 
focus on new development to decrease the future water-use footprint, by 
encouraging residential and commercial developers and builders to use 
state-of-the-art conservation practices.
    In addition to the water conservation elements noted above, we need 
to build a future where energy is used more efficiently and more 
electricity is generated from renewable resources like, wind and solar 
power--since these sources require water little and do not emit green 
house gases that further contribute to climate change. Our recent 
analysis concludes that 7.3 million acre-feet (2.4 trillion of gallons) 
can be saved each year across the West, more specifically; 613 Acre-
feet (200 billion gallons) of water can be saved in Nevada alone. In 
addition to the water savings from greater efficiency and renewable 
sources, there are other substantial pollution and economic benefits of 
changing the ``business as usual'' approach to energy development.\30\
---------------------------------------------------------------------------
    \30\ Western Resource Advocates, A Balanced Energy Plan for the 
Interior West, 2004
---------------------------------------------------------------------------
                               conclusion
    The water resources of the West are magnificent resources and ones 
that are plagued by conflicting objectives. We desire electricity, food 
and development, yet we treasure our natural heritage and rich 
biological diversity. In the coming decades the challenge for the West 
will be to find an equitable balance between these goals; to use 
technological advances to aid human ingenuity, but not rely upon them 
as our sole crutch; to value human development, while preserving 
natural ecosystems for future generations.
    The vast majority of credible scientists believe that temperatures 
are rising in the western United States and that this will alter the 
natural environment that humans and other organisms rely so heavily 
upon. For this reason it is critical that governments and individuals 
take proactive measures to safeguard our natural resources. Managing 
the allocation of water in the west is a complex undertaking and will 
only be further complicated as supplies fluctuate. Prioritizing use, 
requiring conservation and addressing the root causes that have brought 
us to this place are all necessary steps to deal with the impacts that 
a changing climate may bring.
    Perhaps most importantly, measures must be put in place to 
encourage the efficient use of water. Such measures focus on demand 
side issues instead of supply side concerns. Rather than rely on the 
antiquated approach of finding more water, this approach asks the 
question, how can water demand be decreased or made more efficient? In 
the face of a changing climate and exploding populations, efficiency 
measures must be part of a long term solution. What is equally as 
important is that efficiency measures can easily be embraced by all 
sectors of water users; helping urban, industrial and agricultural 
communities take steps to reduce use and improve the efficiency of 
their water.

                                    

      

</pre></body></html>
